<html>
<title> - MISCELLANEOUS PUBLIC LANDS AND FORESTS BILLS</title>
<body><pre>[Senate Hearing 111-565]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 111-565

                    MISCELLANEOUS PUBLIC LANDS AND 
                             FORESTS BILLS

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON
                                     

              S. 2791                               S. 2966

              S. 2895                               H.R. 3759

              S. 2907                               H.R. 4474




                             MARCH 10, 2010


                       Printed for the use of the
               Committee on Energy and Natural Resources



                  U.S. GOVERNMENT PRINTING OFFICE
57-765 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           JOHN McCAIN, Arizona
ROBERT MENENDEZ, New Jersey          ROBERT F. BENNETT, Utah
BLANCHE L. LINCOLN, Arkansas         JEFF SESSIONS, Alabama
MARK UDALL, Colorado                 BOB CORKER, Tennessee
JEANNE SHAHEEN, New Hampshire

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee

















                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Blasing, Larry, Member, Grant County Public Forest Commission....    39
Fitzgerald, Stephen A., M.S., Professor and Silviculture & 
  Wildland Fire Specialist, Oregon State University, Redmond, OR.    44
Johnson, K. Norman, University Distinguished Professor, College 
  of Forestry, Oregon State University, Corvallis, OR............    33
Kerr, Andy, Senior Counselor, Oregon Wild........................    20
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................    14
Roberson, Edwin, Assistant Director, Renewable Resources and 
  Planning, Bureau of Land Management............................    10
Shelk, John, President, Ochoco Lumber Company....................    30
Sherman, Harris, Under Secretary, Natural Resources and 
  Environment, Department of Agriculture.........................     4
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    65

                              Appendix II

Additional material submitted for the record.....................    77

 
              MISCELLANEOUS PUBLIC LANDS AND FORESTS BILLS

                              ----------                              


                       WEDNESDAY, MARCH 10, 2010

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:52 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden 
presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    Senator Wyden. The subcommittee will come to order.
    The purpose of today's hearing is to receive testimony on 
several bills pending before the committee. These include S. 
2895, the Oregon Eastside Forests Restoration, Old Growth 
Protection, and Jobs Act of 2009; the Federal Land Avalanche 
Protection Act of 2009; S. 2966 and H.R. 4474, the Idaho 
Wilderness Water Facilities Act; and S. 2791 and H.R. 3759, the 
Forest Harvest Opportunity Act.
    Before we get started, I would like to say just a few words 
about S. 2895. This is legislation that I have introduced to 
get saw logs to Oregon mills, get our forests healthy again, 
and protect our treasured old growth forests on the east side 
of Oregon.
    I am very pleased that my colleague in the Oregon 
congressional delegation, Senator Merkley, has joined me as a 
co-sponsor of this legislation. I look forward to working 
closely with Senator Merkley to pass this bill, for it is 
urgent business, priority business for rural communities in my 
State that every single day are walking on an economic 
tightrope trying to survive.
    This legislation was the result of years of work, months 
and months of negotiations with leaders from the timber 
industry and leaders from environmental groups and scientists. 
Bringing both sides together to craft this legislation, in my 
view, significantly increases its chances to succeed, and on my 
watch, what we seek to do is end the timber wars in my home 
State of Oregon.
    The gridlock that has come about from the timber wars has 
taken its toll on both the well-being of our rural communities 
and the health of our forests. Nowhere has that impact been 
greater than in Oregon's eastside forests. With each passing 
month, the failure to address the needs of Oregon's 
increasingly unhealthy forests means that they have grown more 
and more at risk from preventable fire, insect infestation, and 
disease.
    Now each side in this fight I call the timber wars has 
thoroughly armed itself politically. Each has enough to 
survive, but never enough to succeed when Oregonians that I 
meet at community meetings and certainly on the east side 
consistently tell me, ``Ron, we need the tools in order to have 
good-paying jobs in our communities, and we want to protect our 
treasures.''
    The end result of all this gridlock across Oregon's Federal 
forest landscape is more than 9 million acres of choked, at-
risk forest in desperate need of management. Millions of acres 
of old growth are in danger of dying from disease, insects, or 
fire. Certainly, the infrastructure of the forest products 
sector, our mills and our loggers and the jobs that are so 
essential for them, are now facing a very uncertain future.
    Unless there are fundamental changes, the economic and 
environmental dangers that result from the lack of attention 
that our forest products and environmental coalition have been 
working on, these dangers are going to grow and not shrink in 
coming years.
    I am certainly encouraged, however, by the opportunity that 
we have got in front of us today. I am encouraged because we 
have had some real courage shown by folks in the forest 
products sector, folks in the environmental community, who came 
together with me to introduce legislation that, in my view, can 
bring jobs, a healthier forest, and new well-being to 
communities across rural Oregon and particularly 8.3 million 
acres of Federal forest in eastern and central Oregon.
    Timber executives are now standing shoulder to shoulder 
with leaders in the Oregon environmental community to take 
shared responsibility for saving endangered forests and the 
economies of rural areas. Today, in eastern Oregon, only a 
small handful of mills have been able to survive. Without 
giving them greater certainty of a supply of saw logs and an 
immediate increase in merchantable timber, more mills are going 
to close. If that happens, our eastside forests will pay the 
price, and on my watch, I am not going to let that happen.
    Without mills to process saw logs and other merchantable 
material from forest restoration projects, there isn't going to 
be any restoration of our eastside forests. My legislation will 
provide an immediate supply of logs in the short term to jump-
start restoration efforts and keep the mills alive.
    Job one must be saving our remaining mills and our loggers, 
what I call the infrastructure of forestry in central and 
eastern Oregon, while preserving old growth and watersheds. 
Three years from its passage, this legislation will provide 
long-term certainty required to restore each of the 6 eastside 
national forests, restore good-paying jobs to rural 
communities, and protect our most sensitive environmental 
treasures.
    Now we are very much aware that the road ahead will see 
significant challenges, and I expect that our coalition is 
going to be tested. But I have a lot of faith, great faith in 
the folks who developed this agreement. I know that they are as 
committed as I am to preserve the agreement that we have 
codified in our legislative proposal.
    We have already demonstrated something that I think 
colleagues here in the Senate are going to be thinking more 
about in the days ahead. That is the importance of working 
together on difficult issues and, as a result, achieving far 
greater results by working together than working apart. I am 
not going to consider a success, though, until Oregon's Federal 
forests are adequately funded to properly manage and restore 
their health as the valuable Federal assets that they are.
    I expect to lead the fight for funding that is needed to 
manage all our national forests, and that, too, is priority 
business for this subcommittee. As part of that effort, I am 
going to pull out all the stops to secure funding for the 
administration's priority watershed and job stabilization 
initiative because I think the administration is on the right 
track by working to promote collaborative solutions to meet the 
economic and environmental needs of our forests and rural 
communities.
    Let me close by thanking the individuals and organizations 
who have been in the trenches during what has clearly been 
hundreds and--I am looking out at some of them--I suspect it is 
thousands of hours of difficult work and negotiations to reach 
an agreement on this bill.
    One final comment, if I might? Today, we are going to have 
a witness here from Grant County, Oregon. I just want to take a 
moment, as chairman of this subcommittee, to applaud the 
residents of Grant County for the extraordinary rejection of 
hatred that they demonstrated last month.
    When the Aryan Nations, a neo-Nazi group known for 
violence, announced plans to relocate to Grant County, the 
people of Grant County rose as one to rally around their 
community and prove that racism is not welcome in Grant County. 
More than 1,000 people, a sixth of the county, attended public 
meetings to discuss how they would protect their community. So 
I am proud to be an Oregonian, and I am very proud to represent 
Grant County in the U.S. Senate.
    We have got a lot of Oregonians in the audience. I thank 
all of them for making the trek across the country. My friend 
and colleague, Senator Barrasso, is not here at this time. So 
let us go right to our witnesses--Harris Sherman, Under 
Secretary of Agriculture for Natural Resources and Environment, 
Department of Agriculture; Mr. Edwin Roberson, Assistant 
Director, Renewable Resources and Planning, Bureau of Land 
Management.
    Mr. Sherman and Mr. Roberson, if you will come forward, 
that will be very helpful. While you are coming forward, let me 
also give a special thanks to Mr. Sherman. I suspect he thinks 
that much of his waking time is being consumed talking to 
Oregonians, talking to our constituents about this legislation 
and other matters. I see his staff smiling in the back. So 
there is general recognition of that.
    Mr. Sherman, let me express my appreciation to you. I know 
you have got a lot on your plate. You have just come to this 
position, and suddenly, you have Oregonians camping out every 
which way, every time you turn around. We thank you for your 
thoughtfulness and responsiveness to them. We will make your 
prepared remarks a part of the record in their entirety.
    Mr. Roberson, BLM is a frequent guest before this 
subcommittee as well, and we appreciate the cooperation you 
have always shown us as well.
    So, gentlemen, let us begin and start with you, Mr. 
Sherman.

STATEMENT OF HARRIS SHERMAN, UNDER SECRETARY, NATURAL RESOURCES 
           AND ENVIRONMENT, DEPARTMENT OF AGRICULTURE

    Mr. Sherman. Thank you very much, Senator Wyden.
    Let me first begin by apologizing. I have somewhat of a 
cold. So, if I hack my way through this testimony, I apologize 
in advance for that.
    It is a great pleasure to be here, and I am here to present 
the administration's position on 3 separate bills--S. 2966, S. 
2907, and S. 2895. I want to focus most of my comments on your 
bill, S. 2895, but let me offer just a few quick comments on 
these other 2 pieces of legislation.
    I would ask, Senator, if my written testimony can be 
incorporated into the record?
    Senator Wyden. Without objection, it is done.
    Mr. Sherman. Thank you very much.
    Very quickly, on S. 2966, this is the Idaho Wilderness 
Water Facilities Act. I just want to go on the record as saying 
the administration does support this bill. We have reviewed the 
bill very carefully, and I think that it provides for very 
specific criteria upon which the Secretary can issue special 
use permits for in-holdings within 2 wilderness areas in Idaho.
    Unless there are questions, I would then move on to the 
next bill.
    Senator Wyden. You have full rights to move quickly.
    Mr. Sherman. OK. Second, S. 2908 is the Federal Land 
Avalanche Protection Act. My written statement clarifies the 
administration's general support for the concepts contained in 
this bill. We do have some concerns about section 3 of the 
bill, principally relating to added potential responsibilities 
for the Forest Service concerning active management of 
avalanches and some comments on a requirement for a centralized 
depository and advisory committees concerning avalanche issues 
and our role in avalanche issues.
    We would like to work with this committee and the staff of 
the committee on the language of this legislation, and I am 
happy to answer any questions with respect to that piece of 
legislation.
    Senator Wyden. Very good.
    Mr. Sherman. OK. Then turning to your bill, S. 2895, at the 
outset, Senator, I want to express my appreciation to you for 
your extraordinary leadership and energy and just effort in 
bringing this highly diverse group of Oregonians together and 
coming up with a consensus as to how to focus and deal with the 
challenges on the six eastside Oregon national forests.
    This administration strongly supports the goals and the 
principles of S. 2895, and I would like to be specific in 
clarifying why we support this. First, the bill's focal point 
is on restoration of these 6 national forests. This is 
restoration not on a random basis, but this is restoration on a 
comprehensive land-scale basis.
    That is the only way we are going to get to the root causes 
that we are facing today is a broad, systematic effort. So, 
that is exactly what needs to be done, and we applaud your 
focus on a landscape-scale effort.
    Second, the bill recognizes that collaboration is essential 
in getting the work done. It is very clear to me in my first 4 
months on this job that without collaboration, whether it is in 
Oregon or anywhere else in the United States, we are going to 
have a very, very hard time accomplishing our goals of 
restoring the Nation's forests. So collaboration is essential, 
and I think this bill places appropriate energy on bringing 
people together in a collaborative mode.
    Third, the bill gives careful direction to the protection 
of the environment, to the right siting of our road systems on 
national forests, and the building of science into 
decisionmaking. The bill also recognizes the importance of the 
woods product industry, without which restoration cannot 
happen.
    Having a strong, viable, sustainable timber industry is key 
to providing jobs, to sustaining our rural communities, and to 
getting this restoration work done. I wholeheartedly endorse 
your opening comments, Senator. I think they are right on.
    The bill also highlights the importance of biofuels and its 
potential role as part of the restoration process. The bill 
also addresses the appeals process and better approaches to 
resolving conflicts before they turn into litigation.
    As my written testimony outlines, these principles are very 
consistent with the themes that Secretary Vilsack has outlined 
beginning back in his speech last August in Seattle and the 
consistent message that USDA has brought to these issues in the 
past 6 or 7 months.
    There are certain clarifications and other concerns that we 
would like to work on, Senator, with you and your staff and the 
committee staff in the weeks ahead. I have identified what 
those concerns are in my written testimony.
    So I think I will stop with that, and I would welcome any 
questions that you might have.
    [The prepared statement of Mr. Sherman follows:]
    Prepared Statement of Harris Sherman, Under Secretary, Natural 
          Resources and Environment, Department of Agriculture
                                s. 2895
    Mr. Chairman, Members of the Committee, thank you for the 
opportunity to share the Administration's views on S. 2895, the Oregon 
Eastside Forests Restoration, Old Growth Protection, and Jobs Act of 
2009.
    S. 2895 directs the Secretary of Agriculture to establish a science 
advisory panel, conduct an assessment of forests located in eastern 
Oregon and subsequently undertake ecological restoration projects. 
While the assessment is prepared, the legislation directs the Secretary 
to mechanically treat 80,000 acres of forest in the first fiscal year 
following enactment, 100,000 acres in the second fiscal year, and 
120,000 acres in the subsequent year. During this ``interim'' period, 
the projects on the forests within eastern Oregon would not be subject 
to an administrative review process (appeals). The legislation also 
requires the Secretary to promote use of biomass and encourages the use 
of long-term stewardship contracts.
    I would like to express my appreciation to Senator Wyden for the 
leadership, energy and effort that went into developing this 
legislation and his work to bring diverse interests together. There are 
numerous concepts in the bill that the administration fully supports 
including collaboration, achieving restoration results on the ground, 
conducting assessments at a broad landscape scale to focus our efforts, 
reducing our road system to what is needed, establishing a pre-
decisional administrative review process, maintaining our much needed 
wood products industry and infrastructure, and promoting sustainable 
use of biomass as an energy source.
                            current efforts
    On our national forests, we are currently engaged in numerous 
administrative efforts to encourage and expand many of the concepts 
included in this legislation.
    When Secretary Vilsack articulated his vision for America's 
forests, he underscored the overriding importance of forest restoration 
by calling for complete commitment to restoration. He also highlighted 
the need for pursuing an ``all-lands'' approach to forest restoration 
and close coordination with other landowners to encourage collaborative 
solutions.
    To that end, the Forest Service portion of the President's 2011 
budget proposes to invest $50 million to improve watershed conditions 
through a new initiative, Priority Watersheds and Job Stabilization, as 
a part of the Integrated Resources Restoration budget line item in the 
National Forest System appropriation. Under this initiative, priority 
watersheds will be identified through a rapid watershed assessment or 
State forest assessment. Large-scale (greater than 10,000 acres) 
watershed restoration projects within these priority watersheds will be 
selected through a national prioritization process which favors 
projects that demonstrate coordination with other federal and state 
land management agencies; improve watershed function and health; create 
jobs or will contribute to job stability; create or maintain biomass or 
renewable energy development; and use youth programs. Restoration 
projects will clearly show restoration needs and goals, and will be 
developed in a collaborative manner with local communities.
    Throughout the nation, the Forest Service is engaging with a 
variety of citizens' groups to develop collaborative solutions to help 
us provide the best possible stewardship of the national forests. Two 
notable efforts in eastern Oregon include the Glaze Forest Restoration 
Project and the Lakeview Stewardship Group.
    The Glaze Forest Restoration Project on the Sisters Ranger District 
of the Deschutes National Forest was initiated in 2005 when Oregon Wild 
and the Warm Springs Biomass LLC approached the Forest Service with a 
proposal to restore 1200 acres of eastside Cascades old growth 
ponderosa pine forest so that it can function more naturally in a fire-
prone environment. A collaborative partnership of diverse interests 
agreed to cooperate and apply ecosystem, community and economic values 
on the land. After five years of active engagement and bringing these 
diverse groups together to plan and analyze this stewardship project, 
implementation began this January. No appeals were filed on the 
project, making it one of the few Deschutes National Forest projects 
involving commercial forest products interests to avoid appeal since 
1996. The project work is ongoing, and aims to jumpstart the old growth 
characteristics in the Glaze area while protecting the aspen stands, 
scenery and wildlife habitat.
    As important as the results achieved on the ground are the outcomes 
of the collaborative process that have resulted in strong relationships 
built on trust that will provide the basis for future collaborative 
work and projects that restore our national forests on a a larger scale 
and over the long-term.
    The Forest Service also employs a variety of assessment methods to 
gather information at the landscape or watershed level to guide our 
restoration efforts and develop projects. For example, the Pacific 
Northwest Region has an Aquatic Restoration Strategy in place which 
identified priority basins and watersheds for restoration. The Region 
is conducting a region-wide assessment of terrestrial habitat 
restoration needs and is working with the Western Wildland 
Environmental Threat Assessment Center to conduct a regional assessment 
of wildfire risk. These assessments will help identify the highest 
priority landscapes for integrated forest and watershed restoration 
treatments. In addition, the Region is working closely with the states 
of Oregon and Washington as they complete their State-wide Forest 
Resource Assessments and Strategies as required by the 2008 Farm Bill. 
The State-wide assessment is an analysis of forest resource conditions 
and trends, threats, and opportunities for the purpose of identifying 
and treating priority forest landscapes. The Region is using this all 
lands approach to mutually identify priority landscapes and plan how to 
best leverage resources.
    Another tool that has been helpful in building relationships and 
improving agency decision making is use of the objections process prior 
to a decision, rather than using an appeals process after a decision is 
made. Our experience with the objections process indicates that the 
process tends to increase direct dialogue between the agency and 
stakeholders and often results in resolution of concerns before a 
decision is made, and thus a better, more informed decision results. 
One example is the Sportsman's Paradise Fuels Reduction Project on the 
Mt. Hood National Forest. This project was initiated by local 
homeowners, who along with the Oregon Department of Forestry and an 
environmental group worked collaboratively to develop recommendations 
for the District Ranger. The most positive aspect of this effort is 
that the Sportsman's Paradise homeowner's group, which previously had 
not engaged with the Forest Service became an active participant in the 
planning process resulting in new relationships. The Mt. Hood National 
Forest received an objection from a participating environmental group. 
After discussions with the group, the District Ranger made some minor 
revisions to the document which resulted in the group withdrawing their 
objection. Upon implementation, the authorized work will decrease 
potential catastrophic fire loss for approximately 900 acres 
surrounding the Sportsman's Paradise community of approximately 170 
lots.
    I am very interested in expanding these successes not only within 
the State of Oregon, but throughout the country. I am focusing on 
advancing several principles I believe are paramount to accomplishing 
restoration on the entire national forest system. These principles 
include collaboration with diverse stakeholders, efficient 
implementation of the National Environmental Policy Act, greater 
dialogue over areas of conflict prior to the decision, ensuring 
opportunities for local contractors, expansion of the use of 
stewardship contracting, and monitoring to track our results on the 
ground. S. 2895 includes many of these principles I believe lead to 
success.
                            areas of concern
    While the Administration supports the key concepts in this bill, we 
do have some specific issues.
    I look forward to further dialogue with Senator Wyden and the 
committee to address the following areas of concern and offer other 
minor technical input into sections of the legislation.

  <bullet> Inclusion of existing management guidance and direction in 
        statute: While we appreciate the intent to ensure adequate 
        protection of riparian areas and the species dependent upon 
        them, we are concerned about codifying any particular strategy 
        that is intended to change over time. We want to work with the 
        committee to ensure that as new information becomes available 
        or there are changed circumstances in the forests that we can 
        easily and quickly adapt our plans and strategies.
  <bullet> Mandate to treat specific acreage levels. These specific 
        levels of treatment may result in unrealistic expectations on 
        the part of communities and forest product stakeholders that 
        the agency would accomplish the quantity of treatment required. 
        The levels called for in the first year would require the 
        forests involved to more than double their current levels of 
        treatment. We want to work with the committee to ensure these 
        treatment levels do not affect other forests and programs in 
        Oregon or the rest of the country.
  <bullet> Establishment of a formal science advisory panel. I am 
        concerned that the proposed advisory panel could be costly and 
        process laden. It appears likely that the tasks assigned to the 
        advisory panel would not be achievable within the timeframes 
        provided. Reaching consensus among a broad array set of 
        scientists on a wide variety of management recommendations for 
        a landscape as diverse as eastern Oregon will be a challenging 
        task. Often, there is conflicting peer-reviewed science 
        regarding appropriate management actions and disagreement over 
        the geographic applicability of scientific conclusions. The 
        selection of restoration projects could be affected if the 
        scientific panel cannot achieve consensus, or if it makes a 
        recommendation that the Forest Service found inappropriate to a 
        specific management situation. Finally, we believe that 
        establishment of an advisory science panel is unnecessary, 
        because personnel on the eastern Oregon forests currently work 
        very closely with scientists from the Pacific Northwest 
        Research Station and other scientists, including those from 
        Oregon State University and the University of Washington, to 
        ensure that management practices reflect current science and 
        that decision makers are aware of relevant disagreements within 
        that science.
  <bullet> Exemption from the appeals process for certain projects 
        during the interim period. An administrative review process 
        serves as an important and useful process for resolving issues 
        and averting litigation. With no established administrative 
        method to review decisions and areas of disagreement, we could 
        see more litigation during the interim period as a result of 
        having no administrative review process. Further, the bill 
        provides for an objection process for decisions on ecological 
        restoration projects that is only subtly different than the 
        objection process in our current regulations. Our preference 
        would be to have the authority to use our current regulations 
        at 36 CFR 218 to manage an objections process for all interim 
        and ecological restoration projects.
  <bullet> Collaboration: The provisions in the bill that provide for 
        recognition of collaborative groups are much more formal than 
        necessary to ensure collaboration on restoration projects. 
        Collaboration can and has been achieved without formal 
        recognition; I am cautious about adding more process to our 
        already rigorous public engagement process. Further, it is not 
        clear whether these groups would be subject to the Federal 
        Advisory Committee Act.
  <bullet> The precedent setting nature of the legislation and the 
        movement toward greater disaggregation of the national 
        framework under which the national forests are managed 
        continues to concern me. The Agency has a meaningful national 
        approach to management of the forests that takes into account 
        local conditions and circumstances through the development and 
        implementation of Land and Resource Management Plans.

    S. 2895 includes many of the concepts embodied in the president's 
proposed 2011 budget. We will use the full and comprehensive range of 
authorities available to the agency to restore and sustain forest 
landscapes in a collaborative open manner.
    I want to again thank Senator Wyden for his leadership and strong 
commitment to Oregon's national forests, their surrounding communities 
and forest products infrastructure. I look forward to working with the 
Senator, his staff, and the committee, and all interested stakeholders 
on this bill and to help ensure sustainable communities and provide the 
best land stewardship for our national forests.
    This concludes my prepared statement and I would be pleased to 
answer any questions you may have.
                                s. 2907
    Mr. Chairman, Members of the Committee, I am Harris Sherman, Under 
Secretary of Agriculture for Natural Resources and the Environment. 
Thank you for the opportunity to share the Department's views on S. 
2970, the Federal Land Avalanche Protection Act of 2009.
    S. 2970 directs the Secretary of Agriculture to establish a 
coordinated avalanche protection program to identify the potential for 
avalanches on Federal lands and inform the public about the hazard; to 
carry out research related to avalanches to improve forecasting; and to 
reduce the risk and mitigate the effects of avalanches on Federal 
lands. S. 2970 also requires the Secretary to establish an advisory 
committee to assist in the development and implementation of the 
avalanche protection program. The bill would require the establishment 
of a central repository 2 for weapons for avalanche control purposes, 
and would authorize the Secretary to make grants to carry out projects 
and activities under the avalanche control program.
    I would like to thank the sponsors of this legislation and the 
committee for recognizing the importance of the Forest Service 
avalanche program. The Forest Service supports the general concept of 
S. 2907, but asks the committee to consider revising Section 3 to 
clarify intent and to reflect changes to the Forest Service avalanche 
program that have occurred in the last several years. We would like to 
work with the committee and the sponsors in this regard.
                               background
    The Forest Service was the first agency to initiate avalanche 
control and forecasting in the United States. When the first ski areas 
began operating on National Forest System lands in the 1930s, the 
Forest Service began using explosives for avalanche control work to 
protect visitors. In 1948, the agency worked with the U.S. Army and 
pioneered the use of artillery for avalanche control. In the years 
since, the Forest Service has gradually transferred day-to-day 
responsibilities for avalanche control work to ski areas, though it 
supervises and manages the artillery program at the resorts. This is 
the case because the Department of Defense prohibits acquisition of 
artillery by private entities and because the Bureau of Alcohol, 
Tobacco, and Firearms requires that artillery programs be under federal 
``dominion and control'' at ski areas.
    Departments of transportation in Alaska, California, Colorado, 
Utah, and Washington also use artillery to control the avalanche danger 
in a number of transportation corridors in those States. In these 
areas, artillery is fired into avalanche starting zones on National 
Forest System lands. This effort is usually authorized and monitored by 
the Forest Service under a special use permit issued to the respective 
transportation department.
    As the Forest Service gradually moved into more of an oversight 
role for avalanche control work, the agency increasingly focused on 
providing forest visitors the education and information necessary to 
avoid or minimize avalanche hazards in the mountain backcountry. In the 
early 1970's, the Forest Service established the Colorado Avalanche 
Information Center. Through the 1980's the agency created a number of 
other backcountry avalanche centers around the country. Today, there 
are a total of 15 avalanche forecast centers operating in nine States, 
providing avalanche training and regular backcountry avalanche hazard 
forecasts throughout the winter.
    Were it not for these avalanche centers and the information they 
provide, the number of avalanche-related fatalities would be much 
greater than the 28 that have occurred each year on average over the 
past 15 years. Nearly all of these avalanche-related fatalities were on 
National Forest System lands and involved backcountry recreationists, 
including snowmobilers, skiers, and others. As populations increase and 
technology supports easier access to avalanche-prone areas, public 
exposure to this hazard has been heightened.
    We are convinced the avalanche forecast and education programs 
literally save lives. We are fortunate that others, including States 
and local community non-profit organizations, have joined with us to 
provide these services.
                   comments on sections 3(a) and 3(b)
    We are concerned that parts of subsections 3(a) and 3(b) may be 
interpreted to require the Forest Service to move beyond its 
traditional role of informing and educating backcountry users, into 
active avalanche control work. This concern is heightened if the intent 
is to have the Forest Service assume responsibilities on both National 
Forest System lands and federal lands managed by agencies in the 
Department of the Interior or others such as the Department of Defense. 
We would like to work with the Committee to clarify and limit the scope 
of Forest Service responsibilities under this legislation.
                   comments on sections 3(c) and 3(d)
    Presently, the Forest Service avalanche program has three main 
components. The first is avalanche backcountry forecasting, public 
education and information distribution, and research and technology 
transfer to avalanche forecast centers. The second is oversight of 
permitted ski areas and their avalanche control programs. The third 
component is oversight of the military weapons used for avalanche 
control.
    Section 3(c) mandates that the Secretary establish a 15-member 
advisory committee to assist in the development and implementation of 
the avalanche protection program. As it concerns the 5 avalanche 
forecast centers and their information and education programs, we do 
not believe an advisory committee is necessary. As it concerns civilian 
use of military weapons for avalanche control, the Avalanche Artillery 
Users of North America Committee (AAUNAC) was formed in 1987 and 
encompasses all of the users of avalanche artillery in Canada and the 
U.S., as well as the U.S. Army. AAUNAC is an ad hoc consensus-based 
working group established to address the need for an informal 
coordination body for civilian use of military weapons for avalanche 
control. AAUNAC has proven to be an effective organization to establish 
standard operating procedures, conduct training, and provide a central 
point of contact for U.S. Army. We feel it would be helpful if AAUNAC 
could be formally recognized as the coordinating body for using 
military weapons for avalanche control purposes. We look forward to 
working with this Committee to determine the best approach for 
providing this designation.
    Section 3(d) requires the establishment of a central Depository for 
weapons for avalanche control purposes. A central depository has 
already been established by AAUNAC, working with the Department of 
Defense. The facility is located at the Sierra Army Depot in Herlong, 
California and contains an estimated 20-year supply of artillery and 
parts. The Army has assured AAUNAC that the Army will reserve at least 
a twenty year supply of ordnance for AAUNAC users. Additionally, ski 
areas operating under a permit issued by the Forest Service can obtain 
ordnance for future use in their programs and store that ordnance at 
other Army Depots. Consequently, section 3(d) is not necessary.
                        comments on section 3(e)
    We request removal of the grant program. This subsection also 
identifies two criteria for awarding grants. If a grant program is 
retained in S.2907, we ask the committee to consider 6 recognizing the 
avalanche centers, and their forecasting and education work, as the 
first priority, and public safety the primary criteria for any grants.
                      comments on subsection 3(f)
    This section amends Section 549(c) (3) of title 40, United States 
Code to provide that, when a state agency selects surplus artillery 
ordnance suitable for avalanche control for distribution through 
donation within the state, the Administrator of the General Services 
administration shall transfer the ordnance to the user of the ordnance. 
Currently, munitions are purchased by the various entities in the 
military weapons program. We defer to the Department of Defense and the 
General Services Administration on this proposed change.
    In closing, I want to thank the Committee for the opportunity to be 
with you today to provide testimony on this legislation and we look 
forward to working with you on refinements to S.2970.
                                s. 2966
    Mr. Chairman, Members of the Committee, thank you for the 
opportunity to share the Administration's views on S. 2966 the Idaho 
Wilderness Water Facilities Act.
    The U.S. Forest Service supports S. 2966. The bill authorizes the 
issuance of a special use permit for the continued use of water 
storage, transport, or diversion facility located on National Forest 
System lands in the Frank Church-River of No Return Wilderness and the 
Selway-Bitterroot Wilderness in Idaho. The permits will only be issued 
to the water system owners of the water systems identified on the two 
maps accompanying S. 2966, and if certain conditions are met.
    Currently, there are over 20 water developments within the Frank 
Church River of No Return and Selway-Bitterroot Wilderness Areas that 
predate establishment of the wilderness, in some cases by decades.
    These developments include hydropower developments, irrigation, and 
domestic water uses. The legislation establishing both wilderness areas 
did not address these pre-existing water developments. S. 2966 would 
direct the Forest Service to issue special use authorizations, if the 
Secretary makes the following determinations: the facility was in 
existence when the wilderness area on which the facility is located was 
designated as part of the National Wilderness Preservation System; the 
facility has been in substantially continuous use to deliver water for 
the beneficial use on the owner's non-Federal land since the date of 
designation; the owner of the facility has a valid water right for use 
of the water on the owner's non-Federal land under Idaho State law, 
with a priority date that pre-dates the date of designation; and it is 
not practicable or feasible to relocate the facility outside the 
wilderness and achieve the continued beneficial use of water on non-
Federal land. We understand that the bill does not create any rights 
beyond what is provided in the special use permit and that both 
maintenance responsibilities and liabilities continue with the permit 
holder, and not the Federal government.
    This concludes my prepared statement on S. 2966 and I would be 
pleased to answer any questions you may have.

    Senator Wyden. Mr. Sherman, again, that is very helpful and 
reflective of the kind of cooperation you have shown us and my 
constituents. I will have some questions in a moment when your 
colleague has spoken from BLM.
    But I think with your opening comments, this ought to send 
a message across Oregon that we now have a partner at this 
agency who is going to be hands-on, who is going to work with 
us. Of course, no piece of legislation is set in stone. I think 
all of the negotiators in our effort realize that.
    But to have this kind of cooperation, the opportunities to 
secure funding through the innovative approach that the 
administration has taken in the budget is the kind of approach 
my constituents want to hear. So we will have some questions in 
a moment, and I thank you for your help and cooperation.
    Mr. Roberson.

  STATEMENT OF EDWIN ROBERSON, ASSISTANT DIRECTOR, RENEWABLE 
       RESOURCES AND PLANNING, BUREAU OF LAND MANAGEMENT

    Mr. Roberson. Mr. Chairman, thank you for inviting me to 
testify on S. 2791, the Forest Harvest Opportunity Act, and 
H.R. 3759, the BLM Contract Extension Act. I, as with Harris 
Sherman, respectfully request that my written testimony be made 
a part of the record.
    Senator Wyden. It is done.
    Mr. Roberson. The Department of the Interior supports the 
goal of the bills to allow timber sale contract extensions for 
market-related reasons. This action would assist timber sale 
purchasers whose industry is facing serious economic 
challenges. We appreciate Senator Merkley's effort to address 
this very time-sensitive issue and would like to work with the 
subcommittee on technical changes that give the Secretary the 
discretion to grant the extensions.
    Of the 253 million acres of public lands administered by 
the BLM, more than 60 million acres are forests and woodlands. 
About 11 million acres are commercial forest land, including 
2.1 million acres of Oregon and California grant lands in 
western Oregon. Our goals of forest management include 
restoring and maintaining healthy forests; improving their 
resistance to wildfire, insect, and disease outbreaks; and 
promoting sustainable economic development for local 
communities.
    Each year, the BLM offers about 270 million board feet of 
timber for sale. Both large and small businesses purchase the 
timber sales through competitive bidding, and contracts are 
awarded for 3 years.
    Many purchasers bought BLM timber in good faith at prices 
that are no longer economically viable. Under current 
regulations, the BLM may grant a 1-year contract extension, but 
that extension may not be granted due to market changes. 
However, the BLM and timber contract purchasers may agree to 
cancel a contract, and mutual cancellation relieves the 
purchasers' duty to perform their contract obligations and 
allows the BLM to reoffer the sales at a price that reflects 
current market conditions.
    To date, we have received 46 requests for contract 
cancellation and have authorized 39 of these requests. We are 
now contacting purchasers and beginning the cancellation 
negotiations.
    We support the intent of S. 2791. The legislation would 
provide the Secretary with an additional tool for assisting 
timber sale purchasers in weathering current economic 
conditions. However, the legislation as written requires the 
Secretary to grant 3-year economy-related timber contract 
extensions. BLM is concerned about mandatory timber contract 
modifications and would like to work with the subcommittee to 
make the extensions fall within the discretion of our 
Secretary.
    H.R. 3759 passed by the House on January 19th this year, 
and we support this bill, which authorizes but does not require 
the Secretary to grant 3-year market-related contract extension 
for qualified contracts.
    We are currently negotiating with purchasers to authorize 
mutual cancellation of timber sales. Most of these same 
purchasers would also qualify for the timber sale contract 
extension under both bills, the H.R. and the Senate bill. Many 
purchasers have expressed a preference to extend their 
contracts rather than to proceed with contract cancellation, 
and having the option to extend these contracts would be 
beneficial to the BLM, to the industry, and to western 
communities.
    We look forward to working with the committee on this 
important legislation. Thank you for the opportunity to 
testify, and I, too, will be happy to answer questions.
    [The prepared statement of Mr. Roberson follows:]
  Prepared Statement of Edwin Roberson, Assistant Director, Renewable 
           Resources and Planning, Bureau of Land Management
                         s. 2791 and h.r. 3759
    Thank you for inviting the Department of the Interior to testify on 
S. 2791, the Forest Harvest Opportunities Act, and H.R. 3759, the BLM 
Contract Extension Act. The Administration supports the goal of the 
bills to allow timber sale contract extensions for market-related 
reasons. This approach would assist timber sale purchasers whose 
industry is facing serious economic challenges. We appreciate Senator 
Merkley's efforts to address this very time-sensitive issue, and we 
would like to work with the Subcommittee on technical changes that give 
the Secretary the discretion to grant the extensions.
                               background
    The Bureau of Land Management (BLM) manages approximately 253 
million acres of surface lands, of which more than 60 million acres are 
forests and woodlands. Approximately 11 million acres are commercial 
forestland within the 11 western States and Alaska, including 2.1 
million acres of Oregon and California Grant lands in western Oregon. 
Our goals of forest management include restoring and maintaining 
healthy forests; improving their resiliency to wildfires, insect, and 
disease outbreaks; and the BLM promoting sustainable economic 
development opportunities for local communities.
    Each year, the BLM offers approximately 270 million board feet of 
timber through sales contracts. Both large and small businesses 
purchase BLM timber sales. Timber sale contracts are sold primarily 
through competitive bidding and are awarded for a contract period of 
three years.
    The forest products industry is facing an unprecedented struggle 
due to the downturn in the national economy and the housing market. 
According to the Western Wood Products Association, western lumber 
production in 2009 decreased by approximately 21 percent to 10.2 
billion board feet, the lowest since the 1930s, about half the volume 
Western mills produced in 2005. The value of lumber has declined even 
more steeply. The estimated wholesale value of western lumber was $3.66 
billion in 2008, a decrease of 40 percent from its 2007 value of $6.1 
billion according to the Western Wood Products Association.
    Many timber purchasers bought BLM contracts in good faith at prices 
that, under current market conditions, render the completion of their 
contract obligations no longer economically viable. BLM timber sale 
purchasers have been faced with difficult decisions of whether to 
default on their contracts or harvest the wood at a great economic 
loss, both of which could result in severe consequences to their 
companies and to the local communities that support them. Under current 
regulations, the BLM may grant a one-year contract extension, but that 
extension may not be granted on the basis of market fluctuations. 
However, the BLM and timber contract purchasers may mutually agree to 
cancel a contract. Mutual cancellation would relieve existing 
purchasers' duty to perform their contract obligations and allow the 
BLM to reoffer the sales at prices reflecting current market 
conditions. On October 14, 2009, the BLM provided direction to its 
State Offices to offer timber contract purchasers the option to request 
a one-time mutual cancellation of contracts.
    On November 14, 2009, all eligible timber sale contractors received 
a letter from the BLM with information regarding the opportunity to 
make such a request within 60 days. The BLM received 46 requests for 
mutual cancellation of timber sales from purchasers in Oregon and 
Wyoming. The BLM State Directors evaluated the requests and authorized 
contract cancellation for 39 requests. The BLM Oregon State Director 
recommended that the agency not consider mutual cancellation on four 
sales where no contract obligations remain. The Oregon State Director's 
staff is still evaluating three additional requests. Contracting 
Officers are now contacting purchasers to initiate negotiating the 
process. The BLM has developed procedures to ensure that the process is 
fair to the BLM, the taxpayer, and the purchaser.
                               h.r. 3759
    The House passed H.R. 3759, as amended, on January 19, 2010. The 
Administration supports H.R. 3759, as amended, which authorizes, but 
does not require the Secretary to grant three-year market-related 
contract extensions to qualified contracts upon a written request made 
by a purchaser within 90 days of enactment. Qualified contracts must 
meet certain criteria: 1) the contract has not been terminated; 2) the 
contract was awarded during the period beginning on January 1, 2005, 
and ending December 31, 2008; 3) there is unharvested volume remaining 
on the contract; 4) the contract is not a salvage sale; and 5) there is 
no urgent need to complete harvest under the contract due to 
deteriorating timber conditions. The House bill also requires the BLM 
to promulgate new regulations authorizing the BLM to extend timber 
contracts due to changes in market conditions and to negotiate new 
contract terms.
                                s. 2791
    S. 2791 requires the Secretary of the Interior to grant three-year 
economy-related timber contract extensions within 30 days of a request 
from the timber purchaser. The bill would apply to contracts executed 
on or before December 31, 2008, for which there is unharvested timber 
volume remaining and the contract is still in effect. The purchaser 
would be required to make a written request for an economy-related 
extension within 90 days of enactment of the Act. The BLM is concerned 
about mandatory timber contract modifications, and would like to work 
with the subcommittee to make the extensions within the Secretary's 
discretion (as provided for in the House-passed H.R. 3759).
                               conclusion
    Thank you for the opportunity to testify on S. 2791 and H.R. 3759. 
The BLM is currently involved in negotiations with timber sale 
purchasers to authorize mutual cancellation of timber sales. Most of 
these same purchasers would also qualify for timber sale contract 
extensions under either bill. In order for the purchasers to have 
either the option to request a three-year contract extension or to 
complete mutual cancellation negotiations, enactment of legislation is 
necessary. Many purchasers have expressed a preference to extend their 
contracts rather than to proceed with mutual cancellation. Having the 
option to extend these contracts would also be administratively 
beneficial to the BLM. We look forward to working with the Committee on 
this important legislation.

    Senator Wyden. Thank you very much.
    I think I am advised by the staff, that last bill is in the 
jobs legislation, isn't it?
    Yes, just yesterday. So thank you, and good points from 
both of you.
    Let me start with you, if I might, Mr. Sherman? What I am 
struck by, and I am going to just tick off a number of the 
points that you made in terms of the features of the 
legislation that you have indicated move in the right direction 
and go to this question of maintaining the infrastructure, the 
industry infrastructure and its importance.
    I know in Washington, DC, people talk about infrastructure 
all the time. Everybody kind of scratches their head and tries 
to figure out what in the world you are talking about. But in 
the real world of eastern Oregon and eastern Oregon 
communities, what people are talking about are mills and 
loggers.
    What we are concerned about is if we don't move and move 
quickly, there is a real risk that we are going to lose those 
folks, and we are going to lose those folks at a critical time. 
Because, of course, they are a substantial part of the economic 
livelihood of rural communities, and we so need them right now 
as we seek to go forward and tap these exciting opportunities 
for biomass.
    We know that there is a tremendous economic opportunity in 
eastern Oregon in the biomass sector. Take wood waste, turn it 
into clean energy, get it to the mills. It is going to be good 
for the forests. It is going to be good for the economy. It has 
the chance to be a huge multiplier in terms of benefits to the 
region.
    We aren't going to be able to get it done if we lose those 
remaining mills and if we put more loggers on the unemployment 
line. So this has been a key part of our whole coalition's 
efforts to come together, and I wanted to ask you a question 
with respect to the important forest restoration work that you 
all have been doing. You can kind of comment on how this is 
something you have analyzed even in the context of other parts 
of the country.
    What are the prospects for the Forest Service to accomplish 
this critically needed forest restoration work if we lose 
infrastructure? It just strikes me as once again the dominoes 
are going to start falling, and they are not going to be 
collapsing in a positive way.
    But tell us, even in light of your national experience, 
what happens when you are trying to do forest restoration work 
and you keep losing infrastructure?
    Mr. Sherman. As I have indicated in my opening remarks, 
Senator, the key to getting this restoration work done is to 
have a viable, healthy, strong timber industry. We have to get 
this material out of the forests, and we have to look to our 
partners in industry to help us do the restoration work.
    I think you have been privy to some of these discussions 
about stewardship contracts, where we are trying very, very 
hard to go forward with contracts where the companies will not 
only take the timber out, but they will do a lot of the hard 
restoration work that needs to be done. But if these companies 
are not there, it becomes very problematic to get the 
restoration work done.
    My home State of Colorado, we are down to one mill in 
Colorado. It is very, very hard to do the restoration work that 
is necessary when you get to that kind of a situation.
    So, without question, we have to work with the industry to 
make sure it is viable and healthy and it has adequate product 
and it has an environmental review system that is responsive to 
its needs. We have to have a system here of collaboration that 
really works.
    I know collaboration can be a relatively slow process 
sometimes. But I think as we get better and better in our 
collaborative skills, hopefully, that will go more smoothly 
than it has in the past and it will go more quickly. But it is 
a combination of things that we need to work on to ensure that 
the industry will be viable and healthy and help us with this 
restoration work.
    Senator Wyden. I am going to have some additional 
questions. But our ranking member has arrived, Senator 
Murkowski. I want to recognize her for an opening statement 
before we go any further.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. I appreciate 
that.
    Welcome to the gentlemen before the committee today.
    On the calendar this afternoon is legislation that I have 
introduced, which is S. 2907 to establish a coordinated 
avalanche protection program. I understand comments have been 
made on this, but I wanted to take just a couple minutes today 
to speak to this legislation. I am a member of the 
Congressional Hazard Caucus and introduced this legislation to 
tackle the impacts of our Nation's natural hazards, and that is 
avalanches.
    In my home State, we are paying very close attention to the 
avalanches because, as we speak, we have had 2 in the past 18 
hours on the highway from our popular ski resort into town. I 
was on that road myself Monday morning and experienced the most 
intense whiteout of 35 miles that I have been privileged to go 
through in a while. The good news for me is I made it on this 
side of the avalanche safely and am here to tell the story.
    The legislation that we have introduced is identical to the 
measure that we favorably reported out of this committee back 
in 2005. The goal is to better protect people in avalanche 
zones nationwide, reduce the growing potential for avalanches 
to damage property, and as more and more building is taking 
place on mountainsides and in valleys that are threatened by 
avalanches, I think we recognize we have a problem in this 
country.
    Just last month, in the space of just 2 days, we had 3 
Alaskans that were killed by avalanches in 2 separate 
instances. One, we lost the president of ConocoPhillips in an 
extremely tragic and sad incident as they were out snow 
machining.
    Last year, we had 49 avalanches in 10 States and Canada, 
which caused 54 fatalities in North America. What we are seeing 
is not unusual. In the 2007-2008 season, we had 36 Americans 
lose their life as a result of avalanches. Another 16 Canadians 
died that season, 43 reported avalanches. In 2002-2003, we had 
58 people in North America die.
    When you look at what we are seeing in terms of averages, 
38 people have died on average each year in North America from 
avalanches, and most of these occur in western States--
Colorado, Montana, Idaho, Wyoming, Utah, Alaska, California, 
Oregon, and Washington. But we have also had some in our 
eastern States. But when you put that into perspective, that is 
38 people on average. There were 29 deaths within the ranks of 
the wildland firefighters from 1990 to 1998. So that is 3.2 
fatalities per year. Thirty-nine deaths from 1999 to 2006, 4.9 
fatalities per year.
    The agency expends millions of dollars working to keep 
these firefighters safe which is absolutely appropriate. But it 
expends comparatively little on work to protect the millions of 
folks who visit our Federal lands during the winter time. We 
have issues that need to be addressed.
    The bill directs the Secretary of Agriculture to establish 
an avalanche protection program to identify the potential for 
avalanches on Federal lands and inform the public, carry out 
ongoing research to improve avalanche forecasting, and reduce 
the risks of avalanches and mitigate their effects.
    Now, I have mentioned a couple different instances up in my 
State right now, and I think we appreciate that avalanches are 
a concern not just in the back country, whether it is Hatcher 
Pass or for heli-skiing enthusiasts outside of Valdez. But we 
see it in the urban areas. We see it in Juneau, our capital 
city, and as I mentioned, the motorists who drive daily from 
Seward Highway to Girdwood to Anchorage or through the 
Turnagain Pass.
    We have to do more on Federal lands. We need to do more to 
assist the States to lessen the severity of avalanche dangers 
on State and private lands.
    Now I understand that you are willing to talk to us about 
how we might implement such a measure, the concern that we 
don't have enough funding to carry out some of the requirements 
of that legislation. But I guess I would respond that if the 
Forest Service wants to shift away from commodity resource 
management toward a recreation-based program, we have to be 
prepared to provide a safe recreational experience within 
budgets that it is now receiving.
    It is not acceptable to be losing 20 to 40 Americans to 
avalanches and so many on Federal lands, without the agency 
doing what it can to predict, control, and mitigate. I know 
these are difficult, but I would like to think that many of 
these deaths are preventable.
    I think the proposal that we have takes logically fiscally 
prudent steps to do just that, and I would look forward to 
working with you, Mr. Chairman, and with all those involved to 
see what we can do to make a difference.
    With that, Mr. Chairman, I thank you for the opportunity to 
step in and make a statement. I look forward to working with 
you.
    Senator Wyden. I thank my colleague, and I think it is 
clear these are areas that we can work together on. I am 
interesting in working with you. It is something that I have 
always enjoyed in my time in the Senate. We will work very 
closely on this.
    Senator Murkowski. I appreciate it.
    Senator Wyden. Good. Senator Risch, who has also been 
working hard and very constructively on natural resources 
issues, why don't we recognize you for any statement you would 
like to make?
    Senator Risch. Thank you, Mr. Chairman.
    I am honored you would say that, and thank you for holding 
this hearing.
    I would like to talk about S. 2966 that Senator Crapo and I 
are co-sponsors on, if----
    Senator Wyden. Please, go ahead.
    Senator Risch [continuing]. The chairman would permit that?
    I am going to be brief on this. Although it doesn't affect 
a lot of people, it is very important to the people that it 
does affect.
    Very simply, what this bill does, it allows--it permits, 
but does not require, but does permit the Secretary of 
Agriculture to issue permits to allow people who have 
individual water systems within 2 wilderness areas in Idaho--
the Frank Church-River of No Return Wilderness Area, which was 
established by Congress in 1980, and the Selway-Bitterroot 
Wilderness, which was established by Congress in 1964, one of 
the oldest wilderness areas in the United States.
    But in any event, what has happened is the water diversion 
systems in these areas have been deteriorating over the years, 
and it is important that they be maintained and that they, 
where necessary, be rebuilt in order to be safe and, for that 
matter, to protect the watershed that they are in and the 
resource that they are in.
    At the present time, there is, at the very least, a 
question as to whether the department can do this. This will 
answer that question, and it allows the permit only to be 
issued if, No. 1, the facility existed--that is, the water 
diversion facility existed prior to the designation as 
wilderness. Second, the facility has been used to deliver water 
to the owner's land since the designation, that the owner has a 
valid water right, and that it is not practical to move the 
facility outside the wilderness area.
    So it has got some pretty tight sideboards on it. It is 
something that is really needed by what I think is just a 
handful of people that it does affect. There has been an 
estimate that it is several dozen people who have these 
systems. I am not quite sure it is that high. I think that is 
generous.
    But in any event, I am not aware of any opposition to this 
bill. I think that it is supported, as I understand it--and I 
certainly don't want to speak for the Department of 
Agriculture, but I understand it is supported by the Department 
of Agriculture. The environmental groups that generally keep a 
close eye on these things I understand are not in opposition to 
this.
    So, with that, thank you, Mr. Chairman. Thank you for the 
ability to be able to present this bill, and we look forward to 
moving it forward.
    Senator Wyden. I thank my colleague. It certainly sounds to 
me like you have done good work on this, and let us get our 
staffs together. If there are anybody who has any questions, we 
will get on it.
    But I look forward to working closely with you and moving 
this ahead.
    Senator Risch. Thank you, Mr. Chairman.
    Senator Wyden. A couple of other questions, if I might? For 
you, Mr. Sherman, I was very pleased to hear you, in your 
comments on the Oregon legislation, talk about landscape-scale 
planning because to my constituents, this really means that you 
can get more work done more quickly and produce greater 
benefits to the region.
    But if you might, tell me a little bit about your interest 
in moving toward this kind of approach, because it certainly 
sounds to me like the agency wants to go in this direction, how 
you seek to go about doing it and what you think the gains are 
in going that route?
    Mr. Sherman. Thank you, Senator.
    I think we fully agree with you that on a landscape-scale 
basis, you can get a lot more work done. So that is clearly our 
desire and intent. I think there are many ways in which we move 
to get there, one of which is to do a very comprehensive 
assessment early on as to what are the conditions of these 
forests and what are the priorities so that we can make better 
decisions about how to allocate our resources. I commend you in 
your bill for calling for an assessment during the first 2 
years so that we get a comprehensive picture of the priorities 
that we want to address.
    I think, in addition to that, we need to, again, focus on 
how we can make the National Environmental Policy Act as 
responsive as possible to identify what those environmental 
concerns are, how to mitigate those environmental concerns, and 
then get on with the implementation of these programs. So 
having an efficient NEPA process is important.
    I think, in addition to that, in order to get to a 
landscape-scale program, we have to come back to this issue of 
collaboration. How do we get groups working together to make 
sure that we are on the same track, we have a consensus about 
how to do this, as opposed to the timber wars that you have 
mentioned in the past? So that is very important.
    We need to incorporate good science into landscape-scale 
restoration work, and we need to tailor our stewardship 
contracts to make sure that they are allowing us to remove the 
timber that is necessary and, at the same time, allow us to do 
comprehensive restoration. I think those are the main 
components of how we need to move forward on a landscape-scale 
basis.
    Senator Wyden. Tell me a little bit more about 
collaboration, and I think that is an appropriate one to kind 
of wrap up this part of the hearing. We will have guests from 
around Oregon and continue to work with your folks.
    We have come to feel that without that kind of 
collaboration, what folks in eastern Oregon showed as we tried 
to get this bill together, that you really get a lose-lose 
situation. In other words, everybody in Oregon wants a win-win. 
They want to have jobs and a real economic future in rural 
Oregon, and they want to protect treasures. But without 
collaboration, what you usually get is somebody running down to 
a courthouse somewhere and suing each other, and you don't get 
either.
    So we are very interested in the administration's approach 
on collaboration, and we look forward to working with you to be 
as creative as we possibly can in this room. I think about 
Senator Craig--Senator Risch will remember this. We were 
stalled on the county payments legislation. We went round and--
--
    Senator Risch. Excuse me. Is that the Craig-Wyden bill?
    Senator Wyden. There was a lot of joking. Frank Gladics 
remembers the history about this. Whether it was called Craig-
Wyden or whether it was called something else, the fact was 
that people did then what Secretary Sherman is talking about, 
is look for new ways to collaborate. That was the point of the 
resource advisory committees.
    Nobody had ever really thought about anything like that. 
Senator Craig and I basically said, coming out of this huge and 
bloody battle about sufficiency language--talk about 
litigation, that was a lawyer's full employment program there 
for a while. Let us use these RACs, resource advisory 
committees, to try to get people working together.
    So let us close this part of the discussion, Secretary 
Sherman, by hearing some of your thoughts about the 
opportunities for collaboration, areas where you may want to 
try some new approaches to bring people together because I am 
pleased the administration is going that route. We ought to 
push the envelope just as hard as we can to find ways to get 
people together. That was, of course, the point of the eastside 
effort.
    So close this part of the discussion with your thoughts on 
collaboration.
    Mr. Sherman. Senator, I am gratified by the examples I am 
seeing around this country on collaboration. I think it is 
fascinating how we go to the Northeast now, we are seeing major 
success in collaboration. We come out to Montana and Oregon and 
California, Colorado, Wyoming, Idaho. We are seeing people 
getting together because I think there is a common recognition 
that we have got a problem, and we have got to address the 
problem.
    One of the frustrations with collaboration is it takes 
time. I am hopeful as we go through some of these initial 
collaborative processes, we are going to get more more skillful 
in dealing with collaboration, which will allow us to expedite 
some of these collaborative efforts. I think people are gaining 
experience, which should be helpful later on.
    In addition to that, these collaborative efforts within a 
given State build trust, and over time, people learn to trust 
each other in a way that they haven't before. So, initial 
collaborations may take more time, but subsequent 
collaborations may go faster because of that trust level that 
grows.
    So I think we have got to try everything in this respect. I 
believe that the informal collaborative processes sometimes are 
more adaptable, and they work faster than sometimes these 
highly structured collaborative processes. But that is the sort 
of issue that we want to have a chance to talk to you about and 
your staff and the committee staff in terms of the specifics of 
this legislation.
    Senator Wyden. I appreciate that, and I think you know how 
strongly folks feel in my part of the world. The Federal 
Government owns most of our land. The folks that are going to 
be testifying in a little bit are from communities that are 
extraordinarily dependent on national forests.
    So I think on our watch, we have got a chance to literally, 
as I would like to put it, I want to see us end the timber wars 
on my watch in the State of Oregon. They have gone on for more 
than 2decades. It has not served our State well. It has not 
been good for our economy. It has not been good for protecting 
our treasures. That is what I am going to do everything I can 
as chairman of the subcommittee to reverse.
    So we thank you for your constructive approach. We will be 
following up with you often, and I promise not to send more 
than half of the adults in my State to visit with you and your 
staff. I know that we have been keeping you busy, and we are 
appreciative.
    Mr. Sherman. Thank you, Senator. Once again, let me thank 
you for your leadership, and rest assured we always welcome 
Oregonians at USDA. Thank you.
    Senator Wyden. Very good. Thank you.
    Mr. Roberson, you are getting spared, I guess, questions 
from me today. But as you know, we will be working very closely 
with you as we move to the timber payments legislation and 
reauthorizing that. Senator Risch has a great interest in that 
and some good ideas on that as well.
    Senator Risch, do you have any questions for our witnesses?
    Senator Risch. No, thank you very much. I appreciate it.
    Senator Wyden. OK. Let us go to our next panel. We will 
excuse you both. Look forward to working closely with you.
    Our next panel--Andy Kerr, senior counsel of Oregon Wild; 
John Shelk, managing director of Ochoco Lumber; K. Norman 
Johnson from--Norm is from Oregon State University, the College 
of Forestry. Stephen Fitzgerald, associate professor of Oregon 
State University, and Larry Blasing, member of the Grant County 
Public Forest Commission from Prairie City, Oregon.
    My thanks to all for coming, and I can certainly identify 
with everybody making the long trek from the Pacific Northwest, 
and we appreciate the attendance of all.
    Let us start with Mr. Kerr. We are going to make your 
prepared remarks a part of the record in their entirety. If you 
would like to summarize your comments, that would be helpful.
    Mr. Kerr, welcome.

           STATEMENT OF ANDY KERR, SENIOR COUNSELOR, 
                          OREGON WILD

    Mr. Kerr. Thank you, Senator. Thanks for having this 
hearing today.
    You know, I come from the wilderness movement. As a public 
land conservationist, nothing is more satisfying than to 
achieve one's conservation goals than when Congress draws a 
line around an area and says this piece of public land is so 
special and sacred that it shall be managed primarily by 
leaving it alone for the benefit of this and future 
generations.
    I still have one foot firmly planted in the wilderness 
movement. There have been plenty of worthy roadless areas in 
eastern Oregon that ought to be part of the national wilderness 
system. However, most of our eastside forests of Oregon are not 
pristine and are, in fact, sick and wounded.
    My other foot is firmly planted in the best available 
science. The general consensus of this best available science 
for dry Ponderosa pine and dry mixed conifer forests on the 
east side of Oregon is that much of this forest in these types 
is in need of active restoration, ecological restoration that 
includes not only the careful reintroduction of fire into these 
fire-dependent forests, but often the judicious use of a 
chainsaw and the removal of ecologically problematic trees.
    Enactment of this legislation can mark the end of the 
timber wars for the eastside forests of Oregon. It can result 
in new rules of engagement for national forest stakeholders. 
Confrontation can give way to collaboration. Walking and 
talking in the woods can become more prevalent than litigating 
and arguing in the courts.
    The amount of old growth Ponderosa pine forest in eastern 
Oregon today is but 2 to 8 percent of what it was before 
European settlement. The result is unnatural concentrations of 
fire-susceptible younger and smaller trees that are out-
competing the residual old growth Ponderosa pine for moisture 
and nutrients, leaving the old growth trees more likely to 
suffer premature death from insects and disease.
    An additional, but sometimes overblown concern is that the 
encroaching trees can also serve as a ready fuel ladder and 
carries otherwise beneficial low-severity surface fires into 
the residual old growth canopy, resulting in the loss of this 
rare old growth Ponderosa pine.
    It is the dry forest types of the east side that are 
generally unhealthy. For a century and a half, the natural and 
beneficial frequent low-severity surface fires have been 
interrupted due to domestic livestock grazing, which removes 
the grass that carried those fires. For well over a century, 
the forests have been high-graded for their wood by removing 
the largest and most naturally fire-resistant trees for timber. 
For well over half a century, the fire industrial complex has 
effectively deprived these forests of vital fire.
    From the standpoint of both habitat and hydrology, row 
densities on these forests are extreme. Restoration of dry 
forest types across eastern Oregon needs to be done on a very 
large scale. It is not feasible to solely rely on either 
prescribed or wildfire to achieve these ends.
    First, the wildfires may not be adequate in scale. Second, 
the acceptable level of prescribed burning is limited to the 
appropriate weather windows and available staffing. Third, fire 
is imprecise tool to surgically excise ecologically problematic 
small trees while saving ecologically vital live trees.
    A major challenge in implementing this legislation will be 
securing adequate funding. Society owes an ecological debt to 
these forests that Congress must honor. The best source of 
funds to pay down this ecological debt is to reprogram the 
current Forest Service annual appropriations that now go to a 
fire industrial complex that wastes billions of dollars 
attempting to extinguish fires that cannot or should not be 
extinguished.
    Reprogramming this money to ecological restoration and to 
private land owner incentives to make their dwellings resistant 
to fire is a much better use of taxpayer funds.
    Unlike other bills pending in Congress that address forest 
health issues on Federal lands, what distinguishes this 
legislation, I think, is that it does not presuppose a specific 
ends or a means to achieve them. Rather than declaring as a 
matter of legislative fact that all bugs are bad and all 
diseases disastrous and all fires are fatal, this legislation, 
rather, sets broad goals of how the forests should be managed 
that most people can agree to and leaves to the Forest Service 
to manage consistent with the best available science to achieve 
those goals.
    You know, in sum, this legislation is not a bill I would 
have written on my own. It is a product of what you, Senator, 
could convince a critical mass of the conservation community 
and the timber industry to agree on.
    While it is not a perfect bill, it is nonetheless a great 
bill. It will provide for new and better goals for national 
forest management that can result in the conservation and 
restoration of old growth forests and watershed for the 
eastside forests of Oregon, benefiting clean water, fish and 
wildlife, and helping mitigate the effects of climate change, 
and leaving these forests and watersheds in a healthier state 
for future generations.
    Thank you.
    [The prepared statement of Mr. Kerr follows:]
     Prepared Statement of Andy Kerr, Senior Counselor, Oregon Wild
                                s. 2895
    I come from the wilderness movement. As a public lands 
conservationist, nothing is more satisfying to achieve one's 
conservation goals than when Congress draws a line around an area and 
says this piece of the public's land is so special and sacred that it 
shall be managed primarily by leaving it alone for the benefit of this 
and future generations.
    I still have one foot firmly planted in the wilderness movement; 
there are plenty of worthy roadless areas on the eastside forests of 
Oregon that ought to be in the National Wilderness Preservation System. 
However, more of the eastside forests of Oregon are not pristine and 
are, in fact, sick and wounded.
    Humans have already caused them great harm from livestock, 
chainsaws, bulldozers and Smokey Bear mythology. Many of Oregon's 
eastside dry forests are in bad shape.
                         best available science
    My other foot is planted firmly in the best available science. The 
general consensus of the best available science for dry ponderosa pine 
and dry mixed-conifer forests on the eastside of Oregon is that much of 
the forest of these types is in need of active restoration--ecological 
restoration that includes not only the careful reintroduction of fire 
to these fire-dependent forests, but often the judicious use of a 
chainsaw and the removal of ecologically problematic trees.\1\
---------------------------------------------------------------------------
    \1\ For more on my views on this subject, see: Kerr, Andy. 2006. 
Thinning Certain Oregon Forests to Restore Ecological Function. 
Ashland, OR: The Larch Company (http://andykerr.net/Downloads)
---------------------------------------------------------------------------
    Not only have bulldozers, chainsaws, bovines and flame-retardants 
screwed up these forests, human-caused climate disruption that is 
further stressing these already stressed forests. This additional 
stressor all the more requires the application of the best available 
science to restore these forests, including the removal of site-
specific stressors.
           when the facts change consider changing your mind
    When the facts change--be they ecological, economic or political 
facts--it is appropriate to at least consider changing one's mind. This 
historic legislation that has brought together historic enemies is 
possible because the facts have changed. My goals for eastside forests 
haven't changed, but my strategies and tactics have changed in light of 
the facts. Consider these changes:

          1. Less logging and less old-growth logging. During the 
        height of the timber wars in the late 1980s and early 1990s, 
        there were approximately 30 wood products mills in eastern 
        Oregon cutting nothing much else but old-growth trees. Today, 
        there are about five still running and cutting little--but 
        still too much--old growth.\2\
---------------------------------------------------------------------------
    \2\ Shelk, John. Managing Director, Ochoco Lumber Company. Personal 
Communication. 28 December 2009.
---------------------------------------------------------------------------
          2. Increased scientific consensus on the need for active 
        management to achieve ecological restoration. The best 
        available science is clear and convincing that unhealthy dry 
        forests can benefit from prescribed fire and careful and 
        constrained restoration thinning to restore them to ecological 
        health.\3\
---------------------------------------------------------------------------
    \3\ See Noss, R. F., J. F. Franklin, W. L. Baker, T. Schoennagel, 
P. B. Moyle. 2006. Managing fire-prone forests in the western United 
States. Frontiers in Ecology and the Environment 4(9): 481-487. 
(Ecological Society of America. Washington, D.C.). With the permission 
of the lead author, this paper is available for download for limited 
educational purposes only at www.andykerr.net/downloads. And Brown, 
Richard T., James K. Agee and Jerry F. Franklin. 2004. Forest 
Restoration and Fire: Principles in Context of Place. Conservation 
Biology 18:903-912.
---------------------------------------------------------------------------
          3. A matured conservation community. The conservation 
        movement is diversifying from a historic focus centered on the 
        preservation of pristine natural landscapes to also being 
        equally concerned about the restoration of degraded natural 
        landscapes.
          4. The timber industry on the eastside of Oregon is no longer 
        a monolith. The timber companies that remain are of two 
        species:

                  (A) Sylvanus adaptus adapted to changed conditions 
                and recognize that they've lost their social license to 
                log old growth and in roadless areas; and
                  (B) Sylvanus horribilis survived so far by not 
                changing one damn bit. Pure stubbornness and resistance 
                to change have served S. horribilis well enough until 
                now, but they are just dead men walking.

    S. adaptus is the one that can help the Forest Service conserve and 
restore degraded dry forests, while at the same time profiting for 
themselves and prospering for their communities.
    I will work as hard to keep this new timber industry alive to 
restore Oregon's eastside dry forests as I have worked and will work 
for the old timber industry to die before it cuts the last of the old 
trees.\4\
---------------------------------------------------------------------------
    \4\ For more of my views on how the timber industry has changed and 
society's views of forests are continuing to change, see: Kerr, Andy. 
2008. ``Starting the Fight and Finishing the Job,'' Page 129-138 in 
Spies, Thomas A and Sally L. Duncan (eds). Old Growth in a New World: A 
Pacific Northwest Icon Reexamined. Island Press. Washington, DC.
---------------------------------------------------------------------------
    What the role of the eastern Oregon timber industry should be after 
needed ecological restoration period (approximately three-decades) is a 
question that need not be answered--or even debated--now.
         the end of the timber wars for the eastside of oregon
    Enactment of this legislation can mark the end of the timber wars 
for the eastside forests of Oregon. When fully implemented, the new 
statute can result in the comprehensive conservation and restoration of 
forests and watersheds on over eight million acres of National Forest 
System lands.
    In addition to new management goals that emphasize natural 
structure, process and functions over the historic emphasis on timber 
production, this new law can also result in more timber going to the 
mills than in recent times.
    These logs will be from trees that are ecologically problematic--
smaller trees that have grown in during the past century and a half of 
livestock grazing, high-grade logging and fire exclusion in dry forest 
types and that are threatening the little remaining old-growth 
ponderosa pine and other species.
    In the isn't-life-ironic department, the best available science 
tells conservationists that we need a right-sized timber industry to 
aid in the conservation and restoration of forests and watersheds. 
Conservationists also need a relevant and working Forest Service to be 
in service to forests.
    Enactment of this legislation will result in new rules of 
engagement for national forest stakeholders. Confrontation can give way 
to collaboration. Walking and talking in the woods can become more 
prevalent that litigating and arguing in the courts.
    I am still a happy warrior when it comes to logging natural young, 
mature and old-growth moist forests types, or to conserving the greater 
sage grouse and the Sagebrush Sea, to prohibiting energy development 
off the Oregon Coast, or other matters.
    However, the times for and the politics of eastside dry forests of 
Oregon have changed and all these changes require the conservation 
community and the timber industry to reinvent themselves. Senator Ron 
Wyden's introduction of this path-breaking legislation is an important 
milestone in those efforts.
    As we humans continue and increase our messing with Mother Earth, 
the response of the conservation community must be to diversify to 
complement our preservation paradigm with a restoration paradigm.
   converting ecologically problematic small trees into commercially 
                             valuable logs
    The amount of old-growth ponderosa pine forests in eastern Oregon 
today is but 2-8% of what it was before the European invasion.\5\ The 
result is unnatural concentrations of firesusceptible younger and 
smaller trees that are outcompeting the residual old-growth ponderosa 
pine trees for moisture and nutrients--leaving old-growth trees more 
likely to suffer premature death due to insects and disease.\6\ An 
additional--but somewhat overblown--concern is that these encroaching 
trees can also serve as a ready fuel-ladder to carry otherwise 
beneficial lowseverity surface fires into the residual old-growth 
forest canopy, resulting in the loss of rare oldgrowth ponderosa pine. 
Unnaturally dense stands are less suitable habitat for white-headed 
woodpeckers and other wildlife,\7\ as well as a variety of understory 
plants.\8\
---------------------------------------------------------------------------
    \5\ Noss, Reed F., Edward T. Laree, J. Michael Scott. 1995. 
Endangered Ecosystems of the United States: A Preliminary Assessment of 
Loss and Degradation. Biological Report 28. USDI-National Biological 
Service. Washington, DC: (unpaginated) (citations omitted) (available 
at biology.usgs.gov/pubs/ecosys.htm).) Comparable losses have occurred 
on the Ochoco, Malheur, Umatilla and Wallowa-Whitman National Forests.
    \6\ Brown, R. 2000. Thinning, Fire and Forest Restoration: A 
Science-Based Approach for National Forests in the Interior West. 
Defenders of Wildlife. Portland, OR. 40 pp. Available at http://
www.defenders.org/resources/publications/programs_and_policy/
biodiversity_partners/thinning,_fire_and_forest_restoration.pdf
    \7\ Johnson, D. H., and T. A. O'Neil, editors. 2001. Wildlife-
habitat relationships in Oregon and Washington. Oregon State University 
Press, Corvallis, Oregon, USA.
    \8\ Dodson, Erich Kyle; Peterson, David W.; Harrod, Richy J. 2008. 
Understory vegetation response to thinning and burning restoration 
treatments in dry conifer forests of the eastern Cascades, USA. Forest 
Ecology and Management. 255: 3130-3140.
---------------------------------------------------------------------------
               the problems the legislation will address
    By ``eastside forests'' in Oregon, I mean approximately 8.3 million 
acres of National Forest System lands not within the range of the 
northern spotted owl and covered by the Northwest Forest Plan. These 
forests range from ponderosa pine at the lowest elevations at the edge 
of the Sagebrush Sea to alpine parklands above timberline. In between 
one can find western larch, western white pine, mountain Douglas-fir, 
whitebark pine, western juniper, white fir, grand fir, subalpine fir, 
Engelmann spruce, incense cedar, quaking aspen, black cottonwood, 
limber pine, mountain hemlock, lodgepole pine and other tree species.
    Ponderosa pine-dominated forests outside of designated Wilderness 
and Inventoried Roadless Areas are found on 4.6 million acres of the 
lands covered by this legislation.\9\ It is only the dry forest types 
of Oregon's eastside that are generally unhealthy. For a century and a 
half, natural and beneficial frequent low-severity surface fires have 
been interrupted due to domestic livestock grazing, which removes the 
grass that carried these fires. For well over a century, these forests 
have been high-graded for their wood by removing the largest and most 
naturally fireresistant trees for timber. For well over a half-century, 
the fire-industrial complex has effectively deprived these forests of 
vital fire. From the standpoint of both habitat and hydrology, road 
densities are extreme.
---------------------------------------------------------------------------
    \9\ Fernandez, Erik. F. Oregon Wild. Personal Communication 
September 2009.
---------------------------------------------------------------------------
    The evidence and effects of fire exclusion are obvious. The harm to 
these forests is chronic, ongoing and severe.
                   passive versus active restoration
    It is reasonable to ask if the best course is to simply withdraw 
human-caused site-specific ecological irritants and let nature heal 
itself. Passive restoration is what I always prefer philosophically and 
in many cases it is the right ecological course of action. However, a 
general scientific consensus exists that says that--either on a tree, 
stand and/or landscape basis--active management is necessary to 
ecologically conserve and restore ponderosa pine-dominated forests on 
the eastside of Oregon.
    The absence of further interventions by humans to correct previous 
interventions will likely--according to most scientists--result in the 
loss of the remaining dry old-growth forests and the species that 
depend upon these endangered ecosystems.
    The best available science tells us that careful and constrained 
ecological restoration thinning will heal, not further harm, dry 
forests.
             to thin or not to thin--before to always burn
    In dry ponderosa pine-dominated forests of eastern Oregon, the 
reintroduction of fire into these fire-dependent ecosystems is always 
necessary. Wildfire is either the continuation of the present forest or 
the birth of the next one. Merely thinning a dry forest--without also 
reintroducing fire--will not achieve ecological restoration.\10\
---------------------------------------------------------------------------
    \10\ Brown, R. 2000. Thinning, Fire and Forest Restoration: A 
Science-Based Approach for National Forests in the Interior West. 
Defenders of Wildlife. Portland, OR. 40 pp. Available at http://
www.defenders.org/resources/publications/programs_and_policy/
biodiversity_partners/thinning,_fire_and_forest_restoration.pdf
---------------------------------------------------------------------------
    In many cases restoration goals in fire-dependent forest types can 
be met with only the careful reintroduction of prescribed fire. 
However, there are many other cases where the careful and constrained 
scientifically based restoration thinning is necessary or desirable.
    In these other cases, the presence of ``ladder'' fuels (younger 
trees in the understory that can carry otherwise beneficial surface 
fires into the residual old-growth overstory) makes for an unacceptable 
risk to the relatively few remaining old-growth ponderosa pine 
trees.\11\ Though the risk of loss to wildfire of old-growth ponderosa 
pine trees in a particular stand is relatively low, the introduction of 
prescribed fire before restoration thinning can--in many but not all 
cases--result in unacceptable risk of old-growth tree loss.
---------------------------------------------------------------------------
    \11\ Brown, Richard T., James K. Agee and Jerry F. Franklin. 2004. 
Forest Restoration and Fire: Principles in Context of Place. 
Conservation Biology 18:903-912.
---------------------------------------------------------------------------
    It is very important to conserve the remaining old-growth ponderosa 
pine trees in Oregon, as perhaps only one-twelfth to one-fiftieth 
remains. Today, the number and extent of such trees are so perilously 
low that extraordinary measures are necessary to conserve them. As more 
old growth is again found on the landscape it will be both desirable 
and possible to leave these forests to the vagaries of wildfire.
    Because of this severe shortage of live old-growth ponderosa pine 
across the landscape, it's important to make extraordinary efforts to 
conserve these habitats until such time that fire can again be 
expressed naturally across the landscape. While the conversion to a 
standing dead tree from a standing live tree is not a ``loss'' to 
nature per se--but rather just a change--given there are not enough 
live old-growth trees means that special care needs to be taken. There 
are not enough dead old-growth trees either, but live trees will turn 
into dead trees in time.
    There is also the matter of scale. Restoration of dry forest types 
across eastern Oregon needs to be done on a very large scale. It is not 
feasible to solely rely on either prescribed or wild fire to achieve 
these ends. First, the wild fires may not be adequate in scale. Second, 
the acceptable level of prescribed burning is limited to appropriate 
weather windows and available staffing. Third, fire is an imprecise 
tool to surgically excise ecologically problematic small trees while 
saving ecologically vital live old trees.
  invoking the best available science rather than the worst possible 
                                politics
    Besides the statutory protection for large trees and streams, 
limitations on roads and changes in management goals for the eastside 
forests of Oregon, perhaps the most important concept of this 
legislation is that Congress would be establishing a process to 
conserve and restore the forests and watersheds of the eastside forests 
of Oregon. This process is based on strong protections and clear 
directions from Congress to the Forest Service and is to be guided by 
the best available science.
    Unlike other bills pending in Congress to address forest health 
issues on federal lands in the American West, what distinguishes this 
legislation is that it does not presuppose specific ends or means to 
achieve them. Rather than declaring all bugs bad, all diseases 
disastrous and all fires fatal--as a matter of legislated fact--the 
legislation rather sets broad goals for the management of forests that 
most can agree with and leaves it to the Forest Service to manage 
consistent with the best available science to achieve those goals.
     this is compromise legislation, not comprehensive legislation
    The legislation fails to address many aspects of national forest 
management and use that I believe Congress should address. In many 
instances, I would have preferred more explicit direction and 
protection. However, a critical mass does not exist for my wishes to 
prevail.
    An important missing element in the legislation is the provision of 
federal tax credits to leverage industry investment in state-of-the-art 
logging, yarding, hauling and milling equipment that reduces soil 
impacts and energy consumption, while at the same time making those 
ecologically problematic, generally smaller trees into more generally 
economically valuable logs.
    A major challenge to implementing this legislation will be securing 
adequate funding. Society owes an ecological debt to these forests that 
Congress must honor. The best source of funds to pay down this 
ecological debt--by undertaking the necessary comprehensive forest and 
watershed restoration--is to reprogram current Forest Service annual 
appropriations that now go to a fire-industrial complex that wastes 
billions of dollars attempting to extinguish fires that cannot or 
should not be extinguished. Reprogramming this money to ecological 
restoration and to private landowner incentives to make their dwellings 
resistant to fire is a much better use of taxpayer funds.
 conservation community not of one mind regarding restoration thinning
    The conservation community is not of one mind when it comes to 
ecological restoration thinning of dry forest types. While a large 
critical mass of the conservation community is in support of careful 
and constrained ecological restoration thinning--as part of a 
comprehensive forest and watershed restoration strategy that also 
includes the removal of unnecessary roads and the improvement of 
necessary roads, limitations on livestock grazing, efforts to limit 
invasive species, and the careful reintroduction of fire into these 
fire-dependent forests--some environmentalists are not.
    Their objections can be categorized as scientific, philosophical 
and esthetic.
Scientific
    The science on how best to manage dry forest types is not 
unequivocal. Science never is totally settled. However, the vast 
majority of the relevant science concludes that careful and constrained 
ecological restoration thinning broadly applied across the landscape 
helps to restore these forest types to ecological health. 
Unfortunately, some of my colleagues who disagree with this scientific 
consensus are inclined to selectively interpret selected sources to 
support their viewpoint. I am troubled that some of my conservation 
colleagues embrace the best available science that says leave moist 
forest types alone, yet ignore the best available science for dry 
forest types that says careful and constrained thinning is necessary 
for their ecological restoration.
Philosophical
    Like most of my colleagues, I believe that federal public lands 
should provide goods and services to society that the private sector is 
unwilling or unable to provide. I do not believe that logging (or 
mining or grazing for that matter) merely for commercial purposes is a 
legitimate use of public lands. However, in the case of eastside dry 
forest types, the removal of ecologically problematic trees by 
converting them to commercially valuable logs is a coincidental 
convergence of ecological and economic interests that I can support. 
Timber production as a byproduct of ecological restoration is an 
economic opportunity, a social good and an ecological necessity. Of 
course, it's easier when the best available science coincides with 
one's philosophy, esthetic sense, re-election or self-interest.
Esthetic
    Part of the objection that that part conservation community has to 
ecological restoration thinning is esthetic. Logging--even that done 
well--with all its stumps, usually looks like hell. When I visit a dry 
forest that recently has been subjected to ecological restoration 
thinning, I think of visiting my father after his triple bypass. He was 
in intensive care and he was so cut up and bruised that it looked like 
the old man had been beaten to within an inch of his life. Yet 
afterwards, he was the better for the surgery that had a purpose and 
the desired effect. Aldo Leopold said, ``One of the penalties of an 
ecological education is that one lives alone in a world of wounds. Much 
of the damage inflicted on land is quite invisible to laymen.''\12\
---------------------------------------------------------------------------
    \12\ Leopold, Aldo., Luna Bergere Leopold, and Charles W. Schwartz. 
1991. Round River: From the Journals of Aldo Leopold. Page 165.
---------------------------------------------------------------------------
   burden of proof and standard of evidence: upon whom and how much?
    Most conservationists and many governments give great weight to the 
precautionary principle. Wikipedia says: ``The precautionary principle 
states that if an action or policy has suspected risk of causing harm 
to the public or to the environment, in the absence of a scientific 
consensus that harm would not ensue, the burden of proof falls on those 
who would advocate taking the action.''\13\
---------------------------------------------------------------------------
    \13\ http://en.wikipedia.org/wiki/Precautionary_principle; accessed 
on 30 December 2009
---------------------------------------------------------------------------
    Always in ecological preservation and often in ecological 
restoration, the best course is to do nothing--just leave an area or an 
ecosystem alone (while stopping degrading activities). However, in the 
case of these dry eastside forests degraded from past management, doing 
nothing is doing something. Doing nothing--most of the evidence 
suggests--will cause these forests to remain unhealthy, if not 
irreversibly converting to a new ecological state that is not desirable 
for wildlife, watersheds or re-creation.
    The differences among conservationists come down to both who should 
bear the burden of proof and what should be the standard of evidence. 
Yes, there is not 100% agreement among the best available scientists as 
to the best available science. In determining either civil liability or 
criminal guilt, American law has developed three distinct standards:

  <bullet> Preponderance of the Evidence. ``[T]he matter asserted seem 
        more likely true than not.''
  <bullet> Clear and Convincing Evidence. ``[I]t is substantially more 
        likely than not that the thing is in fact true.''
  <bullet> Beyond a Reasonable Doubt. ``[C]lose to certain of the truth 
        of the matter asserted.''\14\
---------------------------------------------------------------------------
    \14\ http://en.wikipedia.org/wiki/Burden_of_proof

    The fundamental question is whether restoration thinning will help 
degraded dry forest types to live or help them to die. To deprive one 
of life or liberty, the criminal standard is ``beyond a reasonable 
doubt'' (``beyond a shadow of a doubt'' is not a legal standard). If 
the evidence in support of ecological restoration thinning in dry 
forest types turns out to be true, then to not thin will be to condemn 
these forests. If such evidence is incorrect, then to thin will 
similarly condemn such forests. In either case, the consequences of 
being wrong argue against requiring the highest standard of evidence to 
determine a course of action (or inaction).
    Yet, having the ``preponderance of the evidence'' seems like too 
low of a standard of evidence to determine the ecological truth. Merely 
being barely more likely than not to choose the correct course is not 
something to bet the forest on.
    Therefore, we are left with ``clear and convincing evidence'' as an 
appropriate standard of evidence, as it requires that the evidence be 
substantially more likely than not to turn out to be true.
    An insurmountable problem is that standards of evidence are usually 
applied after the fact. If the alleged fact that occurred previously is 
true, one goes to jail or pays a judgment. In the case of dry forest 
types, society must consider evidence not on what has happened, but 
what will happen if a particular course of action is taken or not 
taken. At best, society must choose the best-reasoned prediction in the 
hope of avoiding the worst reasonably anticipated outcome.
    In the case of degraded dry forest types, doing nothing does not 
ensure that nothing will happen. If only the precautionary principle 
had been applied long before now.
              hedging against both ignorance and arrogance
    Scientific consensus does not mean scientific unanimity. There are 
still scientists who argue there is no link between tobacco and cancer 
or carbon dioxide and climate disruption. However, if nine out ten 
doctors tell me I have cancer, it is prudent of me to believe them and 
to follow a course of action that most of them agree on.
    While today's best available science that says that careful and 
constrained--but widespread--thinning of dry forest types on the 
eastside of Oregon is the best course of action, such may not be the 
case in the future. The existing scientific consensus may either grow 
stronger or turn out to be wrong. To mitigate this risk of wrong 
prediction it is prudent for society to hedge against the risks of both 
ignorance and arrogance.
    Today, the best available science says careful and constrained 
restoration thinning of much of these degraded dry forests is necessary 
to return them to ecological health. However, we should no more thin 
every acre than not thin any acre of dry forest types in eastern 
Oregon. Perhaps one-half should be thinned, while perhaps one-half 
should not be thinned. In this way, if the best available science of 
today turns out to be correct, we will have done well for the forest on 
a landscape scale. If the best available science of today turns out to 
be wrong, at least we won't have made the entire landscape worse.
                               conclusion
    In sum, the proposed Oregon Eastside Forests Restoration, Old 
Growth Protection and Jobs Act is not the bill I would have written. It 
is the product of what Senator Wyden could convince a critical mass of 
the conservation community and timber industry to agree on. While not a 
perfect bill, it is nonetheless a great bill. It would provide for new 
and better goals for national forest management and can result in the 
conservation and restoration of old-growth forests and watersheds for 
the eastside forests of Oregon--benefiting clean water, fish and 
wildlife; helping to mitigate the effects of climate change; and 
leaving them in a healthier state for future generations to enjoy.
                supplemental statement from oregon wild
    For the last two decades, Oregon Wild has struggled over the 
question of how best to defend oldgrowth forests and important 
watersheds in eastern Oregon from logging, road building, and other 
destructive activities, while at the same time promoting needed 
restoration on degraded lands. We believe there is a need for both.
    Oregon Wild has long sought to protect the last remaining old-
growth forests in eastern Oregon, and we have used the existing 
regulations that protect large trees and riparian and aquatic resources 
to do this. We also understand that Oregon's eastside forests have been 
altered drastically by more than a century of fire suppression, 
livestock grazing, road building and industrial logging. Past 
management has left eastside landscapes in desperate need of 
restoration, which begins with conserving intact watersheds, remaining 
mature and old-growth forests, and habitat for at-risk fish and 
wildlife
    Oregon Wild supports this legislation because it expands upon 
existing protections for large trees and aquatic resources. These 
protections are important to us. But the bill also directs the Forest 
Service to use the best available science to restore forest and 
watershed health as its primary goal. We believe this is equally 
important.
    Beginning with the lush forests of the Siuslaw National Forest more 
than a decade ago, conservation, industry, and community interests have 
begun to come together to seek common ground on managing our public 
lands around the concept of restoration. This has led to broad 
agreement on the treatment of thousands of acres of previously 
harvested forests that benefit the restoration of old-growth habitat, 
and the restoration of many miles of salmon habitat.
    In the drier forests of eastern Oregon, this shift has been 
happening as well. Tim Lillebo has been working for Oregon Wild to help 
design and implement forest management projects that advance ecological 
restoration in the Deschutes, Ochoco and Malheur National Forests for 
more than two decades. In particular, he is currently working with the 
Sisters Ranger District to get the Glaze Forest Restoration Project 
implemented, and to facilitate a broad collaborative effort to engage 
the community in designing what might have been a highly controversial 
project within an oldgrowth pine forest. That project can hopefully 
serve as a model for collaboration and for prescriptions that benefit 
wildlife and forest health.
    Senator Wyden's Oregon Eastside Forests Restoration, Old Growth 
Protection and Jobs Act represents a compromise. It is not perfect, but 
based on our experience working in eastern Oregon for three decades, we 
believe that it makes significant improvements in forest management 
that will yield real benefits for water quality, fish and wildlife, 
healthy forest structure and function, and help prepare for and 
mitigate the effects of climate change. It will also support the trust 
and common ground that has begun to be built between the US Forest 
Service and its stakeholders.
                                appendix
                                               Oregon Wild,
                                                    March 16, 2010.
Hon. Ron Wyden,
Chair, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Wyden, I wish to append this letter and attached table 
to my written statement for the record for the hearing held by the 
subcommittee on March 10, 2010 in the matter of your proposed ``Oregon 
Eastside Forest Restoration, Old Growth Protection and Jobs Act'' 
(S.2895).
    The table depicts the timelines for the current Administrative 
Appeals process and the proposed Administrative Objection process in 
S.2895. There would be an estimated time-savings of 45 days for an 
administrative review of a project supported by an Environmental 
Assessment and 75 days for one supported by an Environmental Impact 
Statement. Yet, the essential due-process elements for citizens remain.
    Thank you.
            Sincerely,
                                                 Andy Kerr,
                                                  Senior Counselor.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Wyden. Mr. Kerr, thank you. Very helpful and very 
much appreciate your cooperation.
    Your partner is here with us, Mr. Shelk, and we are so glad 
to have Prineville well represented here with Mr. Shelk. We 
will make your prepared remarks a part of the record as well 
and just want to note the tremendous contributions Mr. Shelk 
makes to our State. Not just in forestry, but in lots of other 
areas as well.
    Mr. Shelk.

          STATEMENT OF JOHN SHELK, PRESIDENT, OCHOCO 
                         LUMBER COMPANY

    Mr. Shelk. Mr. Chairman, members of the committee, I am 
John Shelk, and I am the managing director of Ochoco Lumber 
Company in Prineville, Oregon.
    Ochoco Lumber Company's roots in central Oregon and eastern 
Oregon go back to 1924 when we began buying timberlands there. 
So, in sum, we have over 80 years of experience in managing 
timberland and in operating mills in eastern Oregon.
    Altogether, Ochoco's operations employ approximately 100 
people now. That is down from 350 people at the peak of its 
operation in 1993. Successful implementation of S. 2895, the 
subject of my testimony today, would make it possible for us to 
reemploy about 40 people, so an increase of 40 percent beyond 
our current employment base.
    Our company has been decimated the last 15 years due to a 
lack of Federal timber available to us. We are a small company 
that has been dependent upon Federal timber. When the Federal 
timber program began to decline in 1990, that marked the 
gradual decline of our company as an employer in eastern 
Oregon.
    As you know, Mr. Chairman, the bill that we are talking 
about today came about as a result of months of discussions 
between representatives of the environmental community and 
eastern Oregon lumber manufacturers who are dependent upon 
Federal timber from public lands. The bill contains compromises 
on the part of all of those who participated in these 
negotiations.
    I think it is fair to say that none of us individually 
would have written this bill the way that it is currently 
configured. We have worked out an agreeable compromise that 
will improve the health of Oregon's eastside forests and help 
preserve the livelihood and tax base of our rural communities.
    Since 1990, 23 eastern Oregon mills that employed nearly 
2,000 workers have shut down, and several of those mills have 
been ours. How much longer the eight or so remaining mills can 
survive will depend upon the availability of raw material, and 
that is saw logs. That is done by increasing the volume of 
timber coming off the Federal forests of eastern Oregon, and it 
is absolutely critical to keep the sawmill--in keeping the 
sawmill infrastructure in place.
    This has become even more acute as private land owners in 
our region have held their timber off the market because of low 
stumpage prices due to the economic dislocation we have had the 
last several years. Paralleling the decline in eastern Oregon's 
milling infrastructure has been a decline in the health of our 
Federal forests. Prior to 1994, Ochoco National Forest 
harvested 130 million board feet and is now down about 90 
percent. This is roughly paralleled on the other forests east 
of the Cascades.
    As the decline has taken place, it has been replaced by a 
continuing growth of forests east of the Cascades. Hence, an 
overgrowth of material on the forests that really brings about 
a condition that leads to insects and disease manifestation and 
increased risk of fire. As of July 2008, there were nearly 5.5 
million acres in fire condition class 2 and 3 on acres in 
eastern Oregon's Federal forests. This can only be reversed by 
active intervention, mechanical treatment of these forests.
    Over the last 2 decades, it has become increasingly 
difficult for our Federal land managers to utilize timber 
harvest activities as part of their forest management program. 
It is these projects that could provide raw materials to our 
mills and maintain living wage jobs. At the same time, we can 
improve forest health by reducing the overcrowded condition of 
the forest stands.
    In order to survive, eastern Oregon's mills need a 
predictable supply of raw material from Oregon's Federal lands. 
To produce timber, we need saw logs, and that is logs that are 
large enough to be made into boards.
    At the same time we are doing this, we can also provide 
biomass for the various other facilities that are coming 
onboard that will completely utilize the products coming off of 
Federal forest lands.
    There are those who criticize this bill because they 
disagree with including diameter limits and other specific 
details, believing that such decisions reduce the flexibility 
of our Federal forest agencies to best manage our forests. For 
the most part, we are managing under the conditions that we are 
describing in our bill right now. We believe that this bill can 
transition very nicely into the current management regime that 
we are experiencing.
    Senator Wyden, we appreciate the work that you and your 
staff have done with our group in bringing this bill to the 
Senate, and we look forward to working with you constructively 
in the future.
    [The prepared statement of Mr. Shelk follows:]
   Prepared Statement of John Shelk, President, Ochoco Lumber Company
                                s. 2895
    Mr. Chairman, members of the Committee: I am John Shelk, Managing 
Director of Ochoco Lumber Company, Prineville, Oregon. Ochoco Lumber 
Company's roots in Eastern Oregon go back to 1924 when it began buying 
timber lands. Milling operations began in Prineville Oregon in 1938. 
The company built and operated a large log mill and later built a small 
log mill. Ochoco closed its Prineville sawmill operations in 2000. 
Ochoco Lumber Company's wholly owned subsidiary Malheur Lumber Company, 
located in John Day, Oregon, started up in 1983 and has been in 
continuous operation since. Malheur Lumber Company produces 
approximately 42 million board feet (99,000m3) of quality Ponderosa 
Pine annually, as well as Douglas fir and white fir products. All 
together, Ochoco's operations employ approximately 100 people, down 
from 350 people at the peak of its operation. Successful implementation 
of S. 2895, the subject of my testimony today, would make it possible 
for us to re-employ about 40 people.
    I am here today to testify in favor of S. 2895, ``the Oregon 
Eastside Forests Restoration, Old Growth Protection and Jobs Act of 
2009'' introduced by Senator Wyden. As you know Mr. Chairman, this bill 
came about as the result of months of discussions between 
representatives of environmental organizations and Eastern Oregon 
lumber manufacturers dependent on timber from federal lands for a 
source of raw materials. The bill contains compromises on the part of 
all those who participated in these negotiations. I think it is fair to 
say that it is not the bill any of us would have written, but we 
believe it is a workable compromise that will improve the health of 
Oregon's Eastside forests and help to preserve the livelihoods and tax 
base of our rural communities.
    Oregon's eastside counties and communities are in dire straits. In 
Grant County, the unemployment rate for December, 2009 was 14.9%; 
unemployment was below 10% (9.7%) in only one month since October 2008. 
In Union County, things are only slightly better: December unemployment 
stood at 10.8%; the monthly average unemployment for 2009 was 10.6%. 
Since 1990, 23 Eastern Oregon mills that employed nearly 2,000 workers 
have shut down. How much longer the 8 or so remaining mills can survive 
will depend on the availability of raw material--saw logs. Increasing 
the volume of timber coming off our federal forests is critical to 
keeping this sawmilling infrastructure in place. This need has become 
even more acute as private landowners hold their timber off the market 
because of low stumpage prices.
    Paralleling the decline of Eastern Oregon's milling infrastructure 
has been a decline in the health of our federal forests. Prior to 1994, 
the Ochoco National Forest harvested 130 million board feet (mmbf) 
annually on a sustainable basis; the Malheur National Forest harvested 
210 mmbf annually, sustainably. In 2009, only 13.0 mmbf were sold on 
the Ochoco and 34.0 mmbf on the Malheur. These figures show that we are 
growing vastly more wood than we are removing from these forests. As 
the amount of wood growing on these forests has continued to greatly 
exceed the amount harvested and removed, our federal forests have 
become seriously overcrowded. This leads to insect and disease 
infestations and increased risk of fire. As of July, 2008, there were 
nearly five and a half million acres of fire condition class II and III 
acres on Eastern Oregon's federal forests. These forests can be 
restored to health only through active management: a program that plans 
for and uses mechanical treatment to reduce overcrowding, maintain 
forest health and at the same time produce raw materials for our mills 
each and every year.
    Over the last two decades, it has become increasingly difficult for 
our federal forest managers to utilize timber harvest activities as 
part of their forest management program. It is these projects that 
could provide raw materials to our mills, maintaining living wage jobs 
(according to the Oregon Department of Forestry, each 1 million board 
feet harvested supports 11.2 direct and indirect jobs with an average 
annual wage of $43,200) and a tax base for local government, at the 
same time improving forest health by reducing overcrowding in forest 
stands. Overcrowding leads to insect and disease infestations and 
increased fire hazard.
    In order to survive, Oregon's mills need a predictable supply of 
raw material from Oregon's federal lands. To produce lumber, we need 
saw logs--logs large enough to make into boards. When trees of this 
size are harvested, the interspersed smaller trees and the tops and 
limbs can be turned into chips and biomass to produce other products, 
electricity and perhaps other types of energy. Without the larger, more 
valuable materials to support the removal of the less valuable biomass, 
removing the smaller materials is not economically feasible. The simple 
reality is that the federal coffers are not sufficient to pay for all 
the work our forests need. Selling sawlogs puts private capital to work 
in the restoration of our federal forests.
    SB 2895 contains provisions designed to restore forest health while 
assuring a sustainable supply of sawlogs for our industry. It 
emphasizes planning at the landscape scale and ecological restoration 
projects based on those plans. It requires the Forest Service to 
prioritize its projects to both improve forest health and maintain the 
infrastructure necessary to maintain forest health.
    Of course, these landscape scale plans will take time and will not 
result in timber outputs for the next few years. In order to maintain 
our logging and milling infrastructure, the bill calls for the Forest 
Service to do interim projects comprised predominantly of mechanical 
treatment totaling 80,000 acres per year distributed across all of the 
Eastside national forests and increasing to 120,000 acres in the third 
fiscal year after enactment of the bill. Existing and new funding for 
vegetation management, timber management and hazardous fuels reduction 
will be prioritized to complete these projects. The bill authorizes the 
appropriation of $50,000,000 for the work needed to carry out these 
projects.
    Like most Western national forests, work on Oregon's Eastside 
forests has been hindered by appeals and litigation. The bill would 
foster collaboration among agency personnel and affected members of the 
community. In this way, we hope to avoid the gridlock resulting from 
appeals and litigation and get our forests back to work. The bill calls 
for a streamlined objection process for ecological restoration projects 
and for expedited judicial review of any action which give rise to 
legal action. For interim projects, administrative appeals would be 
eliminated, but the right to challenge the project in court remains.
    There are those who criticize this bill because they disagree with 
including diameter limits and other specific details, believing such 
decisions reduce the flexibility of our federal forest agencies to best 
manage our forests. For the most part, our federal land managers are 
already managing under these restrictions. In our view, the legislation 
is a necessary improvement on the status quo. We simply must find a way 
to restore the health of our Eastside forests. We believe this bill 
will provide the reassurance that both the industry and environmental 
organizations need to establish trust and eliminate the gridlock our 
forest managers now face.
    Yet, passage of the bill alone will not result in success. Once the 
legislation is in place, the Forest Service must move promptly to 
implement both the interim projects and the large scale ecological 
restoration plans. Congress must appropriate the funds necessary to 
carry out this ambitious and far-reaching program. We request that you 
continue to monitor both implementation and outcomes to assure that the 
agency has the will and the means to succeed. The projects simply must 
result in the production of material suitable for the current 
infrastructure. If we go out of business, there will be no one to do 
the work necessary to restore forest health on the Eastside.
    Senator Wyden, we appreciate the work of you and your staff to get 
this bill before this committee today. We know that you are committed 
to working with all of us to assure the survival of our mills and our 
loggers and to restore the health of our Eastside forests and 
communities. There is much that needs to be done for this legislation 
to result in the hoped-for outcome. We know that you are committed to 
continue that work with us to ensure its goals are realized.
    Thank you for the opportunity to appear before you today.

    Senator Wyden. Thank you very much, Mr. Shelk.
    I have been urged to carry around the picture of you and 
Mr. Kerr standing side by side at the launch of all of this, 
just to convince the disbelieving that it was on the level. I 
just reviewed with Mr. Gladics, almost the subcommittee's 
historian at this point, the prospect of the 2 of you coming 
together on something like this. If you had thought back years 
ago to the prospect of something like that happening, the odds 
would be infinitesimally small.
    So it is just great that you 2 have led this effort, and I 
just want to note so it is in the record that I know both of 
you took a lot of flak from some of your best friends on this.
    Mr. Kerr. For the record, taking a lot of flak. But, OK.
    Senator Wyden. Took/taking. I am sure that that is the 
case. Therein lies the effort to try to get breakthroughs.
    I continue to have the only bipartisan health reform bill 
here in the U.S. Senate, and I am still trying to bring people 
together on that. So I just want both of you to know how much I 
appreciate the very constructive way that you all have gone 
about this. It took a lot of courage to do it. I know both flak 
has been directed at you in the past, and Mr. Kerr corrects the 
record to make sure everybody knows you are still taking it. So 
we are very, very appreciative.
    Let us go now to Dr. Johnson, who is really the 
intellectual force behind the kind of approach we have been 
talking about here. Professor Johnson has gotten many a late-
night phone call from me to discuss a lot of these issues, and 
consistently, it has been Dr. Johnson's scholarship and good 
work, work that is respected by all sides--by folks in the 
scientific community, folks in the timber industry, folks in 
the environmental community.
    Dr. Johnson, our thanks to you for all of your service, and 
any remarks you would like to make are welcome.

   STATEMENT OF K. NORMAN JOHNSON, UNIVERSITY DISTINGUISHED 
   PROFESSOR, COLLEGE OF FORESTRY, OREGON STATE UNIVERSITY, 
                         CORVALLIS, OR

    Mr. Johnson. Thank you, Mr. Chairman. I testified before 
you 2 years ago when you had a hearing on the state of eastside 
forests, and I am delighted to be part of the hearing today on 
this remarkable day.
    I am Dr. K. Norman Johnson, and I am here to give testimony 
for myself and Dr. Jerry Franklin, who worked with me and with 
you for quite a long time.
    I am a professor in the College of Forestry at the Oregon 
State University, and Jerry is a professor of ecosystem 
sciences in the School of Forest Resources at the University of 
Washington. The comments represent our views and not those of 
our respective institutions.
    The proposed legislation that you have introduced has the 
goals of restoring forest landscapes, protecting and increasing 
old growth forests and trees, and creating an immediate 
predictable and increased timber flow to support locally based 
restoration economies. This testimony provides our advice on 
achieving these goals in the national forests of eastern 
Oregon. We believe that the legislation captures many of these 
elements.
    The first--I am going to make five points. The first one is 
that restoration needs to recognize different strategies for 
moist and dry forests. As Andy Kerr mentioned, really, the dry 
forest ecosystems are the topic today. They have evolved 
primarily with low and mixed severity disturbances, including 
wildfire and localized insect outbreaks.
    Active management often is required to reduce the potential 
for uncharacteristic and ecologically damaging wildfire and 
insect outbreaks in these dry forests, and many of them will 
require restoration where there are existing populations of old 
growth trees.
    The second point, eastside Federal forests in Oregon face a 
bleak future without swift action. My comments here are very 
similar to the comments from Andy Kerr. We will lose many of 
these forests to catastrophic disturbance events unless we 
undertake aggressive active management programs.
    The potential for loss of our eastside forests and the 
residual old growth trees that they contain to fire and insects 
is greatly magnified by expected future climate change. We know 
enough to take action.
    Furthermore, it is critical for stakeholders to understand 
that active management is necessary in stands with existing old 
growth trees in order to reduce the risk that these trees will 
be lost. Finally, to avoid this loss, we need to significantly 
increase the rate of treatments to reduce stand densities at 
least by 2 or 3 times.
    My third point, the proposed legislation is based on 
scientific principles for restoration of dry forests. They 
include focusing on comprehensive ecological restoration. 
Rather than focus on a single goal, such as fuel hazard 
reduction, timber production, or carbon sequestration, the bill 
addresses comprehensive restoration needs for both forests and 
watersheds.
    Second, developing management guidance by plant 
association, recognizing the infinite variety in these forests. 
Third, conserving existing old growth trees and restoring the 
old growth populations where they have been depleted. We are 
preparing these forests for coming potential threats from 
climate change.
    Next, starting with historical information as a guide to 
restoration goals and modifying that as needed to reflect 
climate change; creating heterogeneity both to stand and 
landscape scale, as mentioned by Under Secretary Sherman and 
you, Mr. Chairman, and also Andy; restoring large areas such as 
whole watersheds, moving rapidly in restoring these forests; 
and finally, utilizing commercial wood products from the 
restoration to defray costs, maintain processing capability, 
and provide employment.
    Both Dr. Franklin and I firmly believe that as the bill 
moves through Congress, it is important to retain these 
principles.
    My fourth point is that citizen-driven collaboration 
efforts are a key here, as been said, and I have just got to 
add that I teach a collaboration course. This winter, I have 
had many of the collaboration groups talking in the course, 
including the Blue Mountain partners. It is an amazing 
transformation in eastern Oregon, and the creative energy of 
Federal forestry in eastern Oregon now runs through these local 
collaboration efforts.
    The proposed legislation acknowledges the importance of 
them in the achievement of the long-term purposes of the act. 
They also can play a crucial role in successful implementation 
of the interim, that is the first 3 years of projects.
    Finally, that management discretion should be combined with 
third-party review. Managers will need latitude to adapt 
general policies to specific problems and places. Successful 
restoration of these forests will require large-scale actions 
over time and space, as we discussed above, and managers will 
need the discretion to adapt general policies to the specific 
situations, and this is an important element to provide in the 
bill.
    Also, the third-party review will be essential to gain and 
retain broad public acceptance. The proposed legislation 
acknowledges this need through its purpose of providing 
periodic independent review of agency programs to carry out the 
act. Review of the interim first 3 years' projects will be 
crucial in this regard, this independent review.
    Ffinally, I want to say I have worked in the dry forests of 
eastern Oregon for over 40 years. We have seen, with the help 
of Andy Kerr and John Shelk, a remarkable coming together of 
different interests that have helped craft and support this 
legislation. I hope we will not lose this convergence of views 
in sustaining the wonderful forests of the east side.
    [The prepared statement of Mr. Johnson follows:]
   Prepared Statement of K. Norman Johnson, University Distinguished 
Professor, College of Forestry, Oregon State University, Corvallis, OR, 
and Jerry F. Franklin, Professor, Ecosystem Sciences, School of Forest 
                  Resources, University of Washington
                                s. 2895
    I am Dr. K. Norman Johnson and I am here today to give testimony 
for myself and Dr. Jerry F. Franklin on S. 2895. I am a University 
Distinguished Professor in the College of Forestry at Oregon State 
University. Jerry Franklin is Professor of Ecosystem Sciences in the 
School of Forest Resources at University of Washington. These comments 
represent our views and not those of our respective institutions.
    Our testimony focuses on the national forests of Oregon outside of 
the area of the Northwest Forest Plan--the eastside forests named in 
the bill. Collectively, we have studied these magnificent forests and 
the amazing variety of benefits that they provide for almost 100 years. 
In addition to our research efforts there, we have served on many 
scientific panels analyzing forest policy issues, including the 
Northwest Forest Plan. We recently completed for the Klamath Tribes a 
comprehensive restoration plan for their historic tribal lands, which 
are currently a part of the Fremont-Winema National Forest. Also, we 
have just finished a proposal for restoring northwest federal forests 
which can be found at http://www.cof.orst.edu/cof/fs/PDFs/
JohnsonRestoration_Aug15_2009.pdf. That report covers the points made 
in this testimony in much greater detail.
    S. 2895 has goals of restoring forest landscapes, protecting and 
increasing old growth forests and trees, and creating an immediate, 
predictable, and increased timber flow to support locally based 
restoration economies, among other purposes. This testimony provides 
our advice on achieving these goals in the national forests of eastern 
Oregon; we believe that the legislation captures many of these 
elements.
 restoration needs to recognize different strategies for moist and dry 
                                forests
    Division of federal forests into Moist and Dry is the initial step 
in forest restoration planning. Plant associations provide the basis 
for assigning sites into these categories; these plant associations 
reflect contrasting composition, growth conditions, and historic 
disturbance regimes. We recognize that there is a broad gradient in 
fire behavior in Pacific Northwest forests considering variability both 
in site and landscape conditions. ``Dry Forests'' grow on sites that 
have pre-dominantly low-and mixed-severity fire regimes while ``Moist 
Forests'' grow on sites that are characteristically high-severity fire 
regimes. We include plant associations typically subject to mixed-
severity disturbance regimes (such as moist Grand Fir and moist White 
Fir) in the Dry Forest category; this reflects their probable shift 
toward more frequent and severe wildfires on these sites with climate 
change. While shifts will occur in plant associations with climate 
change, we expect that they will continue to be valuable ecological 
reference points.
    Moist Forest ecosystems evolved with infrequent but severe, stand-
replacement disturbance events, such as intense wildfires and 
windstorms. The composition and structure of intact existing old-growth 
forests in Moist Forests have not been significantly affected by human 
activities. Generally, it is not necessary to conduct silvicultural 
treatments to maintain existing old-growth forests on Moist Forest 
sites. Silviculture can, however, be used to create diverse early seral 
communities and accelerate development of ecological diversity in 
plantations and other young stands.
    Dry Forest ecosystems have evolved primarily with low-and mixed-
severity disturbances, including wildfire and localized insect 
outbreaks. On Dry Forest sites, the composition and structure of 
existing old-growth forests typically have been significantly altered 
by human activities, resulting in increases in stand density and 
compositional shifts toward less fire-and drought-tolerant tree 
species. Active management often is required to reduce the potential 
for uncharacteristic and ecologically damaging wildfire and insect 
outbreaks. Many of these forests that require restoration have existing 
populations of old-growth trees.
 eastside federal forests in oregon face a bleak future without swift 
                                 action
    The majority of federal forests in eastern Oregon fall into the Dry 
Forest category. Ponderosa pine and dry mixed conifer plant 
associations predominate.
    These forests have been greatly simplified during the last century 
by a variety of management actions including fire suppression, grazing 
by domestic livestock, logging, and establishment of plantations. 
Consequently, they differ greatly from their historical condition in 
having much higher stand densities and basal areas, lower average stand 
diameters, much higher percentages of drought-and fire-intolerant 
species (such as white or grand fir), and many fewer (or no) old-growth 
trees.
    We will lose many of these forests to catastrophic disturbance 
events unless we undertake aggressive active management programs. This 
is not simply an issue of fuels and fire; because of the density of 
these forests, there is a high potential for drought stress and related 
insect outbreaks. Surviving old-growth pine trees are now at high risk 
of death to both fire and western pine beetle, the latter resulting 
from drought stress and competition. Many fir-dominated stands are now 
at risk of catastrophic outbreaks of insect defoliators, such as the 
spruce budworm, as has already occurred at many locations on the 
eastern slopes of the Cascade Range in both Oregon and Washington.
    The potential for loss of our eastside forests--and the residual 
old-growth trees that they contain--to fire and insects is greatly 
magnified by expected future climate change. Historically, much of the 
loss of old growth trees and forests has come during time of drought. 
The expected longer and more intense summer drought periods with 
climate change will put additional stress on the forests here. The 
stress on old growth trees will be especially severe where they are 
surrounded by dense understories.
    We know enough to take action (uncertainties should not paralyze 
us). Inaction is a much more risky option for a variety of ecological 
values, including conservation of old-growth related wildlife. We need 
to learn as we go, but we need to take action now. Furthermore, it is 
critical for stakeholders to understand that active management is 
necessary in stands with existing old-growth trees in order to reduce 
the risk that those trees will be lost.
    To avoid the loss of eastside forests, we need to significantly 
increase the rate of treatments to reduce stand densities. Elsewhere, 
we have estimated that we need to double or triple current efforts, 
using both mechanical treatments and prescribed fire.
s 2895 is based on scientific principles for restoration of dry forests
    As Senator Wyden stated when he introduced this bill in late 
December, 2009, his proposed legislation resulted from months of 
discussion with stakeholders. The bill resulting from that negotiation 
(S 2895) contains scientific principles of forest conservation. It is 
important that these principles be retained in any further negotiation 
that may be needed to move the bill through Congress. We briefly 
summarize eight key principles here:

  <bullet> Undertake comprehensive ecological restoration. Rather than 
        focus on a single goal such as fuel hazard reduction, timber 
        production, or carbon sequestration, the bill addresses 
        comprehensive restoration needs for both forests and 
        watersheds.
  <bullet> Develop management guidance by plant association--an 
        ecologically relevant way of differentiating forest sites. 
        Plant associations integrate environmental variables; the bill 
        utilizes plant associations as a vehicle for adapting 
        prescriptions to individual sites.
  <bullet> Conserve existing old growth trees and restore old tree 
        populations where they have been depleted. A maximum diameter 
        limit on harvest is used to protect old growth but exceptions 
        can be allowed to protect small old growth trees and to harvest 
        larger young trees that compete with old growth. To be 
        successful, both ecologically and socially, management needs 
        directly to address conservation of old growth trees.
  <bullet> Prepare these forests for coming potential threats from 
        climate change. The bill recognizes that current forest 
        conditions can result in uncharacteristic wildfire, insect 
        outbreaks, and disease and that these threats will worsen with 
        climate change. Conditioning forests to be resilient in the 
        face of increased summer temperatures and longer fire seasons 
        is a central theme.
  <bullet> Start with historical information as a guide to restoration 
        goals and modify as needed to reflect impacts of coming climate 
        change. Historical forest conditions remain a useful reference 
        for ecological restoration, even in a time of environmental 
        change, as they have been tempered by many climatic 
        oscillations in the past.
  <bullet> Create heterogeneity at both the stand and landscape scale. 
        Increasing the complexity of simplified landscapes and 
        restoring meadows and riparian zones are critical elements of 
        forest restoration as recognized throughout the legislation. 
        That will include leaving dense forest patches scattered 
        through a treated landscape.
  <bullet> Restore large areas, such as whole watersheds, in 
        restoration projects. The bill calls for planning and 
        undertaking needed forest and watershed treatments on large 
        areas in an integrated fashion.
  <bullet> Move rapidly in restoring these forests. Given the threats 
        to eastside forests, resource managers will need to move 
        rapidly over the next few decades, treating a large proportion 
        of at-risk landscape. Increasing the rate of activity is an 
        important objective of the legislation.
  <bullet> Utilize commercial wood products from the restoration to 
        defray costs, maintain processing capability, and provide 
        employment. Investment will be needed, but wood products 
        associated with restoration can help pay for the effort, 
        maintain infrastructure, and support local communities.

    As the bill moves through Congress, it is important to retain these 
principles. With such a solid scientific foundation, this legislation 
has the potential to model approaches to forest restoration throughout 
the West. These principles have applicability both to the interim 
(first three years) projects discussed in the legislation and the 
longer-run ecological restoration projects.
     collaborative efforts can provide essential creative energy, 
           understanding, and support for forest restoration
    Citizen-driven collaborative efforts are beginning to break the 
gridlock that has stalled restoration in eastern Oregon. The creative 
energy of federal forestry in eastern Oregon runs through local 
collaboration efforts. Groups such as the Blue Mountain Partners (John 
Day), the Harney County Restoration Collaborative (Burns), and the 
Lakeview Stewardship Group (Lakeview) have recently played invaluable 
roles in engaging local communities in helping to guide forest 
restoration, working cooperatively with the Forest Service.
    The Blue Mountain Partners have invited us to demonstrate the 
application of the principles discussed here to restoration of the 
Malheur National Forest. We hope to work with them this summer; I am 
sure that you and your staff also would be welcome to see how these 
principles play out on the ground.
    These collaboration groups can play a key role in future forest 
restoration efforts. With their knowledge, understanding, and support, 
rapid progress can be made. Without their involvement, progress will be 
much more difficult. Thus, it is important that any new directives 
support and complement their ongoing efforts.
    S. 2895 acknowledges the importance of collaboration groups in 
long-term achievement of the purposes of the Act. They also can play a 
crucial role in successful implementation of the interim (first three 
years) projects.
 trust but verify: management discretion should be combined with third-
                              party review
    Managers need latitude to adapt general policies to specific 
problems and places. Successful restoration of these forests will 
require large-scale actions over space and time, as we have discussed 
above, and managers will need the discretion to adapt general policies 
to specific situations. The legislation contains many important 
concepts to guide restoration, as described above; the Forest Service 
will need latitude in interpreting and implementing them.
    A needed shift to age-based conservation rules will be aided by 
such an approach. Elsewhere we have argued that an age-based approach 
would more consistently protect old-growth trees than the current 
diameter-based approach. Some, though, question the practicality of an 
age-based approach. We believe that relatively few trees will be in 
question after development of protocols, as most trees can be readily 
identified as being either above or below any age limit that might be 
set. We suggest that age-based rules be designed following a four-step 
process: 1) have scientists and managers design and test the protocols 
that will be used, 2) give agencies deference to implement the 
protocols, 3) monitor the degree of success in implementation, and 4) 
use independent review by scientists, managers, and stakeholders to 
suggest improvements. S 2865 begins this process and we believe that 
its successful completion is essential to restoration of eastside 
forests.
    Demonstration of success and learning will be needed. Public 
acceptance and support will be needed; the social license for these 
efforts is tenuous in many places. As mentioned above, collaborative 
efforts can help here, but more is needed. Key components in gaining 
public support will be credible evidence that actions are moving the 
forests toward restoration goals and a mechanism for changing 
management where the actions do not achieve desired objectives.
    Monitoring is necessary but not sufficient. Given the uncertainties 
that we face in forest restoration, keeping track of the state of the 
forests and the effects of actions is a first principle of forest 
management. We believe, though, that people are increasingly skeptical 
of an agency keeping score on the effectiveness of its own actions.
    Third-party review will be essential to gain and retain broad 
public acceptance. We need mechanisms that provide trusted evaluations 
of the linkage between actions and goals along with the ability to 
suggest change as needed. Creation of third-party review as a regular 
part of forest restoration would go a long way toward this goal.
    S. 2895 acknowledges this need through its purpose of providing 
periodic independent review of agency programs in carrying out the Act 
and with the creation of a scientific and technical advisory committee 
which has, as one of its goals, evaluation of the implementation and 
effectiveness of the Act. Review of the interim (first three years) 
projects will be crucial in this regard. If the committee is given an 
assignment of reviewing these projects, year by year, it could go a 
long way toward instilling trust in the public about the purpose and 
results of forest restoration programs.

    Senator Wyden. Very well said. I think ensuring that we 
build on something of a genuine breakthrough, as you have 
described, is exactly our charge, and very well stated, Dr. 
Johnson. We thank you.
    Mr. Blasing, we welcome you. I know you have had a long 
trek across the land to come and share your insight. You have 
had a long career working on forest policy issues and giving 
more of your time to work on the Grant County Public Forest 
Commission. So we welcome your remarks. We will make any 
prepared remarks part of the record, and you just proceed as 
you wish.

STATEMENT OF LARRY BLASING, MEMBER, GRANT COUNTY PUBLIC FOREST 
                           COMMISSION

    Mr. Blasing. Yes, in order to get here, I even had to give 
up the last game of the Oregon State-Washington series.
    Senator Wyden. Painful.
    Mr. Blasing. Yes, it was.
    Senator Wyden. All right.
    Mr. Blasing. Yes. Thank you for the kind words about Grant 
County. The Aryan nation certainly stirred up a hornets' nest 
when they come around looking for property.
    In your introductory remarks and most of the remarks that I 
have heard here today, I wanted to jump up and say ``right 
on.'' We are with you. We agree with everything pretty much 
conceptually, but the devil is in the details, in our opinion.
    The bill addresses the wrong problem. Management science is 
not the problem. The Forest Service knows how to manage lands. 
The problem is that they don't know how to write an 
environmental impact statement that will pass the Ninth Circuit 
Court of Appeals.
    Because of this, there have been those who have taken 
advantage of that, who basically made a practice out of it, 
that we now have the Forest Service basically going through a 
mating dance with environmental groups to try to get some 
project off the ground that they can agree on without having to 
get into court. This isn't the best way to manage the forests. 
We need to do it differently, as you say.
    Even though some of the groups have agreed not to appeal 
and to litigate--Mr. Kerr, I thank you--not everybody has 
agreed to that. You have testimony that is in written testimony 
from, I believe, the Hells Canyon Preservation Society that 
says that they do not want to give up that option. We have 
people in the Blue Mountain collaborative group that Dr. 
Johnson referred to who have indicated the same thing.
    I attend the Blue Mountain collaborative--Blue Mountain 
Forest Partners--I am sorry--which is a collaborative group. I 
have been to 3 meetings. So far, we are still discussing the 
shape of the table. This process is going to take a long time 
to go through there to come to any kind of a decision that we 
can actually take a look at.
    The goals of the bill do not include any economic jobs or 
consideration. The goals of the act do not line up with the 
title. We would like to see those goals reflect the importance 
of the economy and the jobs.
    We are a county of cows and trees. Unemployment is 
currently over 15 percent. Each timber industry job is critical 
to our economy since research shows that a direct job in the 
industry creates seven supporting jobs. As timber goes, so goes 
our economy.
    At this point, we note that Grant County Court has not 
endorsed the bill, and no other eastern courts that I am aware 
of. Incidentally, the Grant County Court knew I was going to be 
here today, and so they asked me to point out one thing.
    It says, ``Incidentally, the county court a few minutes ago 
asked me to mention that given the emphasis on stewardship 
projects, that the bill emphasizes timber as a byproduct. The 
moneys from the sale of the products from restoration programs 
will go back to the Forest Service. Funding for the rural 
insecure schools is only for a limited time. Stewardship 
returns no funds to schools, the same as those in this bill. If 
the bill is passed, funding for county roads and schools, for 
communities associated with the 6 national forests will be 
greatly damaged.''
    Back to me. We are advised in conversations with the Forest 
Service that the timeline for actions under this bill will be 
impossible to keep. All of the projects under this bill are 
subject to NEPA, and that law has its own timeline. The 
requirements of the bill contain numerous nebulous, unclear, 
and even litigious wording, and management direction with 
subjective concepts. The terms such as ``best available 
science,'' ``historic levels,'' ecologically appropriate,'' 
``special complexity'' are subjective, subjective terms that 
should not be codified into law as they are controversial and 
simply lawsuits waiting to happen.
    Old growth is more of a concept than a definable matter. 
Old growth lodgepole is different from mixed fir stands, which 
are different from pine stands. This bill defines old growth as 
an individual tree, and in the bill, it has 2 different 
definitions. This confuses forest management, as management is 
done on a stand basis with old growth being one consideration.
    The Forest Service has already dedicated many thousands of 
acres to the preservation of old growth. This bill adds old 
growth restrictions upon existing old growth restrictions. The 
Forest Service has more than 100 years invested in the 
management of these forests. Stands have been modified for fire 
hazard reduction, growth, forest health, and many other 
reasons. This bill's program to return to historic conditions 
basically throws this effort out the window.
    Roads are necessary for any forest management program. 
Codifying road management assures that management costs will 
rise and long-term problems are a certainty.
    Incidentally, pleasure driving is the number-one use of 
national forests, more than hiking, hunting, or other uses. 
This bill will restrict the public from its favorite use of 
their national forests.
    In the event that this bill is enacted into law, it must 
have a real sunset provision including all the provisions of 
the bill. We are looking at basically a bureaucratic nightmare 
where replacing one level of--my tongue is sticking to the top 
of my roof, the roof of my mouth. We are placing a level of 
bureaucracy over the top of the bureaucracy that we now have in 
place, and that has never worked well.
    We will continue to help resolve these problems. I thank 
you for your time. I thank you for your effort. We will look 
forward to doing our part to make sure that these things are 
resolved.
    [The prepared statement of Mr. Blasing follows:]
Prepared Statement of Larry Blasing, Member, Grant County Public Forest 
                               Commission
                                s. 2895
    My name is Larry Blasing, member ofthe Grant County Public Forest 
Commission. My forestry career began on the Malheur national Forest in 
1956. I eventually graduated from Oregon State University in Forest 
Management in 1964. I have held positions as logging manager, sawmill 
manager, consultant and company representative. I have represented the 
forest products industry including companies such as: Boise Cascade, in 
Montana, Idaho, Eastern Washington, and Alaska. Much of this experience 
has been in eastside forest types. I have been involved in most major 
forest policy issues that affect the western states ITom the local 
level to the White House. I have represented the forest products 
industry in litigation and numerous appeals. At one time I worked with 
Senator Hatfield on the National Forest Management Act. I am currently 
serving in a position elected by the voters of Grant County, Oregon on 
the ``Grant County Public Forest Commission''. I am presenting 
testimony as a member of the Grant County Public Forest Commission.
    The Grant County Public Forest Commission was established by an 
initiative of the electorate of Grant County, Oregon for the purpose 
(in part) to ``prescribe actions to promote the efficient beneficial 
and timely stewardship of public lands and resources''. The members of 
the Commission are elected by the voters of Grant County. The enabling 
initiative passed by the voters of Grant County in 2002 recognized and 
stated ... ``forest health is paramount to our natural environment, 
including watersheds, wildlife habitat, fisheries, native ecosystems, 
timber production, grazing and other beneficial activities''. Our 
purpose as a commission is to work to ensure that these principles are 
met in a timely fashion.
    We are fully aware of the raw material plight of our three Grant 
County sawmills. Weare in support and contribute to any effort to 
provide relief to the raw material paralysis. We believe that the risks 
associated with SB 2895 ``Oregon Eastside Forests Restoration, Old 
Growth Protection and Jobs Act of 2009'', hereinafter referred to as 
``Act'' far outweigh the benefits and will, in-fact, exacerbate our raw 
material supply problems. This is the primary concern which causes us 
to oppose the Act in its current form and offer the following comments.
    It is highly unlikely that the Act will be successful in the 
attempts to address several issues that are controversial within the 
National Forest Management Act. The Act addresses the wrong problem. It 
is not management science that is the problem. The problem in getting 
projects initiated on the ground and the inability of the Forest 
Service to write a NEPA document which is acceptable to the 9th Circuit 
Court of Appeals. While appeals delay Forest Service programs, they do 
not entirely stop the programs. It is the continued threat of 
litigation by the ``Environmental Litigation Industry'' what stops the 
process and this Act does not resolve that problem.
    The Act's goal was to address process stagnation, a major and 
systemic problem associated with natural resource management on our 
National Forests in Eastern Oregon, and provide relief to the economies 
and industries reliant upon our National Forests. However, the Act 
fails to limit process, and actually dramatically adds to the process 
required to get a project on the ground. As for resolving the timber 
supply and economic accountability problems on the Eastside National 
Forests, the Act fails again.
    Throughout the Act the Commission found that economic and social 
considerations are always placed secondary to anything else, in stark 
contrast to the objectives of forest management spelled out in the 
Forest Service Manual (FSM 2402) which includes six (6) goals and the 
first is ``To provide a continuous supply of National Forest System 
timber for the use and necessities of the citizens of the United 
States.''.
    The Goals established by this Act, Section (4)(a)(1), do not 
include any Economic or Jobs consideration. Economics is only included 
as a secondary issue in determining methodology ofproject initiation, 
Section (4)(a)(2)(B). Then ``wood harvests to sustain adequate industry 
infrastructure'' is included as number 9 in a list of 15 things which 
could potentially be helped to achieve when choosing methodologies for 
projects.
    The Commission advocates and supports the need to expedite 
providing of raw materials for the local timber industry and ensure the 
retention of local industrial infrastructure to support local dependant 
economies. However, Section (9), which defines and describes the 
projects under the Act states seven criteria that must be met in 
developing the ecological restoration projects and activities, none of 
which address economic or jobs considerations. After meeting these 
criteria the Act states that the projects shall be prioritized based on 
the degree to which the projects will improve forest and watershed 
health based on plant association groups and (then lastly) the need to 
maintain industrial infrastructure to carry out restoration activities.
    The Commission does not agree that the Act's attempts to help 
``local'' economies by specifying that the required Stewardship 
contract ``give preference to local businesses'' will help local 
business and workers. The Act defines ``local'' to be a 100 mile radius 
around any National Forest, Section (13)(d)(3) which for the Malheur 
National Forest can reach from the Cascades to the Idaho border and 
North to the Washington border. The Commission believes this will kill 
small resource dependant communities within Grant County, Hamey County, 
Wallowa County, Wheeler County and other small remote communities 
within the Eastern Oregon national forests.
    The new processes spelled out will do little to get more projects 
on the ground.

          1) The Advisory Panel as proposed in the Act is destined for 
        disaster;

          a. Legislated advisory panels (like the Committee of 
        Scientists in RPA) have been shown to be ineffective and a 
        waste of taxpayer money;
          b. The Advisory Panel specified in the Act will add a 
        cumbersome layer of process to a variety of decisions;
          c. How can one, seven (7) person panel be expected to provide 
        the mandated site specific input to the issues on each of the 
        six (6) National Forests and the associated Collaborative 
        Groups? This will easily be a full time job for the panel;
          d. The combination of mandates including the Advisory Panel, 
        the Collaborative Groups and coordination with the 
        ``Secretary'' will absolutely guarantee paralysis; and
          e. The addition of the Advisory Panel and the Collaborative 
        Groups will add two (2) additional layers which are being 
        legalized, codified and mandated by Congress which will direct 
        US Forest Service management programs, essentially bypassing 
        the Secretary of Agriculture.

          2) The myriad of reports mandated within this Act will by 
        definition increase process and will add layers of 
        administrative work to an already overly complicated process;
          3) We are advised in conversations with Forest Service 
        personnel that the timelines for actions required in this Act 
        will be impossible to keep;
          4) The Advisory Panel and Collaborative Groups leave out the 
        mandated coordination required by current law to include county 
        government, grazing permitees, neighboring landowners and other 
        valid interest holders; and
          5) The new processes, procedures and restrictions spelled out 
        in the act are by definition ``more process''.
          6) The bill places layers of new bureaucracy upon existing 
        bureaucracy, a sure recipe for stagnation.
          7) It should be made clear that the Secretary only needs to 
        ``consider'' the input of Collaborative, as well as others, but 
        the Secretary's decision is final. The Secretary has to run the 
        Forest Service, not Oregon State University or any other group 
        no matter how well intentioned through ``Advisory Panels''.

    The Commission believes that the Act, while attempting to limit 
appeals and litigation, actually will provide additional fuel to the 
environmental litigation industry through:

          1) Ambiguous definitions including:

          a. ``Old Growth'' which includes a single tree, Section 
        (3)(14), then prohibits harvest or removal, Section (4)(b)(1), 
        then discusses limiting harvest of trees over 150 years old in 
        Section (9)( d);
          b. ``Forest Health'' which includes ``to maintain or develop 
        species composition, ecosystem function and structure, 
        hydrologic function, carbon cycling, and sediment regimes that 
        are within an acceptable range that considers-(i) historic 
        variability; and (ii) anticipated future conditions, Section 
        (3)(6);
          c. ``restoration economies'', Section (2)(2); and
          d. ``Plant Association'', Section (3)(17), which includes as 
        part of the definition ``vegetation community that--(i) would 
        potentially, in the absence of disturbance occupy a site ... 
        ``; and

          2) Nebulous, unclear and even litigious wording and 
        management direction, such as:

          a. ``restore ecologically sustainable forest stands to 
        incorporate characteristic forest stand structures and older 
        tree populations'', Section (4)(a)(2)(B)(viii) ;
          b. ``natural structure'' which is undefined and not agreed 
        upon by scientists;
          c. ``best available science'' which is absolutely subjective 
        and a recipe for litigation;
          d. ``restore historical levels of within forest stand spatial 
        heterogeneity'' Section (4)(a)(2)(B)(iv);
          e. ``the restoration and maintenance of historic population 
        levels of older tree'', Section (4)(a)(2)(B)(vii);
          f. ``ecologically appropriate spatial complexity'', Section 
        (4)(a)(2)(B)(xi);
          g. ``In developing ecological restoration projects under this 
        Act, the Secretary shall-(A) ... , and achieve, a net reduction 
        in the permanent road system;'', Section (6)(c)(1), which will 
        ultimately result in zero miles of permanent roads on the 
        forest if carried out as written; and

    The Commission believes that Section 10 of the Act while providing 
codification to the current Collaborative process, goes on to provide 
for a new process which will certainly result in more process and 
litigation. The Commission believes that any advisory group or 
collaborative group must include valid permit holders, valid interest 
holders, neighboring landowners and local governments to a larger 
degree than spelled out in the Act. Recommendations from Collaborative 
groups need to be site specific.
    The provisions in the Act that direct the harvesting restrictions 
on Old Growth and the recruitment of replacement trees will have a 
negative effect on the economic productivity of the national forest 
lands. While the Act directs that a single tree is Old Growth the 
timber resource is managed as a stand. Not all trees in a stand are the 
same diameter. When a stand reaches the size and condition where 
harvest is desirable, it is likely that some trees will exceed the 21'' 
dbh screen. Since they cannot be harvested under the provisions of the 
Act, those trees will occupy a growing site that cannot be used for 
commercial harvest until that tree dies. Over time this will ratchet 
down the amount of growing site that is available for commercial 
harvest.
    Restricting the harvest of trees less than 150 years of age and 
less than 21'' dbh is going to cause a management nightmare. In eastern 
Oregon trees will grow to 21'' dbh in about 60 years on the average 
sites. On higher sites 21'' dbh can be achieved in 40 years. The normal 
rotation for eastern Oregon stands is about 100 years. Therefore, under 
this Act, 40 to 60 years of the most productive period of timber volume 
growth will be lost.
    ``Old Growth Protection'' is only a temporary concept at best. 
First of all, old trees die with or without the help of man. Pine trees 
weaken, often get diseased and then are killed by insects. Douglas fir, 
true firs, and others are subject to many diseases and if left without 
management are the areas where the most serious catastrophic fires 
occur. Old mixed conifer forests burn up--then what? If you want to 
reduce catastrophic fires on national forests then you must reduce the 
hazards on old growth mixed conifer stands. The Santiam Pass is an 
example and stands as a glaring reminder to everyone who drives through 
what stupidity looks like.
    The forests of Eastern Oregon are dynamic and were constantly 
changing even before any human forest management began. The attempt in 
this Act to codify management details (some not even proven) does not 
fit all conditions in Eastern Oregon and certainly will not be 
appropriate over time. Conditions such as climate change, yearly 
weather patterns, insect and disease cycles, windthrow, microbursts, 
catastrophic fires, etc need to be dealt with as they occur. They are 
never the same. Therefore, codifying management details to the degree 
proposed in this Act is destined to failure and provides the 
``Environmental Litigation Industry'' with hundreds of new issues to 
challenge.
    The Commission believes that, as written, this Act will only 
exacerbate the problems associated with forest management in Eastern 
Oregon. In reality, the environmentalists will get everything they 
could hope for, while local communities and dependent industries are 
assured of a timber program largely based on a weak promise through:

          1) Codification by Congress of the flawed Eastside Screens;
          2) Codification and Expansion of PAC FISH and INFISH by 
        Congress;
          3) Having a congressionally mandated definition of Old Growth 
        which is functionally unattainable;
          4) A mandated reduction in the National Forest Road system 
        which mathematically will result in NO permanent roads;
          5) A mandated collaborative process which will result in 
        major stagnation of the entire process; and
          6) Having congress officially mandate some ``historic 
        population level of older trees'' (what are older trees?) and 
        those items discussed above 2) (a)--(g) to name just a few 
        ofthe gains.

    The Forest Service has ongoing management projects where they have 
already invested large amounts of money and manpower. Under this Act, 
will these projects be allowed to continue? Will the necessary funds 
come from the normal appropriations process or from the special 
appropriations for this Act?
    The Act authorizes a one time sum of $50,000,000 that will be 
available until it is used up. Only 3% of this money can be used for 
administrative purposes, requiring the balance of the administrative 
costs including the costs of the Advisory Panel, Collaborative groups 
and extra assessments and reports to be taken from the already anemic 
Timber Management budget in these six (6) national forests. It is 
highly unlikely that: 1) There will be additional appropriations for 
the increased overhead associated with this Act; or 2) The other 
National Forests within either Region 6 or the other Regions of the 
nation will voluntarily relinquish funds from their allocated budgcts 
to make up the increased overhead associated with this Act. Therefore, 
each of the forests will be required to make up the difference in 
overhead from other projects.
    It is unlikely that the revenues from the sale of forest products 
generated from the restoration projects can sustain the program of 
Ecological Restoration Projects on the Large Landscape basis. The 
restrictions placed on harvest of ``Older Trees'' and the reliance on 
harvest of ``Biomass'' is highly unlikely to provide a sustainable flow 
of income large enough to fund the intent of this Act. Biomass and 
small diameter trees have the lowest product value and the highest cost 
to produce. Biomass barely pays its way to the mill in the best markets 
and therefore, there will be little revenue to sustain a very expensive 
program. As a result, the USFS will be stuck trying to comply with a 
very expensive and legally mandated program with little money to 
comply.
    The tax payers of the United States will again be burdened with an 
extensive and expensive program mandated by congress. When in fact the 
products of these six (6) national forests should be easily capable of 
producing enough income, from the sale of even a minor part of the 
sustained yield from the forests, to not only pay for the harvest 
program but the associated restoration work necessary to improve the 
declining health of the forests. In these times of skyrocketing 
national deficit and astronomical national debt, congress should 
recognize that our vast renewable natural resources are one area 
available to produce the income necessary to dig our nation out of the 
fiscal mess we find ourselves in at this time. We need less 
restrictions not more expensive process at this time.
    The Commission finds that enormity of the problems associated with 
this Act are so overwhelming that we can not support it. Any purported 
benefits pale to the increased process, increased costs and the areas 
of potential litigation created by this Act.

[Note: Growth, Mortality, Removals graph has been retained in 
subcommittee files.]

    Senator Wyden. Very good. Anxious to work with you.
    Professor Fitzgerald.

    STATEMENT OF STEPHEN A. FITZGERALD, M.S., PROFESSOR AND 
     SILVICULTURE & WILDLAND FIRE SPECIALIST, OREGON STATE 
                    UNIVERSITY, REDMOND, OR

    Mr. Fitzgerald. Thank you, Mr. Chairman.
    I brought a little bit of Oregon's forests here.
    Senator Wyden. I can tell.
    Mr. Fitzgerald. This is the first time I have been to DC, 
and I feel usually a little bit more comfortable when I am 
surrounded by trees. I thought you would enjoy it as well.
    For my oral remarks, I have a handout--I think it is in the 
back of your packet--on some diagrams that I am going to 
describe as I go through. Thank you.
    Mr. Chairman and members of the committee, thank you for 
inviting me here today to testify on S. 2895. My name is Steve 
Fitzgerald, and I am a professor in silviculture and wildland 
fire extension specialist at Oregon State University.
    I am here on behalf of the Society of American Foresters, a 
professional organization of over 14,000 forest managers, 
scientists, and educators. My perspective is somewhat unique in 
that as extension specialist, I am immersed both in the 
academic arena as an applied researcher and educator, as well 
as in the forest practitioner's realm.
    First, let me say, Senator Wyden, that you deserve 
tremendous credit for bringing the opposing sides together to 
compromise and come to agreement on this legislation, as we 
heard today. But before I get into the main portion of my 
testimony, I have a couple of just quick comments.
    First, the appropriation of the $50 million to implement 
this legislation, if enacted, is essential. I mean, it is 
vital. Second, this bill, along with other State-specific 
Federal forest legislation, like that in Montana, are symptoms 
of a much larger problem, as we know. That is the lack of a 
clear and consistent national or regional policy for our 
national forests.
    For the rest of my testimony, I would like to talk about 
forest dynamics and the 21-inch diameter limit specified in the 
bill. Although I understand the interest in diameter limits, as 
it assures that large trees won't be cut, it cannot be stated 
more clearly that permanent fixed diameter limits are not based 
on ecology and forest science. These artificial limits remain 
static while forests and the larger ecosystems are constantly 
changing.
    With this in mind, the bill's goals of restoring old growth 
and improving forest health in younger stands must consider 2 
ecological truths. First, the amount of resources available to 
trees on an acre of land--sunlight, water, nutrients, space--is 
finite, that this defines the carrying capacity of the site. In 
other words--and then, second, the resources a tree needs to 
survive and grow is roughly proportional to its size. In other 
words, bigger trees need more resources.
    Together, these 2 ecological truths demonstrate that a site 
can support only so many trees of a given size at a particular 
point in time.
    With that background, let me talk about historic old growth 
structure, and figure 1 is a graph of trees per acre for an old 
growth mixed conifer stand from 1917. This old growth stand 
contains 77 trees per acre, ranging from 5 to 42 inches, and 
note how the number of trees progressively decreases from the 
smaller diameter classes to the larger. This example represents 
the carrying capacity for this site.
    Because of the wide range of diameters and ages of trees in 
such forests, old growth cannot be defined by a single age or 
diameter. Figure 2 is a graph of trees' diameter by age. 
Looking at the dashed 21-inch diameter line on the graph, 
notice the large variation around the diameter along with wide 
variations in age, and others have shown this poor correlation 
as well.
    Therefore, old growth forests and goals for their 
restoration should be based upon their structural condition. 
For a given forest type, this includes a range of tree 
diameters, multiple age classes, a mix of tree species, snags 
and downed wood, and a range of trees per acre. Legislation can 
seek to improve forest health and resiliency, but to be most 
effective, forest scientists and managers need flexibility to 
develop specific stand structural objectives and metrics based 
on plant association, historical information, current research, 
and local experience.
    For dense, younger forests, it is often unclear what the 
overall long-term restoration goal is. Is it to eventually move 
these forests to an old growth condition? The 21-inch diameter 
limit seems to reflect that intent, but what might be the 
outcome of such a limit? Figure 3A and B shows a dense 80-year-
old pine stand that I marked for a thinning as part of a study 
to enhance forest resiliency and accelerate large tree 
development.
    Because this is national forest land, the trees were marked 
under the 21-inch diameter limit. The average tree diameter was 
only 11 inches before thinning. So the 21-inch limit was not an 
issue at the time that this was implemented.
    Figure 4 depicts a computer simulation of this thinning 
treatment and the subsequent stand growth over 4 decades when 
the average tree diameter grows to about 20 inches. At this 
point, the 120-year-old stand will need another thinning to 
reduce competition and move the stand to the large tree 
structure. That will include removing trees above and below 21 
inches if that was allowed.
    Although this is a long-term example, there are many stands 
that are at this stage right now. See figure 5. Although S. 
2895 allows for exemptions to the 21-inch limit, it appears 
that this would require the agreement of the collaborative 
group or the science advisory panel or both. How difficult 
would this process be?
    Would the 2 panels need to visit each and every tree 
proposed to be cut above 21 inches? From my example, this might 
encompass thousands or tens of thousands of trees on a 25,000-
acre landscape.
    Fixed diameter limits can be cumbersome and constrain our 
ability to adjust stand density as appropriate for each site 
and set of management objectives and may compromise the health 
of large trees, hinder understory vegetation development, and 
affect tree regeneration. They can have economic implications 
as well.
    But we have not adequately addressed such questions for 
future stands in which most trees begin to exceed the diameter 
limit, and this may result in yet another forest health problem 
down the road. Although such conditions would take time to 
develop, experience shows that prescriptions must change as 
forests change.
    In closing, I hope these oral comments and my written 
testimony are useful to the committee. Thank you for your time 
and attention and for the opportunity to provide a perspective 
from the forestry profession on this legislation.
    I would invite you, Senator Wyden, to come and see this 
study and other treatments around central Oregon.
    [The prepared statement of Mr. Fitzgerald follows:]
   Prepared Statement of Stephen A. Fitzgerald, M.S., Professor and 
   Silviculture & Wildland Fire Specialist, Oregon State University, 
                              Redmond, OR
                                s. 2895
    Mr. Chairman and members of the Committee, thank you for inviting 
me here today to testify on S. 2895, the Oregon Eastside Forests 
Restoration, Old Growth Protection, and Jobs Act of 2009. My name is 
Stephen Fitzgerald, and I am a Professor and Silviculture & Wildland 
Fire Specialist at Oregon State University. I am here on behalf of the 
Society of American Foresters (SAF), a professional organization of 
over 14,000 forest managers, scientists and educators. There are nearly 
1,000 SAF members in Oregon, including hundreds who have been directly 
involved in federal forest management. SAF supports and represents the 
forestry profession in advancing the science, education, technology, 
and practice of forestry. SAF has not taken a formal position on S. 
2895, but my comments reflect a professional perspective with our 
mission and members clearly in mind, including the input of experienced 
SAF leaders who have reviewed the bill. In addition, my views are 
generally consistent with those expressed in several statements (Oregon 
SAF 2005, 2007, 2008) developed by the Oregon Chapter of the SAF that 
address issues and concerns reflected in S 2895.
    My perspective is somewhat unique in that as an Extension 
Specialist I am immersed in both the academic arena as an applied 
researcher and educator as well as in the forest practitioner's realm, 
which allows me the opportunity to evaluate the application of research 
and silvicultural methods on the ground. Most of my time is spent in 
the eastside forests of Oregon and my expertise is in the ecology and 
management of ponderosa pine, a species of high ecological, social, and 
economic importance to communities in central and eastern Oregon. It is 
a species that is experiencing increasing impacts from insects, disease 
and uncharacteristic wildfire, and, at the same time, it is at the 
center of debate how to deal with these threats to manage and improve 
forest health and sustainability in the long run.
    First, let me say, Senator Wyden, that you deserve tremendous 
credit for bringing opposing sides together to compromise and come to 
agreement on this legislation. I support your goal of creating a 
strategy to provide for predictability and sustainability for local 
economies and governments, to address the challenges of climate change, 
and to restore these forests to a healthy and resilient condition. I am 
also supportive of your attempts to deal with larger landscapes rather 
than continuing an approach of random acts of restoration. And, I am 
grateful that your proposed legislation recognizes the importance of 
biomass as part of the solution to our goal of energy independence. I 
hope that this legislation is offered in the spirit of opening a 
dialogue for further input and discussion. In that spirit, I offer the 
following comments for consideration as this bill moves through the 
legislative process.
                      section 4. forest management
    Language throughout Section 4 of the bill stresses conservation and 
restoration. I am in strong agreement that there is much restoration 
work to be completed in the ``covered area'' as defined in the 
legislation. However, the restoration focus could be misinterpreted by 
some to reflect a light entry everywhere, every time. I would note that 
some forest types in eastern Oregon, such as lodgepole pine, naturally 
regenerate via stand replacement disturbance. Some natural 
disturbances, or management to mimic natural disturbance, would not 
necessarily meet the stated goals in Section 4(a)(2)(B)--increased mean 
diameter, maintenance of older trees, or retention of old growth as 
100-year old lodge pole pine is typically at a stand replacement age. 
The legislative language allowing for ``ecologically appropriate 
spatial complexity (xi) and spatial heterogeneity (xii),'' may be 
attempting to address this type of situation. I believe the language 
could be strengthened to make clear that management intervention may be 
more aggressive as ecologically appropriate.
    I am also concerned that the economics of the scale of restoration 
activities have not been adequately addressed in terms of both 
operational feasibility and compatibility with existing management 
mandates. Although forest restoration often emphasizes environmental 
concerns, economic and social considerations must also be integrated--
contemporary views of sustainability recognize these three elements as 
mutually supporting (Oregon SAF 2007). Neither Section 4(a) or (b) 
address the economic viability of these restoration treatments, which 
is a serious concern given the scale of restoration needs and the 
projected federal deficits. I believe a Section 4(a) (2) (B) (xvi) 
could be added that would address this oversight. Language such as, 
``Integrate economic viability of treatments so as to maximize acres 
treated within the constraints of ecologically appropriate spatial 
complexity and heterogeneity,'' could be helpful. In our reading of 
Section 4(b) (3) (A) (the Ecological exception) it is not clear that 
such economic considerations are part of the decision tree. Additional 
language to this section [addition of a subsection (iv) to address 
economics] would be helpful. Recognition of economic viability in, (B) 
Administrative Exception section may be appropriate as well.
    Paragraph (b), PROHIBITIONS ON REMOVAL OF CERTAIN TREES, calls for 
a diameter limit of 21 inches above which no trees can be cut. Although 
I understand the interest in diameter limits--it gives direct assurance 
that large trees won't be cut--it cannot be stated more clearly: 
Permanent, fixed diameter limits are not based on ecology and forest 
science but rather political science. These artificial limits remain 
static while forests, and larger ecosystems, are invariably dynamic: 
that is, they grow, compete for resources, and are continually affected 
by disturbance.
    Given this context, I'd like to talk about restoration of old-
growth and restoration treatments in younger stands. But first, there 
are a couple of ecological truths that I need to explain for 
background. First, the amount of resources available to trees on an 
acre of land--sunlight, water, nutrients, physical space--is finite. 
This defines the carrying capacity of the site. In the dry, interior 
forests of the west, water is the most important of these resources 
because its limited supply directly impacts tree growth and survival. 
Second, the amount of resources a tree needs to survive and grow is 
roughly proportional to its size. In other words, big trees with big 
crowns (a lot of needles/leaves), require more resources to maintain 
themselves, grow, and reproduce. And, as trees grow, they consume 
increasingly greater resources. These two ecological truths combine in 
the fact that a given site can support only so many trees of a given 
size. That is, it can support a lot of small trees or fewer large 
trees.
    With that as background, I like to discuss historical old-growth 
structure. This example is from central Oregon, but it is likely to be 
similar to other historic old-growth forests in central and eastern 
Oregon. Figure 1 is a graph of trees per acre by diameter class for a 
virgin old-growth mixed conifer stand from 1917 in south central 
Oregon, near Klamath Falls (Munger 1917).
    This old-growth stand contains a total of 77 trees per acre ranging 
from 5 to 42 inches, of which 40 are ponderosa pine. Approximately 25 
trees are above 21 inches in diameter, 19 of which are ponderosa pine. 
Note how the number of trees per acre progressively decreases from the 
smaller diameter classes to the larger size classes. This multi-aged 
stand is relatively open as a result of frequent understory fire, which 
kept the fir species in check (but didn't eliminate them) as they have 
thin bark and are easily killed by fire. Frequent fire kept stand 
density and fuels low and favored large fire-resistant pines; however, 
sufficient small diameter trees usually escaped or survived fire and 
will eventually replace the larger trees over a long period of time 
(Fitzgerald 2005). The number of trees per acre by diameter class and 
the maximum tree size would vary across the landscape according to a 
site's carrying capacity. For example, a less productive site could 
have a similar shaped bar graph, but there would be fewer trees in each 
diameter class and the maximum tree diameter would likely be smaller. 
This example represents full stocking or the sustainable tree density 
for this site. However, most old growth stands in this region today 
have an overabundance of understory trees, placing the large trees at 
risk to bark beetle attack and wildfire. Reducing stand density can 
help increase the health and longevity of large old growth trees on the 
landscape (McDowell et al. 2003, Kolb et al. 2008).
    Because of the wide range of diameters and ages of trees comprising 
interior old-growth forests, old-growth cannot be defined by a single 
age or diameter. For example, Figure 2 shows a graph of tree diameter 
by age (courtesy of J.D. Arney (unpublished)). Looking at the 21-inch 
diameter line (dashed) on the graph, you can see the large variation 
around this diameter along with wide variations in age. Others have 
shown this poor correlation between diameter and age (Van Pelt 2008).
    Therefore, old-growth forests, and goals for their restoration, 
should be defined or based upon their structural conditions, consistent 
with the professional definition of old-growth (SAF 1998). For a given 
plant association, this includes: a range of tree diameters; multiple 
age classes; a mix of tree species likely to occur with disturbance; 
snags and downed wood; and a range of trees per acre. Legislation can 
provide directives to improve health and resiliency, but to be most 
effective; forest scientists and mangers need flexibility to develop 
specific stand structural objectives and metrics based on plant 
associations, historical information, current research and local 
experience. If, after specifying this ``target'' structural condition, 
more trees grow into any one of the specified diameter classes, those 
excess trees would be thinned to maintain the health of residual trees 
and promote the desired old-growth structure. This approach would 
create a working landscape that provides a suite of benefits: old-
growth aesthetics; resilience to insects, disease, fire and climate 
change; mature forest habitat for wildlife; carbon sequestration; and 
some level of sustainable timber output.
    For dense, younger forest stands, it is often unclear what the 
overall long-term restoration goal is. In the short run, improving 
resiliency to insects and fire and improving habitat diversity may be 
vital ecological needs and will require a variety of management tools 
(Busse et al. 2009). But, in the long run, is the goal to move these 
forests to an old-growth condition? The 21-inch diameter limit seems to 
reflect that intent, but what might be the actual outcome of such a 
limit? Assuming the objective is to move younger stands to a larger 
tree structure--or some semblance of old-growth--then the 21-inch limit 
could become very cumbersome and cause problems in the future. I will 
illustrate with an example from a research study I have implemented on 
the Deschutes National Forest in central Oregon.
    Figure 3a* shows a dense 80-year old ponderosa pine stand that I 
marked for a wide thinning (leaving the larger trees) to promote stand 
health and vigor, reduce ladder fuels, and to accelerate large tree 
development. The thinning reduced stand density from 148 to 44 trees 
per acre (Figure 3b). Because this is National Forest, the trees were 
marked with the 21-inch diameter limit that is current Forest Service 
policy in this region. Because the average tree diameter was 10.7 
inches before thinning, the 21-inch limit did not pose a significant 
problem for the thinning objective at this time, and harvest of small-
and medium-size sawtimber was possible. Figure 4 depicts a computer 
simulation of the thinning and the subsequent stand growth over a 40-
year period as the average tree diameter grows to about 20 inches. At 
this point, the 120 year-old stand will need another thinning to reduce 
competition as the trees will be much larger and consuming more 
resources (Fitzgerald and Emmingham 2005). With the likely range of 
tree diameters shown here (Figure 2), removing trees both above and 
below the 21-inch limit will be needed to maintain forest health and 
vigor of residual trees and move towards the desired large-tree 
structure. Although this seems a long way off, there are stands that 
are at this stage now. A case in point is shown in Figure 5. This is a 
130-year old ponderosa pine stand that is already at this stage and 
will require thinning of trees above 21 inches to maintain the health 
of this stand and promote even larger trees.
---------------------------------------------------------------------------
    * All figures have been retained in subcommittee files.
---------------------------------------------------------------------------
    Although S. 2895 allows for exemptions to the 21-inch diameter 
limit, it appears that this would require agreement of the 
collaborative group, the science advisory panel, or both. How difficult 
would this process be? Would the two panels need to visit each and 
every tree? For the previous example, this might encompass a handful of 
trees on ten acres; 50 trees or more on a hundred acres; and tens of 
thousands of trees on 100,000 acres, far too many for either group to 
realistically examine. How will this be accomplished efficiently, both 
for stands now in this condition and those that grow into this 
condition in the future? Fixed diameter limits constrain our ability to 
adjust stand density as appropriate for each site and set of management 
objectives, and may result in slow tree growth, hinder understory 
vegetation development, and affect tree regeneration (Abella et al. 
2006), and they can have economic implications (Larson and Mirth 2001). 
The reduction in treatment effectiveness due to diameter limits depends 
on how high or low the diameter limit is set relative to the current 
average stand diameter and density. But we have not adequately 
addressed such questions for future stands in which a majority of trees 
begin to exceed the diameter limit and again compete fiercely for site 
resources. This could result in yet another forest health crisis down 
the road--the problem that S. 2895 seeks to solve.
    Although such conditions would take time to develop, forestry 
professionals have a long-term perspective and our experience shows 
that treatment prescriptions must change (sometimes dramatically) as 
forests change.
    I would like to add a few final comments that, while less detailed 
than the previous discussion, I believe are also very important to 
consider:

          First, my sense is that this legislation is prescriptive and 
        narrowly defines forest management on federal lands. The 
        legislation seemingly redefines the purpose of federal lands by 
        reframing forest management to a ``restoration-centric'' 
        emphasis with timber as a by-product (e.g., Section 
        9(c)(5)(A)(ii)). Moreover, it is unclear how this bill meshes 
        with existing federal law and mandates such as those under the 
        Organic Act, the National Forest Management Act, the National 
        Environmental Policy Act, and others. The legislation is vague 
        in this regard. Perhaps your staff could develop a flow chart 
        to help illustrate how this legislation dovetails, overlaps, or 
        is in conflict with these other laws.
          Second, the forest management and other issues that S. 2895 
        seeks to address do not stop at the Oregon border. This bill, 
        and other state-specific federal forest legislation (e.g., 
        Montana Senator Tester's Forest Jobs and Recreation Act), are a 
        symptom of a much larger problem--the lack of a clear and 
        consistent national or regional policy for our National 
        Forests, with specific management goals that effectively 
        integrate the diverse mandates of existing laws. Clearly, 
        federal forest management today is not working and our forests 
        and communities suffer and show the consequences. A piecemeal 
        approach to federal forest policy may provide some local, 
        short-term relief, but over time it is likely to create more 
        problems than it solves. In contrast, a comprehensive approach 
        could leave an enduring legacy, perhaps not unlike the laws 
        that established our National Forests over a century ago. I 
        know that the forestry profession would welcome such a 
        legislative effort and SAF would be ready to assist in any 
        possible way. We need to have a national dialogue to develop a 
        shared vision of what we want our national forests to be and, 
        more broadly, what goods and services we want them to provide 
        society in perpetuity.
          Third, in SECTION 15 AUTHORIZATION OF APPROPRIATIONS, the 
        appropriation of $50,000,000 is extremely important and 
        necessary to implement this legislation. I am concerned that if 
        funds are not authorized by Congress, that some groups will get 
        their objectives met while others won't get what was promised, 
        and the Forest Service and taxpayers are left with unfunded 
        mandates and additional regulation. In the end, forests and 
        communities will lose out if this does not happen.
          Lastly, S. 2895 seems process heavy and would add to an 
        already substantial array of regulatory requirements, require 
        much assessment and analysis, and runs the risk of achieving 
        less on-the-ground results. Perhaps your staff could map out 
        all the meetings, reports, assessments, interim periods, etc., 
        directed by S. 2895 alongside the existing procedural 
        requirements for the Forest Service, to clarify the additional 
        process burden it would place on the agency.

    In closing, I hope that these comments about S. 2895, Oregon 
Eastside Forests Restoration, Old Growth Protection, and Jobs Act of 
2009 are useful to the Committee. Thank you for your time and 
attention, and for the opportunity to provide a perspective from the 
forestry profession on this legislation.

    Senator Wyden. I have seen many treatments in central 
Oregon, and I am certain to see more. So I thank you, and that 
is very helpful of you to come. Thank you.
    Let us begin our questions with Senator Risch. He has been 
very patient. I have got a considerable number of areas to get 
into, but we are going to begin with Senator Risch.
    Senator Risch. Thank you very much, Mr. Chairman.
    I am glad I was able to attend the hearing, quite 
interested in this legislation and commend you for bringing 
this legislation. I think there have been some legitimate 
comments here to help further hone the bill.
    It gives me some modest pleasure to sit here presiding or 
semi-presiding with Dr. Johnson, Mr. Fitzgerald. I spent 4 
years at the College of Forestry at the University of Idaho and 
listened to you guys pontificate for 4 years. So it is good to 
be up here for a change.
    I am also an alumni of the Society of American Foresters, 
Mr. Fitzgerald. So thank you for coming.
    Mr. Fitzgerald. I am also a Vandal.
    Senator Risch. All right, you are the man.
    I graduated in forest management a year after Mr. Blasing 
did, in 1965. You know, it is really unfortunate more of our 
colleagues couldn't be here. I am told I am the only one out of 
the 435 Members of Congress and the 100 in the Senate with any 
background in forestry at all. So we wrestle with these issues 
all the time, and it is interesting to talk to people. I think 
the chairman would agree with me that there is a, putting it 
kindly, modest lack of knowledge of the forest industry and how 
forests and landscapes work and grow.
    Mr. Shelk, when I graduated from the College of Forestry at 
the University of Idaho, there were 41 operating mills in 
southern Idaho. Today, there is one. It is the result of a 
combination of things, but not the least of which is the 
tension and the acrimony that has taken place between the 
environmental community and the industrial community.
    The only way you are going to continue to cut boards is to 
do exactly what you are doing right now, and I think most 
anybody would tell you that that is what the situation is. I am 
sure you probably recognize that.
    Let me see, Mr. Blasing, I listened to what you had to say. 
By the way, just so you know who you are talking to here, they 
list me as the fifth most conservative member of the Senate. My 
wife and I run about 500 pair of black and black baldy cows. So 
I know trees. I know cows, and I know the area that you are 
talking about.
    But let me say this. I think that some of the suggestions 
you had were very constructive. I couldn't agree with you more 
that the Forest Service does know how to manage. I mean, we 
have been at this a long, long time, since the fires in Idaho, 
northern Idaho of 1910 and on forward. We have gained a lot of 
information about how to manage forests.
    I agree with you. I don't think that is the problem. It is 
actually doing it that is the problem. I think that the 
environmental community is coming to the recognition, and I 
think it was conceded here that there are parts of the national 
forest that deserve management. There are certainly parts that 
deserve our protection and that not be managed, not be used for 
multiple use, although multiple use is certainly the desired 
use of the forest.
    But there are parts that should be managed, large parts 
that should be managed. But I want to tell you a little bit 
about what happened in Idaho. You are probably not familiar 
with it.
    When I was Governor--in fact, it wasn't long after I became 
Governor--the Bush administration urged the States to take a 
run at writing an appropriate State rule for the roadless areas 
in the State. The environmental community had apoplexy, of 
course. They thought that it could be done better from the 
banks of the Potomac than in the individual States.
    Most of the States declined. My friends all told me don't 
touch that with a 10-foot pole. But it was a true love for me. 
There are 9.2 million acres of roadless in Idaho, and I have 
watched them fight over it. I can't count the lawsuits that 
have taken place over the last 40 years while we have sat and 
really abdicated our responsibility to do something about 
roadless.
    So I took it on, and I did it in a collaborative fashion. I 
got the industry to the table. I got the environmental 
community to the table. At times, I had to use what a Governor 
sometimes uses to get those people to the table, but we did get 
almost everyone to the table. The only one we didn't was the 
Wilderness Society, and I think they still regret not coming to 
the table.
    We only argued very briefly about the size of the table--or 
excuse me, the shape of the table. I urged everyone that we had 
to be working in good faith and trust each other in good faith. 
We proceeded in a 6-month period of time to write a roadless 
rule for 9.2 million acres, the largest bloc--well, it wasn't 
blocs, it was pieces--of roadless of any State in the United 
States, certainly the most diverse.
    We did it in a give-and-take fashion. We did it by starting 
with counties and engaging the counties in the areas. We went 
through in a give-and-take fashion and eventually got a rule. 
That rule now is the law of the land of the United States. We 
are the only State that has a rule that designates how our 
roadless areas are to be managed.
    I am not going to go into the details of it. But it is a 
good rule, and it recognizes that there are pristine pieces 
that have to be left alone, but there are other pieces that 
need to be managed to a larger or lesser degree of 
aggressiveness.
    But in any event, my point is, don't give up. I heard your 
criticism of this bill. I think some of the criticisms are 
probably well founded. I am sure they are all well intended. I 
suspect that Senator Wyden will be more than happy to sit down 
with you talk about some of the criticisms that you have with 
the bill.
    I would only urge that you not overreach and that you do 
attempt to come to resolution of this because if, as you say 
that your county is so dependent on harvesting and cutting 
boards, believe me, the process that is on the table here is 
going to be the process that is going to get you to the point 
where you can employ people in your county.
    So, given that, and it sounds to me like there are people 
who have signed off on this that need to sign off on it. It 
sounds like people are willing to give and take. So, I would 
urge you to go forward, and certainly, the academics that are 
here are willing to lend their support, it sounds like. They 
know a lot about this.
    The Forest Service, we all get frustrated with the Forest 
Service. They are back here with the enviros pulling on one arm 
and the ``God gave us this resource to use'' people like myself 
pulling on the other arm, and they have a difficult time. But 
in the end, they can't do it by themselves, and they really 
need the help of people like Senator Wyden, people who are 
willing to do that.
    So I have pontificated long enough. I got even with Dr. 
Johnson and Mr. Fitzgerald a little bit.
    [Laughter.]
    Senator Risch. I appreciate you giving me this opportunity. 
Thank you, Senator Wyden, for what you are doing.
    Senator Wyden. Thank you, Senator Risch.
    You have once again made the point, ``Blessed are the 
peacemakers,'' because I think what you did in Idaho in 
bringing people together is very much a part of where we have 
an opportunity to go now in Idaho and Oregon and this 
subcommittee. We are very pleased you are on this subcommittee. 
We are going to have a chance to work together often in the 
days ahead, and I thank you very much for your very helpful 
comments.
    Senator Risch. I appreciate that, and I think what Mr. Kerr 
said about--in his paper about the maturing of the 
environmental movement is really quite an observation. I 
couldn't agree with you more. I think both sides have matured, 
and I think both sides have realized if, indeed, a side is not 
particularly interested in just fundraising or just 
philosophical argument, I think that both sides have realized 
the way this stuff is going to get done is through a 
collaborative method and both sides giving because you can't do 
it without both sides giving.
    So, with that, Mr. Chairman, I apologize. I am 20 minutes 
late for my last meeting. I am going to excuse myself.
    Senator Wyden. Thank you very much for staying and your 
patience.
    Mr. Blasing. Thank you for your comments, Mr. Risch.
    I just wanted to point out that one of the last jobs I had 
for the Forest Service was being the ranger alternate for the 
Big Creek Ranger District, which is a big bunch of the Frank 
Church-River of No Return Wilderness Area.
    The other thing I would only say is that if you had--when I 
represented the forest products industry in north Idaho, when 
you had Dick Bennett and Potlatch on the same board of 
directors, you do know how to negotiate.
    Senator Risch. Amen to that.
    Senator Wyden. He does. You are on target on that point, 
too, Mr. Blasing. We thank you, and thank you, Senator Risch.
    Senator Risch. Thank you.
    Senator Wyden. So let us see what we can do to find some 
kind of common ground here because it seems to me on this 
question of unanimity--I mean, it is almost like elections. 
There has never been a unanimous election.
    What we are looking for is common ground, and it seems to 
me, Mr. Kerr, you are, for all practical purposes, 
acknowledging one of Mr. Blasing's concerns about not all the 
environmental groups are on the program. Your written statement 
for the record notes that the conservation community is not of 
one mind as the need for restoration thinning.
    Then you go on to sort of amplify it in a whole number of 
areas with regard to restoration, thinning, burden of proof, 
standards of evidence. You make that point, I think, very well. 
Can you elaborate on what you are trying to say? Because I 
think it is another opportunity to start bridging the gap and 
continuing to bring more people together.
    Mr. Kerr. Thank you, Senator.
    I would like to think that when the facts change that I at 
least consider changing my mind. Now, and that is easier said 
than done for anybody. It is just kind of human nature 
sometimes.
    So, the facts have changed on the eastside forests, and the 
science has come along and said, you know, they need some 
active treatment. The conservation movement originated and is 
still steeped in a preservation paradigm. There are pieces of 
wild nature that ought to be left alone, and we will continue 
to fight for those. You have been instrumental in getting 
additional wilderness areas and wild scenic rivers in Oregon, 
and thank you for that, and we would like more.
    But more and more, the conservation community is moving 
into a restoration paradigm on public lands on these degraded 
landscapes, as been pointed out here today. So, not all people 
move at the same rate, and so some of the objections of my 
colleagues are scientific. They do not agree with the science. 
They cite other science and such, or they are philosophical. 
They just feel that public lands should not have commercial 
activities because they have historically equated commercial 
activities with harmful activities.
    They also--there is an aesthetic objection. You know, we 
are talking about to restore the ecological health of these 
forests to often remove a lot of trees, not the biggest ones, 
but a lot of little ones. That leaves a lot of stumps, and that 
bothers people. So, as Aldo Leopold spoke to being an ecologist 
is living in a world of wounds when you know something. So, you 
could look at these forests, and they look pretty. They are 
nice to hike in, but they are not healthy. They are not in good 
ecological condition.
    So the conservation community has been wrestling with this, 
but the majority of the science says action is needed. Not all 
of the science. There is differences of opinion among 
scientists. But what are you going to do? When most of the 
science says a certain thing, you should go with that.
    I think the analogy that I use is there are 3 legal 
standards we use in this country. One is beyond a reasonable 
doubt. When you are going to deprive somebody of their liberty, 
you need to be absolutely sure that the evidence says that is 
the correct thing to do.
    The science of the forest management and forest ecology is 
not beyond a reasonable doubt. It is subject to change. There 
is dispute. But it is far more than simply merely the 
preponderance of the evidence. It is not just a question of, 
well, 51 percent of the information from the scientific 
community says that action is necessary. It is far greater than 
that.
    I think the appropriate standard to use is clear and 
convincing evidence. There is clear and convincing scientific 
evidence that to restore the ecological health to these forests 
that aggressive treatment across the landscape is going to be 
necessary--not on every acre, but many of them. So, the 
conservation community has--is wrestling with that.
    I think that much of the conservation community is there. I 
believe there is a strong critical mass in favor of this 
legislation, but not everybody is. What I like about this 
legislation is that it says experts shall be impaneled to 
advise the Forest Service on what is the best available 
science, and that is a good process.
    This legislation does not dictate a particular, specific 
outcome. It says we are going to use good information. Here are 
broad goals, and we are going to engage all the stakeholders in 
a collaborative way. That is working. There is evidence that 
that is working already.
    If you go to the Fremont National Forest in Lakeview, much 
of what this bill would do wouldn't change what is going on 
down there. The Forest Service is doing an excellent job. 
Similarly, our conservationists and the timber industry on the 
Colville National Forest in Washington, on the Siuslaw National 
Forest in western Oregon are all doing excellent collaboration. 
On the Siuslaw National Forest, there hasn't been litigation 
over a timber sale in well over a decade.
    Senator Wyden. That last point that you made is a very 
striking one, and we are going to want to work with you on that 
point, Mr. Blasing. I just had a town meeting over in Lakeview, 
and I think this was the first time when we didn't really hear 
those kinds of concerns. I think it is reflective of the fact 
that you and Mr. Shelk, in particular, have picked out a model 
that, based on the evidence, can work in the real world, can 
deliver the economic benefits, can help us to stay out of the 
litigation derby that I think Mr. Blasing is correct to be 
concerned about.
    I want to turn to Mr. Shelk now to hear a little bit about 
how you 2 began this. But we sit here today with the American 
Forest Resources Council, the premier group for the timber 
industry, in support of this effort. They stood with Mr. Shelk 
and Mr. Kerr at the kickoff, and I think the point Mr. Kerr 
just made about how there are models out there--smaller models, 
obviously--that, in effect, helped us as we tried to make our 
judgments about how to go forward demonstrate that this can 
work.
    So I think those are valuable points, and I think I want to 
go to Mr. Shelk to tell us a little bit about how the 
discussions began and how you pulled this off. There is a 
pretty amazing story, as I understand it, about this whole 
process, where you and Mr. Kerr found a way to lead folks who 
haven't agreed a whole lot.
    So just for the record, let us hear how this came about, 
how the process unfolded and how did you do it?
    Mr. Shelk. It initially started with a walk in the woods. I 
think that there was some hesitancy on both of our parts to 
begin a dialog with each other because, for my part, there was 
a lot of pain and a lot of distrust and a lot of anxiety with 
talking with the devil incarnate next door here. But as we----
    Senator Wyden. Wearing a suit today.
    Mr. Shelk. Pardon me?
    Senator Wyden. Devil incarnate wearing a suit today.
    Mr. Shelk. Yes. As we continued our discussion, I 
recognized, No. 1, a facile mind, one that picked up on 
concepts and, as Andy mentioned earlier, recognized that things 
change and is capable and the thought that he is capable of 
adapting to that. I recognized that things have changed, too.
    We were--in 1980, things were good for us. By 1994, we were 
in a lot of trouble, just the change in national forest policy 
and where it went. At that point, I think we both recognized 
that there potentially was some mutual goodwill that we could 
bring to the table and some creative things that we could put 
together that might benefit the forest and the industries at 
the same time.
    I think jokingly the first or second time we talked, we 
said, well, heck, we can make some legislation up. We can put 
something together that is going to work. It was said in a 
joking fashion, but I think that both of us were testing the 
other to see whether there was the will, whether there was the 
inclination to go forward and actually make this move.
    Enter your office and your encouragement and then a 
movement forward to other people in our industry and the 
environmental community that either were of like mind or could 
be brought about to a sort of collaborative discussion. It was 
awfully helpful to have the people from Collins Companies 
participate in this process with us because they had seen it 
actually work on the Fremont in Lakeview.
    So we moved forward, and it was--we were not always holding 
hands. We were occasionally perhaps holding each other's hands 
so that the dagger couldn't be put in to the opposing party. 
But it was a gradual agreement on things, recognizing where 
there were points that we could not come together and, in some 
cases, choosing to leave those discussions aside. Essentially, 
the elements of collaboration working between the 2 of us and 
then expanding that amongst a somewhat like-thinking group of 
industry and environmental participants.
    Senator Wyden. The walk in the woods, almost like a great 
foreign policy agreement, is how it began. I will have some 
more questions in a moment, but I wanted to get that on the 
record.
    Dr. Johnson, your thoughts in response to your colleague, 
Professor Fitzgerald, who I think is a little concerned that 
maybe there is a little bit too much prescription here and 
concern that you won't get timber. How would you react to your 
colleague?
    I know professors are kind to each other, and we are not 
going to have any blood bath here. But what is your reaction to 
your colleague's comment, particularly on those 2 points?
    Mr. Johnson. First, I congratulate him on some well 
representation of the dynamics of the eastern Oregon forests. 
I, of course, was involved in the development of the Northwest 
Forest Plan and involved in also much eastside policy. One 
thing I learned over the last 20 years was that the Forest 
Service is best able to move forward when they have clear 
boundaries. The 2 examples I will give are the 80-year 
limitation on thinning and plantations under the Northwest 
Forest Plan and the 21-inch limit on the diameters to cut in 
eastern Oregon.
    What we learned is that, yes, these policies do restrict 
the agency, but they also protect its discretion. That is 
something I didn't fully realize. So, in Oregon in the last 
decade, in both western and eastern Oregon, we have actions by 
the Forest Service are largely associated with these clear 
directions. It is imperfect, but that has taught me something.
    I have found that with the agency and the many, many good 
people in it, that they kind of go through a process of first 
resisting these limits, growing to accept them, growing to need 
them, and it is very--there is a tension here. It is very 
important that they make some sort of sense from a forestry 
standpoint, but given the lack of trust that we have on Federal 
forest management and given the dynamic, this has been--these 
clear directions have an important element in the agency being 
able to undertake action.
    Senator Wyden. Dr. Johnson, that is very helpful. I am 
going to ask a question of your colleague in a minute, and 
maybe we will have some back and forth with the 2 of you.
    Mr. Blasing, for you, first of all, I want to make sure 
that it is clear on the record that we are very much committed 
to the economic benefits here, the saw logs getting to the 
mills. It is practically the first words in the proposal. It 
says create an immediate, predictable, and increased timber 
flow. That is at page 2. At page 38, the emphasis on the need 
to maintain industry infrastructure. I mean, that is all about 
keeping those mills. So we very much share your concern about 
the economics.
    As you know, I have open meetings in every county every 
year and have been out to Grant County many, many times, 
talking to folks there that you work with and the county 
commissioners. What I consistently hear is about the endless 
appeals, the appeal, an appeal, an appeal. So we were able with 
Mr. Kerr and Mr. Shelk--and this took a lot of effort--they 
were able to eliminate some of these appeals in this 
legislation.
    I want to kind of follow up on your concern because it 
seems to me perhaps what you are saying is even eliminating 
appeals isn't going to speed things up. So how would you--and 
you can even take some time after you get home and work on 
this, too. How would you propose streamlining the appeals 
effort?
    Because now, we have something that is acceptable to not 
all, but a significant number of environmental groups, a 
significant number of people in the forest products sector, 
whether it is Mr. Shelk or the American Forest Resources 
Council. So we have been able to get a pretty good collection 
of folks in the industry and the environmental community to say 
they think this is a sensible way to proceed with respect to 
appeals. What would be your suggestions on this point?
    Mr. Blasing. First of all, I wholeheartedly agree with the 
efforts to streamline the appeals process. I am not nearly as 
concerned about appeals as I am about litigation, and I 
understand people are talking about appeals because more 
appeals happen. But it isn't the appeals that stopped the 
process. The appeals get the Forest Service's attention, and 
they can tinker around with their program a little bit and 
still have a program go forward.
    But when it gets into court, even if they get a favorable 
decision, say, in the district court, it is ultimately 
regularly appealed to the Ninth Circuit Court of Appeals, which 
has a wholly different idea on how the law should be 
interpreted. Because this has been going on for so long, the 
Forest Service is adjusting their programs not on the basis of 
forest science, but on the basis of what they think they can 
get past the Ninth Circuit Court of Appeals.
    Again, it isn't the appeals that bother me. They are 
basically a part of the public participation process with 
national forests. The part that bothers me is that it is so 
easy to take this and go through and litigate it, and you don't 
even--the people that are doing the litigations don't even have 
to win the case and they still get paid costs and other things. 
So it is a no loss or a no risk situation for them.
    You mentioned you want to get away from running out the 
door and filing a lawsuit. So do I. But I am not sure--I am not 
attorney enough to tell you how to fix that part of the 
process. But that, to me, is where the issue is.
    Senator Wyden. I just want it understood that I am very 
open to getting any suggestions and ideas you might have. I 
think that we now have a significant part of the forest 
products industry and a significant part of the environmental 
community that on this issue of appeals/litigation thinks that 
we have hit a good balance.
    I just want to keep building on it. We will keep the record 
opened so that any ideas you would like to offer on litigation 
or appeals, we will be very open to it. Again, you made the 
longest trek to be back here from beautiful Grant County, and 
we really appreciate your coming.
    Mr. Blasing. Thank you.
    Senator Wyden. Let us go to Professor Fitzgerald. I think 
almost we are probably getting close to the end. People's blood 
sugar is starting to wind down.
    But I have got to ask you about old growth. No forestry 
hearing, probably no topic gets more attention before this 
subcommittee. I think Professor Johnson is smiling as well 
because he has only spent a gazillion hours on this topic. How 
would you recommend this subcommittee define ``old growth,'' 
Professor Fitzgerald?
    Mr. Fitzgerald. I probably gave you a surrogate definition. 
But it really depends on the forest type. Lodgepole old growth 
would be way different than Ponderosa pine or mixed conifer. So 
what we tend to look at are the composition, the species 
composition, the range of tree diameters that would typically 
occur there, the layers--the canopy layers, the amount of dead 
wood.
    So an old growth forest would likely have much wider range 
of diameters and ages than, say, a young forest or even age 
forest. So it is much more diverse, has a lot of gaps and 
openings depending on the forest type.
    Senator Wyden. All right.
    Mr. Fitzgerald. That is kind of why I spent some time 
talking about the structure. When we look at where we are 
restoring forests, we need to not just look at the short-term, 
that we are going to do a thinning or a burning, but where we 
are going to take that stand over the long run? We really need 
to have the long run in mind.
    Senator Wyden. Let us get Professor Johnson into it, and I 
also just want to make sure that everybody has a chance--if 
they are watching on C-SPAN or somewhere else--that they know 
that this report by Professor Johnson and Professor Franklin, I 
think, is really an extraordinary document, an extraordinary 
public service. It is called ``The Restoration of Federal 
Forests in the Pacific Northwest: Strategies and Management 
Implications.''
    I can tell the people of the Pacific Northwest how much 
sweat equity went into this effort on the part of Dr. Johnson 
and his spouse, I would note, who was also very much involved 
in it, and Professor Franklin. So it is an extraordinary 
document, and I would recommend it to anybody who wants to 
really understand Restoration Forestry 101.
    So, Dr. Johnson, tell us your response on the old growth 
definition question because, generally, having heard you hold 
forth on this eloquently in the past, I have sort of gotten the 
sense that you feel at some point you have got to get a 
definition. You have got to get a set definition. Why don't you 
lay out for us if that is actually the case? If so, why and 
how?
    Mr. Johnson. Yes, thank you, Mr. Chairman.
    Yes, Dr. Franklin and I stewed over this for quite a bit. 
In our report, we talk about stand age for the moist forest, 
but today, we are talking about the dry forest, and we are 
talking about tree age. We actually use started with diameter 
limits and realizing that they were a first approximation.
    But we were concerned then. We are concerned now that 
unless we directly address over time the--directly address old 
growth, that we might high center or make much less productive 
the restoration efforts that Andy Kerr and John Shelk are 
talking about on 2 ends.
    First off, there are many Ponderosa pine trees less than 21 
inches that are very old. I doubt for long that we can cut 
those without some uproar. Second, there are trees greater than 
21 inches, young trees, that are threatening other old growth 
trees by their proximity.
    So we then began to say, OK, if we did this directly, how 
would we do it? We did first try to look at some broad 
structural definitions, which are very satisfying to scientists 
but are incredibly difficult to get agreement on from 
collaboration groups, or as we move forward.
    So then we got interested, more and more interested in just 
using age. Age is one component of old growth. Everyone agrees 
with that. We would not argue, and we don't argue, that there 
is a single age ecologically or physiologically when a tree 
becomes old growth.
    However, it is pretty clear that when trees--these are, 
say, Ponderosa pine and mixed conifer trees. I agree. I put 
lodgepole in another category. But the Ponderosa pine and the 
Douglas fir, when they are over 200 years old, they generally 
would be called old growth. We started there.
    OK. But where would we set the age? Any age that we set has 
a lot of social component to it. It is not strictly an 
ecological definition. But we did realize that when we have 
these problems about maturity and where to say something is 
mature or old, we in society often use age--for when people can 
drink alcohol, for when they can learn to drive, for when they 
can vote and when they can fight for their country.
    We thought if we can use it for those important decisions, 
then as a social decision, we would choose--we can find an age. 
We happened to pick for the Ponderosa pine and mixed conifer 
150 years. It could be other ages for the individual trees. But 
I am very concerned that unless we directly address this, 
unless we make that social decision, that we will get a high 
centered over this, and many of the dreams that are expressed 
today won't be realized.
    I think that diameter is very much an interim measure. Now, 
people have rightly said, well, we don't yet have the protocols 
to do that, and we don't want to totally--on the other hand, if 
you suddenly switch to age, you could high center everything. 
OK, fair enough.
    The way you wrote the legislation, which I must tell you, 
Dr. Franklin and I, when we first read it, we read it with 
great apprehension. ``What has happened to our favorite 
ideas?'' We were not very much liking where you ended up. Start 
with diameter. Work hard on age. We plan to help on that and, 
over the next couple of years, help make that shift and have 
the protocols--help develop the protocols where people can do 
that without greatly slowing things down.
    So we concluded age is central for really dealing with some 
of the ecological and some of the social issues, that we could 
pick an age. It will be a social decision based on ecological 
and other information. That we need to get started and working 
on how to do that on a practical level. We don't think we are 
far off.
    Senator Wyden. Very good. I think at this point, we have 
been at it a little over 2 hours. I have had a tradition over 
the years that when Oregonians make this very long trek to come 
back here, I think it is very fitting that our guests ought to 
have the last word.
    Now, you aren't compelled to say anything else if you don't 
want. You have been at it for a couple of hours. But if there 
is anything any of you 5 thoughtful Oregonians who want the 
best for our State would like to add, we will give you the last 
word. Not required, but welcome.
    Mr. Shelk. Senator, as I mentioned earlier in my remarks, 
our company has been managing timberland for over 80 years in 
central Oregon. I have some issues with Professor Johnson and 
some of his artificial designation of old growth.
    But what we are putting in place here is an educational 
process. The process of collaboration is--just automatically 
implies a lot of education in this. It is going to be informed 
education because the scientists and the technical people are 
going to be able to have their input. But ultimately, there is 
going to be the exchange of an awful lot of information, and 
that information is going to inform our decisionmaking down the 
road.
    We can then hand that information to the Forest Service and 
give them a larger bank of knowledge with which to go forward. 
That is what I hope is going to come from this process.
    Senator Wyden. I think I can call that the Shelk spirit 
because that is exactly the way you have always done it, and we 
are very appreciative of it.
    Anyone else? Mr. Kerr? Dr. Johnson? Mr. Blasing? Mr. 
Fitzgerald?
    Go ahead, Mr. Blasing, and we will give everybody a chance.
    Mr. Blasing. OK. I am concerned about what is essentially 
an artificial diameter limit for the designation of old growth. 
In eastern Oregon on any average site, we can grow a 21-inch 
tree in 60 years. On good sites, we can do it in 40 years.
    The typical rotation for forests in eastern Oregon from a 
timber harvest standpoint is about 100 years. So, basically, 
what we are doing on those stands where we are going to 
perpetuate timber harvests, we are giving up either 40 or 60 
years, depending on the site, of the very best volume 
production, which will produce the most economic benefit as 
well as the other benefits in the management program.
    I don't want to cut all the old growth trees. I love old 
pine trees as much as anyone else. But I am extremely concerned 
when I go out south of Prairie City and I find literally 
hundreds of what you would consider to be old growth pine 
trees, which are the highest value trees in the stand, that are 
either dead, they are dying, or they are going to die very 
shortly.
    I was lucky enough to, when I worked for the Forest 
Service, to mark a couple of hundred million feet of timber out 
in that area in the late 1950s. I am really old.
    [Laughter.]
    Mr. Blasing. In going back out there after being gone for 
quite a long time, going back to the same area, I go out there, 
and we spend some time camping out there every Fourth of July. 
Those forests are in worse shape now than they were when we 
marked the virgin stands.
    The problem is that--I think I heard some agreement here, 
but I am not sure. But my assessment of the problem is that the 
dry cycle that we are in climate wise has stressed these large, 
old trees, and they are probably being taken out by bark 
beetles because of the stress. Nonetheless, they are dying.
    Any one of these trees out there probably is worth, in good 
times, 1,000 bucks apiece in stumpage value to the national 
forest. To John Shelk, in terms of product value, I am not sure 
what clears are worth now in molding, but I would imagine it is 
a hard thing to imagine. I would think in terms of product 
value on some of these trees, you are looking anywhere upwards 
of maybe $15,000 to $20,000.
    So I am out there watching these trees die, and it just 
bugs the heck out of me. We need to be salvaging this material. 
When we first marked those stands out there, the process was 
going to be that we went through and put our forests in shape. 
Then we would go through--at that time, they were planning 
every 10 years--and put it back in shape again. This is the 
type of program that I would like to see.
    When we marked those stands out there, we cut everything 
over 3 feet in diameter. Now there are all kinds of 4- and 5-
foot trees, and this is in a 50-year period. So we can manage 
old growth. We can manage large diameter trees. We can retain 
the value out of them. The process can go on.
    Senator Wyden. I think that there is certainly no 
disagreement, not for me or any of the panelists, on how bad 
the condition of the forest is. We have got a lot of material 
dying out there.
    What I don't want to do is miss the opportunity, when we 
have some of the most influential voices in the forest products 
sector--Boise Cascade, the American Forest Resources Council, 
people like John Shelk and their compatriots who hold similar 
positions in the environmental community--I don't want to miss 
the opportunity when they agree about how to go in there and do 
something about the horrendous state of the forests you are 
talking about.
    I think we all just got to keep at it and keep working 
together, and that is what I am committed to doing.
    Any last words, Mr. Kerr? We will go to Mr. Kerr, and then 
we will go to Mr. Fitzgerald.
    Mr. Kerr. A couple of closing points. The legislation also 
addresses roads, which are a big problem. We talk a lot about 
forest health today, but watershed health is equally as 
important problem, and this legislation does address that as 
well.
    There are too many roads out there. There are too many 
roads from an ecological standpoint, a hydrological standpoint. 
No single citizen could drive all those roads, and the 
taxpayers can't afford to maintain all those roads. So we have 
a problem that is ecological and fiscal that needs to be 
addressed.
    This legislation would urge the agency to reduce the number 
of unnecessary roads and to make the roads that remain more 
storm proof so they are not causing harm to the environment.
    The question is on appeals, I want to state that that was 
probably the toughest thing for the conservation community that 
is endorsing this bill. We didn't want to give up 
administrative appeals. We think that they are an important 
process. But when we looked at this legislation in total, and 
the opportunity that it affords and the protection that it 
affords and the fact that the administrative appeal process 
would be foregone for a relatively short time period and be 
replaced by a similar process that saves a significant amount 
of time, primarily by putting the Forest Service on a schedule 
with the aggrieved parties.
    Right now, the aggrieved party has to file an appeal and a 
statement of reasons in a certain period of time, and then the 
Forest Service often sits on it. So the Forest Service should 
either defend or abandon their plan, but not just sit on it. 
That is a big problem for things going forward.
    In terms of old growth, it was in a different context. But 
a Supreme Court justice named Potter Stewart said--and I will 
paraphrase. He was actually thinking of something else, but he 
said he couldn't define it, but he knew it when he saw it. That 
is sort of old growth.
    Twenty-one inches is arbitrary, but rational for the 
reasons that Norm said. You could do age. You could do 
structure. There is legislative exception in this bill that 
speaks to if the scientific panel and a case could be made that 
there are trees over 21 inches that need to be removed to 
restore ecological function, they can be. If there are trees 
under 21 inches in diameter that need to be retained for 
ecological structure and function, they can be.
    So it is a--there is a diameter limit. It is actually more 
of a landmark than a limit because there can be exceptions 
either way. The reason that is important to have is that if 
there is no standard, the conservation community gets very 
nervous with the agency abusing their discretion. As Dr. 
Johnson pointed out, the agency works well with boundaries. 
What this legislation does is provide boundaries. It says the 
old growth is important. Forest health is important. Watershed 
health is important. Manage for those things.
    So, in closing, I think this legislation provides an 
excellent opportunity. One of the issues that we did not agree 
on was question of the relative worth or the ultimate value of 
trees that are no longer transpiring. We like dead trees. They 
have ecological value. There is more life in a dead tree than a 
live tree. Many species of wildlife depend upon standing dead 
trees and fallen trees and things like that.
    So that is an example of an issue that we did not come to 
agreement on, but we are not going to let that difference get 
in the way of the tremendous potential that this legislation 
provides to move us beyond the historic places that we have 
been to be--the forest to be a better place.
    Thank you.
    Senator Wyden. Very good.
    Dr. Fitzgerald.
    Mr. Fitzgerald. Yes, I would like to make a comment about 
the scientific advisory panel and perhaps a suggestion for 
adding a discipline. We have economics on there, but it is like 
timber economics, ecosystem economics. We really need, really, 
a social or community stability, which kind of helps to 
integrate economics and viability on that.
    The other part is----
    Senator Wyden. Sure sounds sensible to me.
    Mr. Fitzgerald. When you have a group of scientists 
together, they are very good at what they do. Norm is good at 
policy. I am good at silviculture. But many scientists don't 
have their foot on the ground.
    So, what I would recommend is integrating that committee 
with forest managers so that when the scientific committee 
comes up with kind of the broad goals and stuff, that it is 
implementable. Because scientists, you get them in a room and 
they can really think up some creative things, but is it 
implementable? So, that is a very important part of that.
    Thank you.
    Senator Wyden. Sounds good to me.
    Norm.
    Mr. Johnson. I just want to finish--I think we are coming 
to a close--that Steve Fitzgerald and I may disagree on some 
things. We definitely agree about some managers, a manager on 
that committee, and I think it is safe to say we both like the 
color of your tie.
    Senator Wyden. Yes. Orange. I am the Duck. So I have got to 
keep the peace. I will wear green tomorrow.
    [Laughter.]
    Senator Wyden. Let me leave you with one last thought. This 
subcommittee has been involved in all of the major forestry 
issues before the Senate in the last decade. You look, for 
example, at the timber payments legislation. I wrote that a 
decade ago. A Democratic president didn't really want to sign 
it, and I got it reauthorized in the last Congress when a 
Republican president didn't want to sign it.
    Our State got $2.7 billion by the time we were done, and I 
think Mr. Blasing knows that Grant County folks have told me 
often when I have been out there that, without that, a real 
question about how the county could pay for essential services.
    We did the same thing with President Bush's effort on the 
Healthy Forest Restoration Act. When that came over from the 
House of Representatives, that pretty much didn't have a pulse. 
A big group of us stepped in, Democrats and Republicans. We 
came together. We got close to 80 votes for that piece of 
legislation. I think that was a sensible step.
    I am just as committed to getting this done because I think 
it is urgent. Mr. Blasing is spot on about how serious the 
problem is in eastern Oregon about forests dying. We do not 
have time to wait. If we wait, we lose the mills. We lose 
loggers. We lose all of the infrastructure in order to deal 
with the problem that all of you have correctly identified.
    So we are going to put every bit of persistence and 
tenacity into this cause that we can. We are going to do it in 
a bipartisan way, which is what I think is essential for 
balanced forestry. You all have been great. You make me proud, 
5 Oregonians out offering thoughtful ideas to the U.S. Senate. 
It doesn't get any better than that.
    I thank you for it, and the subcommittee is adjourned.
    [Whereupon, at 5:04 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

      Responses of John Shelk to Questions From Senator Murkowski
    Question 1. To all of the Panel 2 witnesses: You have all heard 
each other's testimony and that of the Administration. I have a 
question that I want each of you to answer: If there were one thing 
that you could change in this bill what would that be?
    Answer. The change I would most like to see is a limitation on the 
use of appeals and litigation as a tactic to kill projects through 
delay and/or analysis paralysis. The bill currently eliminates 
administrative appeals for interim projects, which will last 
approximately 3-4 years. The legislation does not protect against 
injunctions once a project has been advertised and sold. This is a 
particular problem in the Ninth Circuit, where the courts are more 
inclined to issue nearly-automatic injunctions when a challenge is 
based on environmental grounds, without regard to the balancing of 
harms tests used in other circuits.
    Projects now moving through the approval process on Eastern Oregon 
forests demonstrate the apparent unwillingness of the Sierra Club and 
other environmental organizations not directly involved in the 
negotiations that led to this bill to forego appeals and litigation as 
a tactic to get what they want, regardless of the outcome of 
collaborative processes involving the local community. As a 
consequence, our forests capitulate to the demands of these groups and 
modify projects or withdraw them altogether rather than face the costs 
and time delays that result from going through the litigation process.
    My wish is not to deny anyone the right to challenge a project they 
honestly see as potentially detrimental to the environment. We all want 
healthy, sustainable forests.
    Should this obstructionism continue, one possible solution would be 
to require all parties to submit to some form of binding arbitration 
before a panel of experts, rather than relying on the current, 
antiquated system under the Administrative Procedures Act and the 
National Environmental Policy Act. This would assure that the 
legitimate interests of all parties were weighed in the final solution 
and would relieve the Forest Service of the burden of defending itself 
in court.
    Question 2. Are you certain that layering on new process while 
legislating current and new restrictions is really going to be good for 
the Forest Products companies that are struggling to survive on the 
eastside?
    Answer. It is a certainty that continuing the status quo will lead 
to the demise of our industry on the eastside. We are currently being 
held hostage by the demands of extremist environmental organizations, 
such as the Sierra Club, Blue Mountain Biodiversity Project, Hells 
Canyon Preservation Council and others, whose objective to prevent all 
commercial timber harvest on our national forests. This bill responds 
to the willingness of moderate environmental organizations to recognize 
the role of timber harvesting in forest health restoration and 
community stability. It is our hope that its passage will lead to 
greater cooperation among reasonable environmental groups, the industry 
and community members while increasing our chances of survival as an 
industry.
    Question 3. Don't you think that having shut out the eastside 
environmental groups is only going to make them more motivated to head 
to court on the sales that do get through the Scientists?
    Answer. No one was shut out of the process. Initial negotiations 
involved those environmental organizations, companies and associations 
willing to work toward consensus. Once an initial framework was 
achieved, it was shared with other organizations and companies. Not 
surprisingly, there were those within both the environmental community 
and the industry who were not supportive of various aspects of the 
process. We negotiated long and hard to achieve as much consensus as 
possible. This is not the bill that any of us would have written if we 
had only our own interests to address.
    Included in our working group that crafted the bill are 
environmental representatives that have been most active in Eastside 
timber issues. Primary among these is Oregon Wild, the former Oregon 
Natural Resources Council, the primary litigant on former national 
forest timber sales in this region. They were joined by Defenders of 
Wildlife, who have also been very active in Eastside national forest 
activities for the past twenty or so years as well as the Pacific 
Rivers Council whose focus is on clean water and riparian protection. 
We were mindful of the problems associated with earlier attempts to 
reach consensus in other states where failure to include representative 
environmental organizations led to the downfall of the final product. 
Since the legislation includes no changes to judicial reviews it is 
possible that the most extreme environmental organizations may continue 
attempts at blocking all projects. This is certainly the case today as 
well.
    Question 4. Do you think the scientists are somehow better at 
coming up with defensible projects? If so, why?
    Answer. Under this bill, the Forest Service planners will continue 
to identify areas in the forest that are most in need of forest health 
treatments or other silvicultural work. The collaboratives will discuss 
the projects and offer suggestions as to how they might be improved. 
The Scientific and Technical Advisory Panel (STAP) will provide initial 
oversight and prioritization regarding the general forest health needs 
of Eastern Oregon's federal forests and the stakeholders that depend on 
them. The STAP will also act as a consulting body to the 
collaboratives. The STAP will, it is envisioned, render recommendations 
that could provide additional scientific support to allow projects to 
withstand a court challenge, if that happens. It is hoped the STAP's 
input will provide a basis for the courts to confirm the work of the 
Forest Service so that projects can go forward without being enjoined.
    Question 5. In the past your company looked, first to Siberia for a 
raw log supply and then eventually to Lithuania for a manufacturing 
facility to allow your company to sell lumber both in Europe, and also 
to the east coast of the United States.
    Help us understand your experiences in Siberia and Lithuania as 
compared to dealing with the federal government here in this country.
    If you started on a timber sale today in Siberia how long would it 
before you began logging and milling that timber? And in Lithuania? And 
finally on the Ochoco or National Forests?
    Answer. Our businesses in Russia and Lithuania are now largely 
defunct. In Lithuania, we were stopped by the banking crisis that hit 
the Baltics harder than nearly anywhere. We had our line of credit 
frozen, then cancelled. Even before the banking crisis, we were 
destined for failure because we relied primarily on Russia for our raw 
material. Our business model had worked well for ten years, but relied 
on a continuously rising market to purchase raw material from the 
Russians. When the market began to decline about four years ago, the 
Russians didn't understand or accept that we could not continue paying 
high prices for their product and so gradually curtailed their 
deliveries to us.
    In Siberia, we have recently had our port facility in Sovetskaya 
Gavan nationalized by the Russians. It was confiscated by Vladimir 
Putin and is going to be used as a major port to support the oil 
exploration venture on Sakahlin Island, opposite our port facility. We 
currently have an insurance claim registered with the Overseas Private 
Insurance Company. There is no way to compare our experiences in 
Siberia and Lithuania with the Ochoco National Forest.
    Question 6. If this bill were to be passed today and consensus can 
only be found on half the projects, could you describe the forest 
conditions and the type of forest products industry that is likely to 
exist 40 years from now?
    Answer. There are currently only three sawmills manufacturing 
Ponderosa Pine in the operating area of the six National Forest which 
encompass most of the National Forest area east of the Cascade 
Mountains in Oregon. For the last decade and a half, we have been able 
to access a moderate amount of private timber to keep our plants in 
operation. However, studies by the Oregon Forest Resources Institute 
show this private timberland has been overharvested by roughly 20 
percent per year during the past decade and a half due to lack of 
supply from Forest Service lands. This harvest rate cannot continue, 
and in fact has dropped off significantly in the past two years. 
Therefore, we need a doubling or tripling of volume from our federal 
forests in Eastern Oregon just to keep existing plants and shifts in 
operation. If, as Sen. Wyden's bill directs, there could be a tripling 
of volume sold from the Eastern Oregon National Forests, then cutting 
that volume in half, as your question poses, would still allow the 
existing mills to operate on a single shift. However, you must 
understand that we are in competition with other sawmills nationwide 
that are working two shifts per day and historically all sawmills in 
Eastern Oregon were working a two-shift basis. Not only does our 
industry need the extra volume that Senator Wyden's bill would offer, 
the forests need these treatments to reach the targeted number of acres 
treated through thinning, or run the risk of falling prey to the 
massive insect outbreaks that currently plague Colorado, Wyoming, and 
inland British Columbia. This would in turn increase the risk of 
catastrophic wildfire and could include the possibility of large swaths 
of public and private land being burned and made non-productive for our 
lifetimes.
                                 ______
                                 
   Responses of K. Norman Johnson to Questions From Senator Murkowski
    Question 1. To all of the Panel 2 witnesses: You have all heard 
each other's testimony and that of the Administration. I have a 
question that I want each of you to answer: If there were one thing 
that you could change in this bill what would that be?
    Answer. In the testimony by Jerry Franklin and myself, we state:

          Third-party review will be essential to gain and retain broad 
        public acceptance. We need mechanisms that provide trusted 
        evaluations of the linkage between actions and goals along with 
        the ability to suggest change as needed. Creation of third-
        party review as a regular part of forest restoration would go a 
        long way toward this goal.
          S. 2895 acknowledges this need through its purpose of 
        providing periodic independent review of agency programs in 
        carrying out the Act and with the creation of a scientific and 
        technical advisory committee which has, as one of its goals, 
        evaluation of the implementation and effectiveness of the Act. 
        Review of the interim (first three years) projects will be 
        crucial in this regard. If the committee is given an assignment 
        of reviewing these projects, year by year, it could go a long 
        way toward instilling trust in the public about the purpose and 
        results of forest restoration programs.

    We could not tell from reading the bill if the scientific and 
technical advisory committee would evaluate the effectiveness of the 
interim (first three years) projects. We feel that the scientific and 
technical advisory committee should have the assignment of doing such a 
review.
    Question 2. Would you agree that the scientific process by its very 
nature evolves and the accepted thinking today, could well be debunked 
tomorrow or in the future?
    Answer. Scientific knowledge changes sometimes in increments and 
sometimes with major shifts. However, the more fundamental the 
knowledge the less likely it is to change, Hence, general principles 
about how forest ecosystems are organized and respond to disturbances 
is quite stable, while very specific and detailed knowledge may undergo 
constant revision as more research occurs.
    Question 3. Can you tell me if there is broad agreement in the 
world of academia as to the meaning of ``uncharacteristic disturbance 
event''?
    Answer. Generally, there is much agreement. This particular 
terminology is used and defined in a review of ecological conditions in 
western US forest ecosystems by Dr. Reed Noss and others in a recent 
article in Frontiers in Ecology and the Environment.
    Question 4. Can you tell me if there is broad agreement in the 
world of academia that leaving a 21-inch diameter tree is better than a 
20-inch diameter tree vs. say a 30-inch diameter tree?
    Answer. I suggest that you query a spectrum of members of academia 
to answer this question.
    Question 5. Would you agree that protecting individual large and 
old trees does not mean that one is necessarily protecting old growth?
    Answer. Old trees are a key element of all old growth forests and 
this is profoundly the case in the dry forests of the western US. 
Therefore, protecting old trees is an important part of a strategy to 
protect old growth forests and, particularly, to restore dry forests to 
conditions that are within their historic range of variability.
    Question 6. Can you give us a definition of old growth that is 
widely accepted in academia or with most forest scientists? If so, what 
is that definition?
    Answer. Again, I suggest you query a spectrum of members of 
academia to answer this question.
    Question 7. You have to be fairly excited about the provisions of 
this bill that hand over management decisions of the Forest Service 
lands to the Scientific and Advisory Committee. In the bill what 
responsibility does that committee have to ensure the outputs called 
for in the bill are achieved?
    Answer. We have not proposed that the Forest Service hand over 
management decisions to a Scientific Advisory Committee.
    Question 8. If I am not mistaken, weren't you on the Gang of Four 
and then FEMAT that wrote President Clinton's Pacific Northwest Forest 
Plan?
    Answer. Yes, that is right.
    Question 9. It would seem to me that part of the problem in the 
failure to implement that plan was that the agencies and Department of 
Agriculture did not listen and failed to implement much of what the 
scientists called for--is that correct?
    Answer. For our evaluation of implementation of the Northwest 
Forest Plan, please see the attached article by the Gang-of-Four.*
---------------------------------------------------------------------------
    * Articles have been retained in subcommittee files.
---------------------------------------------------------------------------
    Question 10. Do you think the Eastside Scientific and Advisory 
Committee should have full sufficiency from all environmental laws to 
implement what they believe is needed, if they conclude violation of 
one or more of those laws is needed to restore the health of the 
eastside forests?
    Answer. No.
    Question 11. If this bill were to be passed today and consensus can 
only be found on half the projects, could you describe the forest 
conditions and the type of forest products industry that is likely to 
exist 40 years from now?
    Answer. Please see our testimony for our description of the future 
of the dry forests without comprehensive forest restoration.
                                 ______
                                 
 Responses of Stephen A. Fitzgerald to Questions From Senator Murkowski
    Question 1. To all of the Panel 2 witnesses: You have all heard 
each other's testimony and that of the Administration. I have a 
question that I want each of you to answer: If there were one thing 
that you could change in this bill what would that be?
    Answer. We need a national/regional policy that sets management 
priorities for our national forests. But short of that, I would 
eliminate the diameter/age limits and have the legislation primarily 
define the overall (umbrella) restoration and related socio-economic 
priorities for this region. Professional foresters and other resource 
specialists would use their local expertise and experience to define or 
prescribe the desired forest structure and other outcomes, and then 
apply the best tools to get the job done.
    Question 2. Would you agree that the scientific process by its very 
nature evolves and the accepted thinking today could well be debunked 
tomorrow or in the future?
    Answer. The scientific process is reflected in the ``Scientific 
Method,'' which is is a set process for gaining understanding about a 
particular question (a hypothesis) that the researcher wants to answer. 
Science, and the body of knowledge that it generates, does evolve as 
additional studies and study designs add information and knowledge that 
address the question we are asking. Not all current scientific thinking 
will be completely debunked in the future, unless particular studies 
are flawed or the questions weren't framed correctly. Scientific 
studies in forest ecosystems often produce only partial answers because 
of their complexity and site-specific nature. The results of those 
studies generate additional questions, which spur additional studies. 
Collectively, over time, the body of science can help answer the 
question(s) more completely and consistently. In essence, the 
scientific process is a continuum.
    Some studies may appear, at times, to conflict with one another. 
For example, I can find fire studies that show that fire is beneficial, 
detrimental, or neutral when it comes to effect on ponderosa pine tree 
growth. Does this mean these studies conflict? Not necessarily. In 
interpreting these studies, one has to delve closer to see under what 
conditions these studies were conducted, what assumptions were made by 
the researchers, and over what time timeframe the studies considered. 
In addition, what may be true on one forest site may not be true on 
another. You can often find a single study to support any management 
premise, but it takes a body of studies to show the broader patterns 
and enduring responses of ecosystems.
    Question 3. Can you tell me if there is broad agreement in the 
world of academia as to the meaning of ``uncharacteristic disturbance 
event''?
    Answer. For some forest types there is agreement on what 
constitutes an ``uncharacteristic disturbance event.'' For example, in 
the ponderosa pine and dry mixed conifer forests, fires today are much 
more destructive (stand replacing and high severity) and out of 
character than fires historically in these forest types, which were 
frequent but of low and mixed severity. This change in fire behavior is 
due to a buildup surface and ladder fuels, increasing stand density, 
and the loss of large, fire-resistant trees. In lodgepole forest, we 
know that fires were typically of stand-replacement and of high 
severity, even to the point of damaging soils and watersheds. However, 
what we don't know is how large these fires were historically. Some 
evidence suggests that they were patchy or mosaic type of fires of 
several hundred to several thousand acres, rather than the larger fires 
we see today of tens of thousands of acres. In mid- to high-elevation 
moist forests (mixed fir, hemlock, and spruce), it appears that fires 
were a mix of high- and moderate-severity and were patchy. Again, there 
is no agreement on the extent or size of these patches of high- and 
moderate-severity.
    Question 4. Can you tell me if there is broad agreement in the 
world of academia that leaving a 21-inch diameter tree is better than a 
20-inch diameter tree vs. say a 30-inch diameter tree?
    Answer. No, there is not. What is meant by the term, ``better''? 
Better for what: habitat, wood, carbon sequestration? It's really not a 
science question as it depends on the objective, which is determined by 
individual or societal values. And even from a science standpoint in 
evaluating a specific forest value, those trees would need to be 
assessed in the context of the surrounding forest and its unique 
conditions.
    Question 5. Would you agree that protecting individual large and 
old trees does not mean that one is necessarily protecting old growth?
    Answer. I agree with that statement because old-growth is not 
comprised individual old trees. From a science perspective, we need to 
talk about old growth forests. It takes several trees per acre 
comprised of different ages, sizes, and, sometimes, species (in most 
forest types) to comprise an old growth forest, as mentioned in my 
testimony. Having said that, individual old trees can add structure, 
habitat, and genetic diversity within stands and landscape comprised 
mostly of younger forests.
    Question 6a. Can you give us a definition of old growth that is 
widely accepted in academia or with most forest scientists? If so, what 
is that definition?
    Answer. I gave a definition in my written testimony. Here is a 
definition that would be widely supported, as it was developed and 
reviewed by knowledgeable forestry professionals:

          The (usually) late successional stage of forest development. 
        Old growth can be defined in many ways; generally, structural 
        characteristic used to describe old-growth forests include (a) 
        live trees: number and minimum size of both seral and climax 
        dominants, (b) canopy condition: commonly including multi-
        layering,'' [although some may be a single canopy layer, such 
        as in some dry pine forests] ``(c) snags: minimum number of 
        specific size, and (d) down logs and course woody debris: 
        minimum tonnage and the number of pieces of specific size.
                                  (from The Dictionary of Forestry)

    Question 6b. You have to be fairly excited about the provisions of 
this bill that hand over management decisions of the Forest Service 
lands to the Scientific and Advisory Committee.
    Answer. Actually, I'm concerned that most scientists and other 
members of this Committee would have little or no forest management 
experience, so would be ill-prepared to make such decisions. Some 
forest scientists have had academic training in forest management but 
this is not a consistent trait, and even fewer have had experience 
managing forest lands. And, having managed forests myself, I can 
appreciate how essential such experience is in good decisions and 
outcomes from management. The scientists and other members of the 
Committee could provide some valuable perspective about proposed 
projects but their most appropriate role is advisory rather than 
decision-making.
    Question 7. In the bill what responsibility does that committee 
have to ensure the outputs called for in the bill are achieved?
    Answer. The committee should not only have the responsibility to 
develop broad goals and related recommendations, they should have the 
responsibility of reviewing results of short- and long-term monitoring 
and of preparing reports on whether the targets have been met.
    Question 8. Do you think the Eastside Scientific and Advisory 
Committee should have full sufficiency from all environmental laws to 
implement what they believe is needed if the conclude violation of one 
or more of those laws is needed to restore the health of the eastside 
forests?
    Answer. This is a complex political and legal question. I am 
neither a lawyer nor a policy specialist.
    Question 9. If this bill were to be passed today and consensus can 
only be found on half the projects, could you describe the forest 
conditions and the type of forest products industry that is likely to 
exist 40 years from now?
    Answer. On half of the projects that are not implement due to non-
consensus, stand conditions would be expected to worsen; that is, stand 
density and tree competition would increase and mortality would 
increase. These stands would remain susceptible to fire and bark 
beetles. We can use forest growth models to predict forest conditions 
40 years out, as I demonstrated in my testimony. We can also use the 
same models to show potential management options and their 
consequences, including no action.
    With respect to the second part of the question regarding what the 
forest products industry would look like, that depends on the amount 
and type of timber that comes off the other half of the projects that 
have consensus. If the timber volume and quality are less than what is 
currently being offered, then we would expect some further declines in 
milling infrastructure, which would reduce the ability of the National 
Forests to do ecological restoration treatments. A quantitative study 
to develop a milling infrastructure model could provide more detailed 
answers to this question.
                                 ______
                                 
       Responses of Andy Kerr to Questions From Senator Murkowski
    Question 1a. To all of the Panel 2 witnesses: You have all heard 
each other's testimony and that of the Administration. I have a 
question that I want each of you to answer: If there were one thing 
that you could change in this bill what would that be?
    Answer. As I said in my written statement:

          In sum, the proposed Oregon Eastside Forests Restoration, Old 
        Growth Protection and Jobs Act is not the bill I would have 
        written. It is the product of what Senator Wyden could convince 
        a critical mass of the conservation community and timber 
        industry to agree on. While not a perfect bill, it is 
        nonetheless a great bill.

    Since the legislation introduced by Senator Wyden and supported by 
Senator Merkley is the product of thoughtful and intense discussions 
between interests with an epic history of animosity, the product of 
compromise is quite delicate. If I, as a conservationist, were to want 
significant changes, so would my timber industry counterparts. While it 
is likely that some minor changes could occur to the bill and not 
jeopardize the unprecedented and path-breaking compromise that is S. 
2895, changes to the core of the bill that brings together 
conservationists and the timber industry would certainly destroy the 
coalition that has developed in support of this bill and therefore 
result in a failure to enact the legislation. Therefore, I can honestly 
say, I prefer that the Committee mark up the bill as introduced.
    However, since you asked, a provision for an automatic 
appropriation would be nice.
    Question 1b. The Hell's Canyon Preservation Council was supposed to 
testify here today but backed out and sent a fairly insightful letter 
to Senator Wyden commenting on his bill. In that letter they make a 
variety of points that I would like your insight on.
    Answer. I too found the comments of HCPC instructive and 
constructive.
    Question 1c. In that letter they said: ``The non-inclusive process 
by which the bill was developed was not an auspicious start. We find it 
highly ironic that a bill encouraging eastside local collaboration was 
developed without any eastside conservation groups.''
    Answer. I would think it is the prerogative of a United States 
Senator to use any kind of process they want to aid them in drafting 
legislation that they introduce. I will leave it to Senator Wyden to 
answer, if he so wishes, why he and his staff under his direction did 
what they did.
    An auspicious (``conducive to success'') start I think it was. 
Perhaps a better word in defining the start is that it was not 
congruous (``in agreement or harmony''). While the bill was initially 
developed came out of talks that included a subset of the conservation 
community and the timber industry, it is important to note now that the 
bill has been introduced it is subject to the long-established process 
of congressional consideration which includes hearings, comments, 
analyses, and lobbying.
    The zip code of where a conservation organization receives its mail 
is not dispositive to neither its credibility nor its commitment. To my 
knowledge there is only one ``eastside conservation group'' if defined 
by the zip code of their headquarters. There are several other 
conservation organizations that commit significant resources to 
Oregon's eastside forests, though their headquarters are on Oregon's 
westside, out of state or even in Washington, DC.
    Oregon Wild is headquartered in Portland, in the state's westside, 
but has a full-time staff person that lives in and works exclusively on 
Oregon's eastside forests. Defenders of Wildlife, based in Washington, 
DC, has a staff person that, while living on Oregon's westside, spends 
most of his time working on eastside. The Wilderness Society, based in 
Washington DC, has staff that commit significant resources to eastside 
forests though they live in Washington state. The Pacific Rivers 
Council, though based on Oregon's westside, also has a distinguished 
record of conservation on behalf of eastside forests and watersheds. 
Klamath-Siskiyou Wildlands Center, though based on the westside and 
primarily focused on westside forests and watersheds does do some of is 
work in Oregon's eastside. Finally, The Nature Conservancy, works both 
domestically and internationally--its Oregon Chapter, while 
headquartered in Portland, has 4 field offices in eastern Oregon with 
over a dozen employees, and dedicates significant resources to the 
restoration of eastside forests.
    Before coming to Senator Wyden with the news that critical masses 
of the conservation community and timber industry had reached a broad, 
very tentative and skeletal agreement in concept for the conservation 
and restoration of eastside forests and watersheds, John Shelk and I 
had convened a group of seven card-carrying conservationists and seven 
representatives of milling companies. John and I each chose six 
colleagues, wanting to keep the number of participants large enough to 
be representative of our respective interests, but small enough to have 
a workable group dynamic.
    Our choices were based on a multitude of factors and, at least in 
my case, far more than six of my colleagues could have fit the bill. 
John and I both chose six that I felt that--if an agreement could be 
reached--could deliver a critical mass of the conservation community or 
timber industry respectively.
    In choosing my team, I considered expertise, experience, 
credibility, diversity (biological and political), risk-taking ability, 
ability to play well with others, and clout. There are several 
conservation colleagues that were similarly qualified but not chosen.
    Question 1d. I also note that none of the counties have come out in 
support of the bill. But that none have come out against it either. My 
guess is they may not like it, but do not want to embarrass the 
sponsors by speaking out against it.
    Answer. Rather it might be the case that the elected county 
officials are responding to their divided political constituencies by 
not responding to their two Senators. Imagine county commissioners 
being told that the county's largest manufacturer supports the bill--
but so do most conservationists. Having battled so long the latter in 
concert with the former, it may take awhile for local elected officials 
to recalibrate. Given the game-changing nature of S.2895, it may be 
politically prudent for local elected officials to wait and see.
    Question 2. Should Congress accept this bill if none of the 
eastside environmental groups and none of the Country Commissioners 
were involved in its development or are willing to speak in support of 
it? Why?
    Answer. Congress has often designated Wilderness Areas and Wild and 
Scenic Rivers in eastern Oregon over the objection of local county 
commissions. Bitterly opposed by local interests, such protected areas 
designated in the 1980s on the eastside of Oregon now enjoy widespread 
local support.
    Congress should enact S.2895 because it would be good public policy 
for a portion of the National Forest System that is a public trust for 
the benefit of all Americans.
    Question 3. If this bill were to be passed today and consensus can 
only be found on half the projects, could you describe the forest 
conditions and the type of forest products industry that is likely to 
exist 40 years from now?
    Answer. Two decades from now I expect and desire to see millions of 
acres of eastside forests of Oregon on a trend of improving forest and 
watershed health with more jobs in the woods and in the mills than is 
now the case.
    Four decades from now is not something I can even imagine with any 
high likelihood. I began my conservation career about 35 years ago (by 
the way, an effort to prevent the roading and logging of an eastside 
roadless area [it's still roadless]). At that time I did not imagine, 
nor could I have imagined, today's forest conditions and what the wood 
products industry would be like today.
    I can only tell you my expectations and desires two decades from 
now, which are based on hope, evidence and commitment.
    I have hope that people change; if not the individuals themselves, 
then the successors.
    While most change comes at funerals or retirements, I offer as 
evidence the changes in my views and tactics, which I detailed in my 
written statement for the record. Permit me to, perhaps immodestly, 
quote from an editorial in the state's largest newspaper that ran a 
week after the hearing on S.2895: ``It was a remarkable sight, with 
Andy Kerr, once the most hated environmentalist in timber country, 
standing with John Shelk, the mill owner who fought the hardest to keep 
the industry alive east of the Cascades'' (The Oregonian, March 18, 
2010).
    There is even better evidence that people change and forests can be 
restored while mills can be kept running. The Lakeview Stewardship 
Group has been in operation for a decade, focusing on 500,000 acres of 
the Fremont National Forest. ``Consensus'' has been found on nearly all 
restoration projects. There have been a few administrative appeals that 
have been resolved without litigation. Each year, the number of treated 
acres each year has been generally increasing and is expected to 
continue to do so. Lakeview is a model for multi-stakeholder 
collaboratively based engagement that S.2895 seeks to emulate across 
Oregon's eastside.
    I project I have 20 years left in my conservation career. I am 
committed to seeing this legislation not only enacted into law, but 
also effectively implemented.
    I must also note that S.2895 is drafted in ways that strongly 
encourage collaboration, but do not require ``consensus'' of a 
recognized collaboration group for the Forest Service to act. Consensus 
groups would be advisory.
    Though advisory, as in the case of the Lakeview Stewardship Group, 
consensus groups are critical to conserving and restoring forests and 
watersheds and getting those ecologically problematic trees converted 
to economically profitable logs. Based on the Lakeview and other 
experience, I would project that most projects will go forward with the 
agreement of most parties most of the time.
                                 ______
                                 
     Responses of Larry Blasing to Questions From Senator Murkowski
    Question 1. If there were one thing that you could change in this 
bill what would that be?
    Answer. The most scary aspect of the Bill (there are several) is 
the codification of processes and management program details that 
should be nothing more than administrative decisions made on a site 
specific basis. Many of the concepts of the Bill are worthy objectives 
and in fact, should be a part of regular practice. However, 
codification of an advisory committee; collaborative groups; management 
concepts that are unproven, not universally accepted and maybe just the 
current management craze; specific road management requirements; trees 
to cut or not to cut; and more. It will tie land managers hands to the 
point where they cannot effectively manage the forest resources.
    Question 2. Mr. Blasing, am I correct that you are an elected 
member of the Grant County Public Forest Commission?
    Answer. The Grant County Public Forest Commission was established 
by an Initiative of the voters of Grant County. The Commission members, 
of which I am one, are elected to four year terms.
    Question 3. Were you or any of the other members of the Grant 
County Public Forest Commission invited to participate in the 
development of Senator Wyden's Bill?
    Answer. None of the members of the Grant County Public Forest 
Commission were invited to participate in the development of Senator 
Wyden's Bill. None of the members that I am aware even knew the Bill 
was being considered.
    Question 4. In your experience which takes longer, appeals or 
litigation?
    Answer. The Administrative Appeals process has a set schedule of 
times that have to be met, therefore, keeping the process moving. 
Litigation typically moves on the Courts schedule and often takes much 
longer.
    While Appeals are irritating and often delay programs where 
scheduling is critical to the success of a project, they generally do 
not stop the project. It is the subsequent threat of Litigation by the 
Environmental Litigation Industry's misuse of the Equal Access to 
Justice Act that stops the projects.
    The environmental litigation industry uses the threat of litigation 
to stop scientifically sound projects, even where there are no 
legitimate issues and only philosophical differences, just because they 
can. Under the Equal Access to Justice Act, the Forest Service gets to 
pay the legal bill, from appropriated funds whether or not the 
environmental litigation industry wins or loses. This causes a 
shortfall in funding for projects that are already approved. The Forest 
Service has to balance losing the funds or paying for a frivolous 
lawsuit against not completing a project that provides critical jobs 
for local economies. The decision becomes coerced capitulation on the 
part of the Forest Service.
    Question 5. In reading the HCPC letter to Senator Wyden do you 
detect a threat that they will litigate on the sales that they used to 
appeal? And if so, what do you think the chance of this bill 
successfully resulting in timber sales in the Eastside of Oregon over 
the next three years?
    Answer. My reading of the Hell's Canyon Preservation Council 
written testimony clearly tells me that they do not plan to stop the 
use of Appeals or Litigation if it suits their purpose. The details of 
their land management objectives tell me that there is little chance 
that land management programs where commercial timber is harvested will 
go unchallenged. The Forest Service will again have to look at coerced 
capitulation.
    Question 6. If this bill were to be passed today and consensus can 
only be found on half the projects, could you describe the forest 
conditions and the type of forest products industry that is likely to 
exist 40 years from now.
    Answer. At the present time we have the remnants of a diverse 
forest products industry that can provide the infrastructure to manage 
all of the forest types in eastern Oregon. This includes trees over 
21'' dbh--Incidentally, logs over 21'' dbh go by my house regularly to 
local mills. They are coming from Idaho where they have never heard of 
eastside screens -. If this Bill is passed as written, there will be no 
need to have a sawmill that is designed to manufacture large logs. 
Malheur Lumber is an example. In addition the high quality products 
that come from these larger trees provide the raw material that goes 
into cut-stock plants. Both of these types of plants are more labor 
intensive than the ones that use smaller logs. The products that come 
from smaller logs have lower product value and, therefore, the 
manufacture plants that use them must be more efficient and use less 
labor to be competitive. The result will be a smaller less flexible 
infrastructure.
    The forest products industry as a whole has been moving toward 
utilizing more biomass. The products are low value with large 
investment costs in manufacturing facilities. This means that profits 
are lower and much more subject to market fluctuations. In many cases 
the raw material must be subsidized in some fashion for the operation 
to be feasible.
    Even with the emphasis on science and forest restoration, the 
forest health and conditions after the Bill may be worse than before. 
Eastside forest health is deteriorating due to lack of management and 
in my estimation, climate cycle. The Bill will attempt to improve 
forest health in less than 21'' dbh trees (not stands) and that should 
be positive. These positive effects will be lessened when wildlife 
requirements, watershed requirements, diversity requirements, etc. are 
incorporated.
    As trees move into the 21''dbh plus category to live until they 
die, they will be the carriers of disease, insect infestation, and the 
lightning rods for catastrophic fire. Even with the emphasis on small 
timber restoration, we can expect the overall forest health conditions 
to deteriorate. We stand to lose many of the forest management gains 
that we have made in the past.
    If you have any additional questions we will be happy to respond.
                                 ______
                                 
    Responses of Harris Sherman to Questions From Senator Murkowski
    Question 1. As I recall the last time you testified before this 
Committee you came to deliver some fairly negative testimony on S. 1470 
Senator Tester's Forest Jobs and Recreation Act of 2009.
    Over the weekend I came across an article that said: ``The Obama 
administration could support the logging mandate in Montana, Sen. Jon 
Tester's wilderness bill as a `pilot project,' said U.S. Agriculture 
Secretary Tom Vilsack.''
    That same article reported that ``At the time, Agriculture 
Undersecretary Harris Sherman said the logging targets were 
`unworkable' for the agency and could set a precedent in which each 
national forest is managed differently by Congress.''
    Can you explain what a ``pilot project'' is and what changes from 
S. 1470 the Administration will make to that ``pilot project'' to make 
it acceptable to Secretary Vilsack?
    Answer. The Secretary's comments helped convey general support for 
the broad goals of S. 1470 because they align well with his vision for 
collaboratively restoring America's forests. There are increasing 
demands on the Forest Service to undertake forest restoration at a 
scale and in a manner that benefits forest health while protecting 
local jobs. S. 1470 potentially provides a mechanism that allows for 
such restoration with broad public support. As such, the Secretary 
expressed his willingness to test such approaches, particularly when 
they are developed collaboratively with diverse interests. There have 
been no decisions made regarding what the term pilot project means or 
how it could be implemented.
    Question 2. Now the Secretary has announced S. 1470 acceptable as a 
``pilot project'' is it your view that this can be implemented without 
legislation? Could this just be done by having the Secretary wave his 
administration wand to deem these other bills acceptable too?
    Answer. Many of the restoration aspects of S. 1470 could be 
completed administratively since this title contains very little new 
authority for the agency. However, as I testified in December, I am 
very concerned about placing priority use of existing resources on 
portions of these three national forests which would result in 
transferring much needed resources from other units of the National 
Forest System where priority work must also be accomplished.
    Title II requires congressional action for the land designations it 
contains.
    Question 3. Do you think the same changes to Senator Wyden's S. 
2895 converting it into a pilot project would make this bill we are 
hearing today acceptable to the Secretary?
    Answer. As I testified at the March 10th hearing, the 
administration is generally supportive of S. 2895, although we have 
several areas of concern we wish to discuss with Senator Wyden and the 
committee. We look forward to those discussions, and, if there is a 
need to test some of the provisions of S. 2895, we would be open to 
discussing how best to do that. S. 2895 was also developed through a 
collaborative process which brought diverse stakeholders together to 
address forest health issues and the needs of local communities.
    Question 4. If the Secretary can just turn the Tester logging 
mandates into a ``pilot project'' and find that an acceptable 
investment; can he do the same for S. 2895 or for S. 2798 Senator 
Udall's National Forest Insect and Disease Emergency Act of 2009?
    Answer. Each of the bills you mention must be reviewed carefully 
and thoughtfully. We have provided our testimony on both S. 2895 and S. 
2798 conveying our general support and indicating areas we wish to 
discuss further.
     Responses of Harris Sherman to Questions From Senator Barrasso
    Question 1. I noted that Secretary Vilsack made comments in Montana 
over the weekend in support of logging mandates related to Senator 
Tester Montana Wilderness bill, S. 1470. As you know, Senator Tester 
has proposed legislation that includes a provision similar to Chairman 
Wyden's bill, S. 2895, that we discussed at Wednesday's hearing. Both 
bills require certain parameters of timber harvest to benefit local 
communities.
    Secretary Vilsack was discussing Senator Tester's bill when he made 
those comments. However, you testified on Senator Tester's bill that 
it: ``could set a precedent in which each national forest is managed 
differently by Congress.''
    Could you explain whether USDA has changed is mind about mandated 
timber sales?
    Answer. The administration has not changed its position on S. 1470, 
and I still believe that mandated levels of mechanical treatment may 
create unrealistic expectations on the part of communities and forest 
products stakeholders that the agency would accomplish the quantity of 
mechanical treatments required.
    The Secretary did not endorse ``logging mandates'' while in 
Montana, his comments conveyed his willingness to try new approaches to 
achieve his vision of restoring America's forests. The Secretary's 
comments included statements that expressed that passing legislation 
for 155 national forests and grasslands would be in appropriate.
    Question 2. Will you support a mandate for timber sales in Wyoming 
National Forests?
    Answer. Each piece of legislation must be individually evaluated 
for its content, purpose and potential outcomes. The Secretary's 
comments in Montana, and my testimony in December, both include 
statements that convey the administration's concern about the precedent 
of site specific legislation because it may lead to each forest 
operating under different authorities which would add further 
complexity to the management of our forests. Senator Tester's 
legislation draws upon years of effort by diverse local stakeholders to 
advance forest restoration, protect wilderness areas, and provide a 
sustainable supply of timber to forest products companies. We would 
welcome the same type of collaborative process in Wyoming, or anywhere 
else, particularly when such efforts promote forest restoration for the 
benefit of water resources, the climate and local communities.
    [Responses to the following questions were not received at 
the time the hearing went to press:]

          Questions for Edwin Roberson From Senator Murkowski
    We are told that the Forest Service has enjoyed a timber sale 
contract provision called Market Related Contract term addition since 
the early 1990's. And that provision was developed as a result of past 
lumber market slumps in the early 1980's and again in the late 1990's.
    Question 1. Why did the Bureau of Land Management never put such a 
provision in its timber sale contract or ask Congress for that type of 
contract relief before?
    Question 2. If this bill were to be signed into law next week, how 
long would it take before the holders of BLM timber sales that 
qualified to get their contract extensions?
    Question 3. In relative number or on a percentage basis, what 
percent of the timber sale volume under contract is located in the 
State of Oregon compared to the rest of the states?
    Question 4. Is this not just a bail out for the timber industry in 
Oregon?
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                   Statement of Opposition to S. 2895
    We the undersigned strongly oppose Senate Bill S. 2895, introduced 
by Senator Ron Wyden (D-OR), the name of which--the Oregon Eastside 
Forests Restoration, Old Growth Protection, and Jobs Act of 2009--
belies its true effects. S. 2895 represents a concerted effort on the 
part of the timber industry and its political allies, with support from 
some not-for-profit organizations, to cripple essential environmental 
laws in order to increase logging across 8 million acres of publicly-
owned forests--forests which have already been severely degraded by 
logging. This bill is the latest in a series of bills that increase 
logging on our national forests, weaken legal protections, and consign 
the trees from our national forests to be burned in wood energy plants 
all across our nation.
    We oppose this and all other legislation that will increase logging 
on our public forests, whether federal, state, or local, especially 
when the ``product'' will be utilized as fuel for biomass-to-
electricity plants or biofuel plants creating cellulosic ethanol. S. 
2895 is unacceptable and cannot be fixed or improved by amendments, and 
we urge you to vote against it.
    S. 2895 claims it will protect, restore and increase the old growth 
forest stands and trees, but offers heavy logging of these forests as 
the supposed magic elixir that will ``restore'' them. Logging is what 
caused the tragic degradation of these great eastside forests in the 
first place.
    The only proven method of growing--or regrowing--natural old growth 
forest ecosystems is for natural processes--nature, not humans with 
chainsaws--to manage the forest--a process that takes centuries. The 
remaining primary old-growth forests on Earth are living proof of 
nature's ability to grow forests hundreds or thousands of years old.
    However, there is not a single example anywhere on Earth of a 
natural centuries-old forest ``grown'' by humans using chainsaws. 
Therefore, there are no scientific studies of these non-existent old-
growth forests ``restored'' by chainsaws. This legislation's assertion 
that using heavy logging will ``restore'' old-growth forests is without 
scientific foundation.
    S. 2895 claims that the increased logging mandated by this bill 
will somehow mitigate the effects of climate change. Recent scientific 
studies (Public land, timber harvests, and climate mitigation: 
Quantifying carbon sequestration potential on U.S. public timberlands, 
Depro, B.M., et al, Forest Ecology and Management, 2007; Forest carbon 
storage in the northeastern United States: Net effects of harvesting 
frequency, post-harvest retention, and wood products, Nunery, J.S., 
Keeton, W.S., Forest Ecology and Management, 2010) have shown 
conclusively that forests which grow without logging grow more biomass, 
and subsequently sequester more carbon, than forests that are logged, 
and that it takes a newly-planted forest from 50 - 100 years to attain 
the level of carbon sequestration the logged forest was providing when 
growing. Further, another study (Peters, W. et al., An atmospheric 
perspective on North American carbon dioxide exchange: Carbon Tracker. 
PNAS, 2007) concluded that North American ecosystems, mostly forests, 
remove 0.65 Pg C/year, offsetting one-third of the country's estimated 
1.85 Pg carbon emissions. Compromising the capacity of forests is 
therefore equivalent to increasing emissions. Therefore, the increased 
logging mandated by this bill will not only increase forest 
destruction, it will decrease the amount of carbon stored by these 
forests, diminishing the ability of our public forests to combat global 
climate change.
    However, this legislation goes even farther in contributing to 
global climate change. It instructs the Forest Service to take the wood 
logged from these forests and burn it in wood-energy plants. Nothing 
could possibly contribute more to global climate change than increasing 
logging on our national forests and then burning the wood in biomass 
plants. According to a recent study (Matera, Chris, Wood-Fueled Biomass 
Power Plants and CO<INF>2</INF> Emissions, http://www.maforests.org/
MFWCarb.pdf February 2010) wood-burning energy plants contribute 
greatly to global climate change. Using data from a permit application 
in Massachusetts and from the Department of Energy, the study 
concludes, ``Overall, wood fueled biomass power plants emit about 50% 
more CO<INF>2</INF> per MWh than existing coal plants, 150% more than 
existing natural gas plants, and 330% more than new power plants.''
    But there are also tremendous amounts of carbon released by the use 
of petroleum when logging and chipping the forests and the burning of 
gasoline used by the trucks that will make thousands of trips totaling 
thousands of miles transporting the cut wood fiber to the biomass/
biofuel plants. Burning trees from our national forests in biomass 
plants is a net carbon-loss disaster for global climate change. A 
recent article (Searchinger, et al., Fixing A Critical Climate 
Accounting Error, Science, 2009) reveals that emissions from biomass 
burning are entirely uncounted, either under land use change or under 
smoke stack emissions from utilities. This failure in accounting has 
resulted in the claim that biomass burning is ``carbon neutral'' and 
led to a flow of public-funded subsidies into these biomass burning 
facilities. This accounting error must be fixed. Doing so will reveal 
that logging and burning of forest biomass is not a viable solution to 
climate change. The claim by this legislation that burning wood in 
biomass plants will reduce global climate change is no more than a 
disproven, unscientific fabrication.
    S. 2895 goes so far as to suspend all applicable laws in favor of 
biomass removal. In Section 12 of the bill titled, BIOMASS, the 
specific language reads:

          (a) IN GENERAL.--Notwithstanding any other provision of law 
        (including regulations) relating to the use of biomass energy, 
        in accordance with each purpose and goal of this Act, and any 
        applicable recommendation of the advisory panel, the Secretary 
        shall take such actions as are necessary to further enhance the 
        use of woody biomass in the covered area.

    The area covered by this legislation is more than 8 million acres 
of public forestlands across Eastern Oregon.
    S. 2895 also tilts towards commercial interests, stating;

          On a determination by the Secretary that forest conditions, 
        commercial interests, and an adequate supply from a combination 
        of Federal and non-Federal sources indicate a viable economic 
        supply and demand for establishing a regional biomass project, 
        the Secretary may designate an area within the covered area in 
        which--

                  (A) the removal of biomass is necessary to restore 
                forest health; and
                  (B) a sufficient volume of material is expected to be 
                available to support a 20 year-lifespan of capital 
                investments for biomass use.

    S. 2895 is honest in at least one respect, when it admits its 
purpose is to supply the wood industry with a guaranteed supply of wood 
from our federal forestlands. S. 2895 guarantees a minimum of 20 years 
of vastly increased logging to supply these newly constructed wood 
energy plants. This mandated amount of logging will devastate the very 
forest ecosystems that S. 2895 claims to be restoring. Biomass burning 
utilities require about 13,000 tons per megawatt per year, and 
transportation logistics require sourcing feedstocks from a limited 
distance (generally around 50 mile radius). Providing and maintaining 
sufficient feedstocks to biomass burning facilities is unlikely to be 
harmonious with the goal of forest protection and ``restoration.''
    The stripping of our forests for biomass means that woody debris 
that previously had been left for mulch in the forests and which 
enriched the forest soil and provided essential habitat for 
biodiversity will now be taken away from the forests and burned. If 
this legislation and other bills like it proceed, our national forest 
soils will be stripped of nutrients and our forests will die of 
starvation.
    S. 2895 clearly cripples environmental laws which have given our 
forests some level of protection, not only by unconscionable suspension 
of the laws, but also by rushing the normal environmental enforcement 
procedures. S. 2895 would effectively circumvent NEPA by having pre-
made decisions come out of advisory committees, even though NEPA will 
ostensibly be followed. NEPA requires an objective analysis of 
alternatives before decisions are made. Under this process, in effect, 
the decision is made before the analysis, making NEPA a pro-forma 
exercise. The process is further tilted toward increased logging of 
these forests by the use of advisory groups made up primarily of paid 
employees of the timber industry and others who are forced to either 
agree with this increased logging program or be denied from 
participation. This disenfranchises the American people of our and our 
children's heritage, the national forests of Oregon--it is no less than 
grand theft and destruction of federal property. This bill is the 
equivalent of allowing a small number of people from New Jersey, 
subsidized by federal tax dollars, to dismantle the Statue of Liberty 
and sell it for scrap metal while claiming it is good for the economy.
    S. 2895 claims that one of its goals is to protect large trees, 
trees larger than 21 inch diameter, and it even lists exceptions for 
protecting trees smaller than 21 inch diameter. However, S. 2895 gives 
all final authority, stripped of any legal check and balance, to the 
Secretary of Agriculture to determine what trees can logged, rendering 
the supposed protections of trees of any size, including any and all 
large trees, completely meaningless. This legislation is a green light 
to demolish our public forests, even allowing logging of the giant old 
trees the bill is allegedly supposed to protect.
    Roads are one of the greatest causes of forest degradation. S. 2895 
will allow an unlimited number of new roads, including permanent roads, 
to be constructed.
    A new scientific report (Bond, Monica L., et al., Influence of Pre-
Fire Tree Mortality on Fire Severity in Conifer Forests of the San 
Bernardino Mountains, California, The Open Forest Science Journal, 
2009) suggests that bark beetle outbreaks will not lead to greater fire 
risk, and that tree thinning and logging is not likely to alleviate 
future large-scale epidemics of bark beetle. The report's findings 
apply to millions of acres of lodgepole pine and spruce-fir forests 
across North America. This report completely contradicts the goals and 
unscientific claims of this bill that increased logging will reduce 
these naturally occurring events.
    ``Drought and high temperature are likely the overriding factors 
behind the current bark beetle epidemic in the western United States,'' 
said Scott Hoffman Black, executive director of the Xerces Society for 
Invertebrate Conservation. ``Because logging and thinning cannot 
effectively alleviate the overriding effects of climate, it will do 
little or nothing to control these outbreaks.'' (Black, S. H., et al., 
Insects and Roadless Forests: A Scientific Review of Causes, 
Consequences and Management Alternatives, National Center for 
Conservation Science & Policy, Ashland OR, 2010).
    S. 2895 will lead to hundreds of millions of dollars of additional 
subsidies to log our national forests at a time when Americans are 
saddled with a soaring national debt.
    Since the rise of large scale civilizations around 8,000 years, 
over 80% of the Earth's forests have been either completely wiped out 
or severely degraded by humans. Logging by humans is the greatest 
threat to the survival of the remaining natural forests on Earth, yet 
this legislation will increase logging. All the verbiage in S. 2895 
about so-called ecological forest restoration, watershed health, 
conservation, ecosystem function, carbon cycling, and scientific 
advisory panels are thin cover for a timber industry logging bill.
    S. 2895 was written without public participation, contrary to the 
claims of some of the bill's supporters. It is undemocratic in 
conception and would also be so in implementation. Senate Bill 2895 is 
an environmental disaster-in-the making for our national forests and an 
economic disaster for the American people and will contribute greatly 
to lost biodiversity and increased atmospheric carbon dioxide levels. 
We urge you to completely oppose it.
            Signed,
                    Michael Donnelly, Friends of the Breitenbush 
                            Cascades, OR; Tim Hermach, Native Forest 
                            Council, OR; Tom Giesen, MS, Citizens for 
                            Public Resources, OR; Samantha Chirillo, 
                            M.S., M.P.A. Cascadia's Ecosystem 
                            Advocates, OR; Shannon Wilson, League of 
                            Wilderness Defenders, OR; Carl Ross, Save 
                            America's Forests, Washington, DC; Rachel 
                            Smolker, Biofuelwatch, VT; Michael Garrity, 
                            Alliance for the Wild Rockies, MT; Ara 
                            Marderosian, Sequoia ForestKeeper, CA; 
                            Scott Mathes, California Environmental 
                            Project, CA; Ernie Reed, Heartwood, TN; 
                            Gary Macfarlane, Friends of the Clearwater, 
                            ID; Sherman Bamford, Virginia Forest Watch, 
                            VA; Jonathan Carter, Forest Ecology 
                            Network, ME; George Wuerthner, RESTORE: The 
                            North Woods, ME; Jana Chicoine, Concerned 
                            Citizens of Russell, MA; Chris Matera, 
                            Massachusetts Forest Watch, MA; Margaret E. 
                            Sheehan, The Biomass Accountability 
                            Project, Inc., Massachusetts.
                                 ______
                                 
  Statement of Robert Freimark, Senior Policy Analyst, The Wilderness 
                          Society, on S. 2895
    The Wilderness Society is a national, non-profit conservation group 
with about 500,000 members and supporters. The mission of The 
Wilderness Society is to protect wilderness and inspire Americans to 
care for our wild lands. S. 2895 applies to six national forests in 
eastern Oregon, totaling nearly 10 million acres. Lands covered by the 
Northwest Forest Plan (parts of the Deschutes and Winema National 
Forests) are not affected by the legislation.
    Since its establishment in 1935, The Wilderness Society has 
advocated for the protection and wise stewardship for these National 
Forests (Umatilla, Malheur, Wallowa-Whitman, Deschutes, Ochoco, and 
Fremont-Winema). We have been involved in all stages of land and 
resource management planning for these forests since the implementation 
of the National Forest Management Act of 1976, and have advocated for 
Wilderness and Wild and Scenic River protection, roadless area 
conservation, and other protective designations for those lands with 
high conservation values.
    We are pleased that Senator Wyden has a strong interest in the 
protection and stewardship of these lands belonging to all Americans, 
and which contain incredible resources including old growth forests. We 
respect the collaboration efforts that made this legislation possible. 
Collaboration is not easy especially among interests who traditionally 
had opposing viewpoints. Because the values and resources of these 
National Forests are so substantial and do belong to all the American 
people, we are concerned that others who have a stake in these National 
Forests were not adequately involved in the discussions. When key 
public processes impacting public involvement on these National Forests 
may be altered because of this legislation, it is very important to 
allow a robust public discussion about the merits of such a proposal. 
We commend Senator Wyden for holding a Congressional hearing and 
encourage other hearings and forums where the merits of this 
legislation can be discussed.
    In the spirit of constructive collaboration, we are submitting the 
comments below to demonstrate our support for key provisions, and in 
hopes of the legislation getting modified to address concerns we have 
identified.
                     forest and stream protections
    We support the old growth protection provision in the legislation. 
The bill prohibits the cutting of live trees over 21 inches in diameter 
(which is comparable to the administrative protection of live old 
growth trees), currently provided by the ``Eastside Screens.'' However, 
neither the bill nor the Eastside Screens (the current administrative 
requirement) directly addresses the controversial issue of salvage 
logging of large dead trees. Since fire is such a common ecological 
force in the geography covered by this legislation and there is usually 
considerable pressure to have a timber sale after a fire, we recommend 
that timber salvage sales and other post fire projects be covered by 
this legislation.
    We also support the watershed protection provision of the bill 
which requires the Forest Service to comply with the PACFISH and INFISH 
administrative requirements for riparian area protection (Sec. 
5(b)(1)). These protections are already administratively in operation, 
but legislation would ensure the protections will not be weakened and/
or eliminated with future Administrations.
    We support the bill's general prohibition on the construction of 
permanent roads (Sec. 6(a)) and several limitations on construction of 
temporary roads, such as requiring prompt decommissioning after a 
project is completed (Sec. 6(b)). In addition, we support the bill's 
requiring the Forest Service to reduce the density of permanent roads 
when it designs Ecological Restoration Projects (ERPs, Sec. 6(c)). 
However, we believe the bill could be made stronger by defining the 
term ``decommissioning'' in the legislation and by requiring a 3 year 
deadline in which temporary roads are decommissioned.
                     management goals and purposes
    We support the four management goals stated in the legislation: to 
conserve and restore forests and watersheds; reduce the risk of 
uncharacteristic natural disturbances; allow for characteristic 
disturbances; and increase resistance and resiliency to 
uncharacteristic events. Essential to these goals is restoring fire as 
a natural disturbance to low and moderate fire regimes. We believe the 
purposes of the legislation should be more aligned with these goals. 
For example, an increase of quantity and predictability of timber is 
likely from successful achievement of the four management goals, but 
should not be a key purpose of the legislation. One suggestion is to 
include a ``findings'' section of the legislation, and to edit the many 
purposes to fit into that section. We are concerned that one purpose 
(number 11) concludes an ``emergency'' status for threats to forest 
health, watershed health, and rural economies. A Congressional 
emergency determination is serious, and we do not believe the 
legislation provides enough information to understand why such a 
determination is warranted in all three categories listed: ``forest 
health, watershed health, and rural economies.'' Again, we believe a 
findings section might provide an opportunity to articulate the threats 
to eastern Oregon economies and environment.
                       interim treatment targets
    Until the Forest Service initiates mechanical treatments under an 
ERP within each Eastside national forest, the bill requires the Forest 
Service, ``to the maximum extent practicable,'' to plan and implement 
specified acreages of interim projects or other projects during each of 
the three years after the bill is enacted (Sec. 9(c)(5)). The projects 
must be predominantly comprised of mechanical treatments and emphasize 
sawtimber as a byproduct (Sec. 9(c)(5)(i) and (ii)). The minimum 
project acreage targets are 80,000 acres in the first year, 100,000 
acres in the second year, and 120,000 acres in the third year (Sec. 
9(c)(5)(i)). The acreage of interim projects must be evenly distributed 
across the roaded, at-risk forest lands within the Eastside national 
forests (Sec. 9(c)(5)(C)).
    We have concerns with the language in Section 9(c) ``Location of 
Treated Acres,'' which states, ``to the maximum extent practicable, the 
Secretary shall. . .'' The direction provided by this language for the 
Secretary is direct and makes clear that treating the acreage targets 
defined in the legislation is a priority over other considerations. Our 
concern is that there may be other considerations in managing these 
lands that will not be adequately addressed because of the pressure of 
this legislative language. We support the bill's intent to increase a 
predictable supply of timber to mills to keep the timber manufacturing 
infrastructure intact, but we believe this provision could be 
misinterpreted by the agency and result in trading off environmental 
protections for making sure mechanical treatments are expedited.
                restoration assessment and 10 year plan
    We support the bill's requirement for the Forest Service to prepare 
an Eastside Landscape Forest Restoration Assessment within two years 
(Sec. 8(a)). The assessment would include identification of proposed 
ERP areas, along with evaluation of the existing road system and local 
infrastructure and workforce needs (Sec. 8(b)). It would also contain a 
10-year restoration plan comprised of activities aimed at restoring 
forest and watershed health (Sec. 8(c)). The public would have an 
opportunity to comment on the assessment (Sec. 8(d)). The Forest 
Service would have to incorporate the findings of the assessment into 
its forest plans (Sec. 8(e)). We recommend that the legislation should 
clarify the relationship between the Section 8 assessment and the 
collaborative strategies and proposals that may be developed pursuant 
to the Collaborative Forest Landscape Restoration Program established 
by Congress last year in the Forest Landscape Restoration Act (FLRA). 
For example, the Long-Range Strategy for the Lakeview Federal 
Stewardship Unit in the Fremont-Winema National Forest, which The 
Wilderness Society has helped to create and update for the FLRA, 
contains elements that are similar to those in the Section 8 
assessment. The bill should not complicate efforts by collaborative 
groups and the Forest Service to comply with the FLRA by imposing 
redundant or conflicting requirements.
                    ecological restoration projects
    We support the legislation directing the Forest Service to prepare 
landscape-scale ERPs in consultation with local collaborative groups 
and specifying several factors the agency must consider in prioritizing 
ERPs (Sec. 9(a)). The bill requires the Forest Service to plan one or 
more ERPs covering a gross planning area of at least 25,000 acres in 
each of the six Eastside national forests per year, starting within 
three years (Sec. 9(b)(1)). The bill states that each ERP ``shall 
provide a quantity of timber based on the need to maintain a 
sustainable industrial capacity to perform the ecological restoration 
activities under this Act'' (Sec. 9(b)(2)). However we believe the 
``shall'' should be changed to ``should,'' since we believe that timber 
production in this instance should be a by-product of restoration 
projects, and not a rationale for developing the projects. Indeed, the 
inclusion of similar mandatory language in the Tongass Timber Reform 
Act--requiring the Forest Service to ``meet market demand for 
timber''--has provided the basis for litigation and injunctive relief 
that has resulted in less timber being sold on the Tongass National 
Forest.
           interim projects-administrative appeals exemption
    The bill provides direction to the Forest Service for ``interim 
projects'' until the Forest Service begins mechanical treatments under 
an ERP in an Eastside National Forest. The interim projects, which 
include ``all vegetation management contracts (including commercial 
timber sales and stewardship contracts),'' must comply with the bill's 
provisions on old-growth logging, riparian area management, and 
permanent and temporary roads, as well as with the recommendations of 
the science advisory panel (Sec. 9(c)(1)). The bill exempts interim 
projects from administrative appeals (Sec. 9(c)(2)).
    We oppose the administrative appeal exemption. We believe 
administrative appeals provide the public with a non-polarizing 
mechanism for addressing their grievances with the federal government. 
Without an administrative appeals option, the public will quickly need 
to consider formal litigation if the public believes their concerns are 
not being adequately heard and addressed. Once litigation commences, it 
is likely that conversations and dialogue by stakeholders will end, and 
the natural resource decisions will end up in the court room. Such a 
result is contrary to the intent of the collaboration desired by this 
legislation. In addition, we believe that, from a national perspective, 
including this provision will set a negative precedent whereby public 
involvement processes, such as administrative appeals, are offered as 
trading stock in return for environmental protection considerations. We 
believe the appropriate forum for determining National Forest System 
public involvement processes, including grievance procedures, is 
through the nationwide federal agency rule making process, rather than 
regional or forest-specific legislation.
                         experimental projects
    We support the bill requiring the Forest Service to test ways of 
identifying and protecting old-growth trees based on their age (>150 
years) instead of diameter (>21 inches) (Sec. 9(d)(1)). We understand 
the prohibition on cutting trees greater than 21 inches in diameter 
would not apply to experimental projects (Sec. 9(d)(2)).
                  nepa analysis and objection process
    The bill requires the Forest Service to prepare no more than one 
environmental impact statement on each ERP (Sec. 11(b)(2)). At the end 
of the NEPA process, the Forest Service would issue a ``proposed 
decision'' (Sec. 11(c)(5)). For the next 30 days, persons who submitted 
comments on the ERP would be able to file an administrative 
``objection'' to the proposed decision (Sec. 11(d)(1) and (2)). If the 
objector and the Forest Service agree to have an objection resolution 
meeting, members of the local collaborative group would be able to 
attend (Sec. 11(d)(3)). The Forest Service would have to respond to any 
objections within 30 days after the end of the 30-day objection period 
(Sec. 11(d)(4)). Until then, the Forest Service would not be able to 
implement the ERP (Sec. 11(d)(5)(B)(i)).
    The bill's objection process is similar to the one used for 
projects authorized by the Healthy Forest Restoration Act. We question 
whether HFRA objection process has any advantage over the standard 
administrative appeals process. In fact, a recent study by the 
Government Accountability Office found that hazardous fuels projects 
have been challenged twice as often by HFRA objections as by normal 
administrative appeals, which suggests that the HFRA objection process 
may be causing more controversy. We believe that further analysis of 
the GAO study and its underlying data is warranted before Congress 
attempts to expand the usage of the HFRA objection process.
                            judicial review
    The bill ``encourages'' the court reviewing a lawsuit challenging 
an ERP to expedite the proceeding ``to the maximum extent practicable'' 
(Sec. 11(e)(1)). The court would be required to consider the short- and 
long-term impacts of undertaking and not undertaking the ERP (Sec. 
11(e)(2)). Any person who commented on either an ERP or an interim 
project would be allowed to intervene in any lawsuit challenging those 
projects (Sec. 11(g)). We do not think it is necessary or appropriate 
for Congress to tamper with the separation of powers between the 
legislative and judicial branches of government in this way. The 
federal courts should be allowed to prioritize its case load and weigh 
the equities of each side in accordance with the courts' best judgment 
and normal judicial standards.
                                biomass
    The bill requires the Forest Service to ``take such actions as are 
necessary to further enhance the use of woody biomass'' in the Eastside 
national forests (Sec. 12(a)). The Forest Service would be required to 
estimate the volume of biomass--consisting of slash, brush, and trees 
that are too small for sawtimber--that could be supplied sustainably 
over a 20-year period (Sec. 12(b)(2)). The bill authorizes the agency 
to enter into biomass supply contracts for a term of up to 20 years, 
with an option of adjusting the contracts after 10 years (Sec. 
12(b)(4)).
    For the most part, we support this provision of the legislation. 
The Wilderness Society sees biomass as a potential resource that these 
Eastside National Forests have capacity to produce sustainably for at 
least the next few decades. However, we want to be assured that the 
biomass studies and evaluations will be produced realizing an honest 
appraisal of supply. Otherwise our National Forests could become 
biomass fiber farms instead of providing a balance of multiple uses to 
the American people. Overall, we believe that biomass should be a tool 
and not a master of forest management. Not every acre of National 
Forest is appropriate for providing supplies for biomass. There are 
locations in these National Forests where there is general agreement 
that materials for biomass supply are appropriate. In other areas there 
may be disagreement and/or uncertainty. Any evaluations should insure 
scientific and public disagreements and uncertainty are included in its 
study of biomass supply potential on these public lands. However, we 
are concerned about the long-term (20 year) contracts authorized in the 
legislation. We understand the importance of these long-term contracts 
to investors considering biomass plants, but we believe any contract 
agreed to should have provisions which enable the federal government to 
terminate, as well as effectively modify, the contract based on new 
scientific information that significantly alters the government's 
understanding of the environmental, economic, or social impacts of the 
contract.
               stewardship contracts and county payments
    The bill requires the Forest Service, ``to the maximum extent 
practicable,'' to use 20-year stewardship contracts to carry out 
restoration projects, with an option to adjust the contract after the 
first 10 years (Sec. 13(a) and (b)). Local businesses located within 
100 miles of the project's National Forest would receive preference in 
contractor selection (Sec. 13(d)).
    The Wilderness Society supports stewardship contracting for bona 
fide restoration projects in our National Forests and supports this 
provision of the legislation with a modification in the length of 
contracting time. We believe 10 years, not 20 years, should be the 
maximum time frame for long-term stewardship contracts, since there 
should be an opportunity for the agency to change contract terms and 
for other contractors to compete at least once a decade. We also 
recognize the strong dependency of Oregon counties on revenues from the 
federal government whether through the existing Secure Rural Schools 
program, or through the 25% federal logging receipts sharing that would 
presumably be re-established in the event that the Secure Rural Schools 
program is not reauthorized or replaced with a similar program during 
the next two and a half years. Congress needs to determine a mechanism 
for providing additional revenue to counties with large acreages of 
federal lands in their borders. Our concern is that stewardship 
contracting would not provide funds for the counties under a re-
established 25% revenue-sharing system, and would result in counties 
not supporting needed and beneficial stewardship projects for fears of 
receiving less federal funds.
                  appropriations and retained receipts
    The bill authorizes appropriations of $50 million, of which no more 
than three percent could be used to pay for Forest Service overhead 
(Sec. 15(a) and (b)). Any sale receipts generated from projects 
authorized by the legislation would be retained and used by the Forest 
Service for project planning and implementation (Sec. 15(c)(1)). The 
Wilderness Society's concerns for county revenues extends to these 
provisions of the legislation as well (see prior discussion).
                               conclusion
    S. 2895 is a complex bill that would fundamentally change the 
management goals and procedures of national forests in Eastern Oregon. 
The Wilderness Society supports key provisions of this legislation, 
especially the protections for old growth forests and the riparian 
areas within the geographic region. We believe the emphasis of the 
legislation on landscape forest restoration assessments and projects 
will have the additional benefit of providing the timber industry with 
an increase and predictability of timber supply.
    We have concerns with the modification of the public involvement 
mechanisms, including the elimination of the administrative appeals 
process. We believe that such elimination is not appropriate and could 
result in a negative national precedent. We believe there should be 
broader stakeholder discussion regarding this provision. We believe 
that not dealing with fires and resultant timber salvage sales is a 
major omission of the legislation which will likely put stresses on the 
collaboration the legislation is hoping to foster and encourage. 
Finally, we have concerns that county governments may be put in a 
position of not supporting the stewardship and restoration projects 
encouraged by this legislation because of the potential reductions on 
county revenues that may result.
    We commend Senator Wyden, his staff, and the stakeholders who 
participated in developing S. 2895. The collaboration that resulted in 
the introduced legislation is impressive. The Wilderness Society 
believes there is merit in many of its provisions, and we would like to 
offer our experience and expertise to improve the legislation as it 
moves forward.
                                 ______
                                 

                                     Sustainable Northwest,
                                      Portland, OR, March 12, 2010.
Hon. Ron Wyden,
U.S. Senate, 223 Dirksen Senate Office Building, Washington, DC.
    Dear Senator Wyden, Sustainable Northwest appreciates the 
opportunity to comment on the Oregon Eastside Forests Restoration, Old 
Growth Protection, and Jobs Act of 2009 (S.2895). Recognizing the need 
for landscape-scale restoration throughout the forests of eastern 
Oregon is commendable. These forests and the communities that depend 
upon them are currently facing increasingly significant threats, such 
as, but not limited to, uncharacteristic wildfire, decline in economic 
viability, lack of trust, poverty, and unemployment. We applaud the 
effort made by the negotiators to craft a solution that addresses these 
issues from opposing perspectives and interests. Sustainable Northwest 
encourages thoughtful and open discussion by diverse stakeholders 
working together to solve a common problem or achieve a common 
objective.\1\
---------------------------------------------------------------------------
    \1\ Refer to the Rural Voices for Conservation Coalition's issue 
paper on Collaboration here: http://www.sustainablenorthwest.org/
resources/rvcc-issue-papers/Collaboration%202007.pdf
---------------------------------------------------------------------------
    Our comments focus on the bill's management goals, composition of 
the technical advisory panel, recognition of collaboration, biomass 
considerations, and contracting structure. We also recommend the 
creation of a Collaboration Support Grant Program to be funded with a 
small portion of the appropriation allocated for the implementation of 
this Act. Section specific opinions and recommendations are offered in 
an attempt to recognize and improve upon critical components and aims 
of the bill.
    Sustainable Northwest is a regional nonprofit organization based 
out of Portland, Oregon established in 1994 to bring people, ideas, and 
innovation together so that the environment, local economies, and 
communities can flourish. We work with communities, businesses, local 
elected officials, tribes, agencies, and other interest groups in 
Oregon, California, Washington, Idaho, Montana, and others across the 
West and the nation. Our efforts seek to create the conditions that 
enable communities to thrive in harmony with the landscape, and 
contribute to and participate in resilient and sustainable local 
economies that provide quality jobs that benefit human and natural 
communities. Sustainable Northwest distinguishes itself in the natural 
resource conservation sector through an ability to bring together 
multiple, often opposing sides of an issue, and to craft and promote 
solutions through a collaborative process.
    Sustainable Northwest has worked in eastern Oregon since we were 
founded in 1994. We helped to create Wallowa Resources, in Enterprise, 
Oregon; Lake County Resources Initiative and the Lakeview Stewardship 
Group in Lakeview, Oregon; have been involved in the development of the 
Blue Mountains Forest Partners in John Day, Oregon; and have partnered 
and supported other eastern Oregon nonprofit organizations and 
collaborative groups such as Central Oregon Intergovernmental Council, 
the Harney County Restoration Collaborative, and several other 
collaborative groups in that part of the state. We are intimately aware 
of the acrimony and degraded forest health conditions that have 
characterized this region for decades. We recently raised over $2.5 
million dollars from private foundations, USDA Rural Development, and 
individual investors to support community capacity building, forest 
stewardship for multiple value streams, and integrated biomass 
utilization across a twelve county area of eastern Oregon and the three 
most northern counties of California. We know that any solution to the 
environmental, social, and economic problems of this region will have 
to be integrated in nature and create systemic change in order to be 
lasting.
    We are deeply committed to working with the rural communities of 
eastern Oregon to solve the ecological and economic problems facing the 
region. However, we are also cognizant of the fact that the challenges 
facing the forests and communities of eastern Oregon are not theirs 
alone: the fire adapted ecosystems of the interior West are all 
suffering from past management, insufficient reinvestment, lack of 
social agreement on forest management, and loss of local capacity to 
perform land management, as well as the processing infrastructure to 
utilize the material. We are concerned about the trend of state 
specific legislation, but understand that the frustrations with 
transforming the broader systems that have created these conditions are 
too large and complex to change within the context of political 
viability and social agreement. Nonetheless, we think it is unfortunate 
that our community partners in similar dry ecosystems in other parts of 
the West, or those in the wet, coastal systems on the west side of the 
Cascades will not benefi t from the increased fi nancial investment 
associated with this Act. Sustainable Northwest believes that at some 
point, as a nation, we will have to commit to reinvesting in all of the 
landscapes and rural communities that sustain the American West.
    Furthermore, the short title of this bill states that the bill is a 
``Jobs Act.'' We believe that creating healthy, resilient communities 
requires the establishment of systems that will shape a strong economy, 
which in a public land setting necessitates looking at the procurement 
systems that determine who benefits and has access to the work on 
public lands. We have offered comments below, which we believe will 
strengthen those components of the legislation.
    The following comments (by section), are offered in the spirit of 
collaboration. We hope they will strengthen the legislation and 
influence and catalyze thoughtful and fruitful discussions in order to 
ultimately establish a successful solution to the problems the forests 
and communities in eastern Oregon, and other communities across the 
nation currently face.
                      section 4: forest management
    (a)(1): Insert additional Management Goal as (E) to read;

                  (E) to increase the economic viability and stability, 
                including job creation and utilization of woody 
                biomass, of forest-dependant communities located within 
                the covered area.
   section 7: eastside forest scientific and technical advisory panel
    Our comments related to the Eastside Forest Scientifi c and 
Technical Advisory Panel relate to 1) The role and purpose of the 
panel, 2) The composition of expertise represented on the panel, and 3) 
The relationship of the Advisory Panel to the collaborative group 
recommendations.
    Sustainable Northwest believes that any solution to the forest 
health problems facing eastern Oregon must refl ect an integration of 
ecological, economic, and social strategies. The current make-up of the 
Advisory Panel does not recognize this basic principle of 
sustainability. To remedy this oversight, we suggest the following 
modifi cations (in italics):

          SEC. 7. (a) In General

          (2) To advise periodically the Secretary, collaborative 
        groups, and the public regarding the development and 
        implementation of--

                  (A) forest and watershed management goals;
                  (B) the restoration assessment, including workforce, 
                contractor and manufacturing capacity;
                  (C) ecological restoration projects; and
                  (D) social and economic impacts of these activities.

          SEC. 7. (b) Composition

          (1) APPOINTMENT--The advisory panel shall be composed of 9 
        members, each of whom shall be appointed by the Secretary, in 
        consultation with the appropriate committees of Congress.
          (2) REQUIREMENTS--

                  (A) (ii) the Panel shall be comprised of individuals 
                with expertise in fields relating to the areas they 
                will advise of as described in SEC.7 (2)(A),(B), (C), 
                and (D)--

                      (VIII) Environmental Economics;
                      (IX) Natural Resource Economics;

                      (and adding)
                      (XV) Natural Resource Social Science,

          (c) Duties--

          (1) RECOMMENDATIONS REPORT--

                  (B) REQUIREMENTS--In carrying out subparagraph (A), 
                the advisory panel shall ensure that the 
                recommendations contained in the report--

                    (i) are based on the best available science; and
                    (ii) provide management guidance to the Secretary 
                regarding--

                      (adding)
                      (VIII) the types of business processes that will 
                increase local capacity to compete for projects within 
                the area of legislation;
                      (IX) opportunities to increase coordination and 
                technical assistance provided to businesses, existing 
                and new, that will compete for contracts offered under 
                this Act;
                      (X) opportunities to secure bonds and other 
                financial support to enable small and local contractors 
                to participate in federal contracting; and
                      (XI) lessons that could be applied across the 
                covered area, beyond the scope this legislation that do 
                not require new legislation.

    As part of the initial assessment required under this Act (in 
section 8 (b)(7)), baseline information on ecological, economic and 
social conditions shall be established. However, long-term measures 
relating to these are not required data to assess the success and 
impact of this Act on the covered area. We urge you to include both 
economic and social along with ecological impacts on the covered area 
in the assessments.

          (d) Report--

          (2) REQUIREMENTS--

                  (A) conduct an assessment regarding the 
                implementation and effectiveness of this Act with 
                respect to--

                    (i) quantitative and qualitative improvements to 
                forest and watershed health, including resiliency, 
                aquatic function, and the restoration of plant 
                composition, structure, and function in the covered 
                area;
                    ii) the development of--

                    (Modify (iii) to read:)
                    (iii) quantitative and qualitative improvements to 
                maintaining industry infrastructure through the 
                provision of supply to mills and biomass energy 
                facilities, creating local jobs, development of local 
                markets for biomass and other value-added wood 
                products, and improvements to the process and projects 
                of existing and new collaborative groups.
                       section 10: collaboration
    Sustainable Northwest supports the use of collaborative processes 
and the involvement of collaborative groups to participate in the 
design, implementation, and monitoring of projects on National Forest 
System lands. We are pleased that this legislation attempts to raise 
their stature and importance in the process. However, we have several 
concerns which are elaborated below.

          (a) Collaborative Groups--

          (2) RECOGNITION--

    Requiring that collaborative groups receive formal recognition by 
the Secretary, coupled with a process to submit a complaint about a 
collaborative group, creates the potential for political gridlock. 
Collaborative groups, unlike FACA chartered groups, are self-convened, 
develop their own systems for making decisions, and generally are based 
on willing participants sitting down to solve problems together. The 
best practices for collaborative groups are well known, and include: 1) 
Operate in an open, transparent, and inclusive process, 2) Include and 
encourage a diverse set of interests and community leaders to 
participate, 3) Articulate clear sets of ground rules and operation 
procedures to assist the group in moving forward together, 4) Make 
decisions through a consensus process, and 5) Generally have some paid 
staff capacity to carry forward the work of the group.
    The recognition process as outlined in the bill legitimizes certain 
interests over others, by requiring that the minimum requirements for 
diverse representation come from just three interest group categories: 
the environmental community, timber and forest interests, and county 
government. This means if any one of these interests refused to 
participate, or withdrew their participation from a collaborative 
process, or lost staff capacity to participate, the ``recognition'' of 
the group could be in jeopardy. Furthermore, we are concerned that the 
recognition process creates unnecessary federal oversight over non-
federal entities. The bill does not provide any mechanism for funding 
the operation of these collaborative groups. In addition, the 
requirement that members of a collaborative group be from the state of 
Oregon is too restrictive. Any individual who is willing to participate 
in the process of a collaborative group and adhere to their operational 
procedures should be able to count toward the composition of the 
collaborative group. Several collaborative groups that Sustainable 
Northwest has worked with have benefitted from the participation of 
interest groups from outside their state, and even their region, and as 
these are national forests, the threshold for involvement should not be 
based on where you live, but on your willingness to engage, learn, and 
find solutions.

          (a) Collaborative Groups--

          RECOGNITION:

                  (A) APPLICATION--
                  (B) STANDARDS FOR RECOGNITION--To recognize a 
                collaborative group under subparagraph (A), the 
                Secretary shall ensure that the collaborative group 
                provide documentation of--

                    (i) a commitment to involving a diversity of 
                perspectives in their process;
                    (ii) operation procedures and decision-making 
                protocols that support consensus-based or voting 
                procedures to ensure a high degree of agreement among 
                participants and across various interests;
                    (iii) processes for resolving decisions when they 
                cannot come to agreement;
                    (iv) processes for transition and replacement when 
                staff changes occur at any involved organization and 
                ways to engage new participants at any point in the 
                collaborative process;
                    (v) a way to share and disseminate information to 
                people interested in the work of the collaborative 
                group; and
                    (vi) a level of participation sufficient to ensure 
                that members of the collaborative group are adequately 
                informed before each vote.

                  (C) WITHDRAWAL OF OFFICIAL RECOGNITION--

                    (i) REVIEW OF COMPLAINTS--The Secretary shall:

                      a) not accept any complaints regarding 
                collaborative group recognition status for the first 
                three years after receiving recognition to ensure that 
                the groups have the opportunity to work together 
                without the threat of complaint or withdrawal of one 
                the interest groups;
                      b) only accept complaints from individuals who 
                are currently participating in, or have participated in 
                recognized collaborative groups; and
                      c) once a qualified complaint has been filed, it 
                will be promptly reviewed to determine if a recognized 
                collaborative group has failed to meet the requirements 
                described in subparagraph (B).

          (4) ROLE OF COLLABORATIVE GROUPS--

                  We do agree that the recommendations of collaborative 
                groups should be weighted heavily by the Secretary, and 
                support the increased stature provided by the 
                legislation to collaborative group involvement and 
                recommendations. It is unclear how the recommendations 
                of the collaborative groups and the Eastside Forest 
                Scientific and Technical Advisory Panel would interact. 
                Please see our comments on SECTION 7 of the 
                legislation.

          (5) MULTIPARTY MONITORING--

                  We are pleased to see that the legislation recognizes 
                the importance of monitoring within the collaborative 
                process and its role in building trust and increasing 
                understanding across diverse stakeholders. However, the 
                US Forest Service currently prohibits the use of 
                retained receipts from stewardship contracting to pay 
                for multi-party monitoring, and is positioned so that 
                the programmatic multi-party monitoring required by the 
                stewardship contracting authority should be narrowly 
                focused only on process monitoring.
                  Sustainable Northwest disagrees with this narrow 
                approach to funding multi-party monitoring. Multi-party 
                monitoring is an important tool to increase trust and 
                understanding, can help improve the type of information 
                that is collected, and can contribute to real 
                understanding of the outcomes of specifi c management 
                actions.
                  In addition, we believe that it is time that the U.S. 
                Forest Service considered how its business procedures, 
                especially how it offers contracts for work and access 
                to material on public lands, affect rural economies. We 
                believe this Act should require the agency to report on 
                how this legislation creates and maintains jobs and 
                contributes to the manufacturing sector essential to a 
                vibrant rural economy.
                  Therefore, we believe section (5) Multiparty 
                Monitoring should be amended as follows (italics 
                indicate our suggested language additions):

          (5) MULTIPARTY MONITORING--

                  (A) AUTHORITY OF COLLABORATIVE GROUPS--Each 
                collaborative group may monitor and evaluate each 
                ecological restoration project carried out under this 
                Act and may use retained receipts generated from 
                stewardship contracts or other funds appropriated by 
                this Act to support their activities.
                  (B) SCOPE OF EVALUATION--In carrying out an 
                evaluation under subparagraph (A), a collaborative 
                group may assess each aspect of the ecological 
                restoration project, including--

                    (i) the status of the development, execution, and 
                administration of the ecological restoration project;
                    (ii) each specific accomplishment that has resulted 
                from the ecological restoration project; and
                    (iii) each ecological, economic, and social 
                benefit, and the cost, to local communities and the 
                Federal Government resulting from the ecological 
                restoration project.

                  (C) REPORTS.--A collaborative group may submit to the 
                advisory panel a report containing the results of the 
                evaluation of the ecological restoration project that 
                is the subject of the evaluation.
                  (D) AGENCY ACCOUNTABILITY.--The Forest Service shall 
                submit to Congress on an annual basis a report that 
                accounts for the:

                    i) number and percent of jobs retained or created 
                as a result of the activities under this Act;
                    ii) number of people trained to perform restoration 
                work or other activities related to this Act;
                    iii) number and percent of local businesses awarded 
                contracts using the authorities described in Section 
                13;
                    iv) amount and percent of woody material removed 
                from projects implemented under this Act that is 
                processed at local facilities;
                    v) the result of local multi-party monitoring 
                efforts; and
                    vi) areas of needed improvement and steps to be 
                taken to improve implementation of this Act.

                  (E) PUBLIC ACCESS TO DATA.--The Secretaries shall 
                ensure that all data collected and analyzed under this 
                Act are made available to the public in an electronic 
                format that is easily shared and understandable. The 
                Secretaries may collect and disseminate data related to 
                this Act using contracts, cooperative agreements, and/
                or grants with nonprofit organizations, universities, 
                community colleges, small or micro-enterprises, youth 
                groups or other entities.

                  Adding in new subsection 6 establishing a 
                ``Collaboration Support Grant Program''. In order to 
                establish this Program, we suggest the new following 
                language (in italics):

          (6) COLLABORATION SUPPORT GRANT PROGRAM--The Secretary shall 
        establish a portion of the funds obligated by this Act to 
        establish a ``Collaboration Support Grant Program'' to provide 
        financial and technical support to collaborative groups within 
        the region. The program shall make funds available for:

                  (A) staff support, including facilitation of 
                collaborative groups;
                  (B) travel related to collaborative group activies;
                  (C) workshops related to scientific, facilitation, 
                and other topics that will assist collaborative groups 
                in advancing the goals of this Act;
                  (D) dissemination of ecological, social, and economic 
                information;
                  (E) training; and,
                  (F) collaborative group involvement in multi-party 
                monitoring.
                          section 12: biomass
    Sustainable Northwest has been a strong supporter of utilizing the 
woody biomass byproducts of forest restoration as a means to offset the 
associated costs of land management activities. From our perspective, 
options for utilization include both manufacturing of solid wood 
products and energy, or densified energy products. We have promoted the 
distribution of appropriate-scale facilities that capture the 
ecological restoration goals and economical efficiencies associated 
with co-location and an integrated business model to add the most value 
to woody biomass.

          Subsection (b): Establishing an estimate of available supply 
        over a 20 year period is a worthwhile request from the Agency. 
        These estimates are needed for business owners and 
        entrepreneurs seeking to diversify their business models and 
        invest in utilization infrastructure in eastern Oregon. 
        However, subsection (b)(1) directs the Secretary to make this 
        estimate based on a ``viable economic supply'' and not 
        explicitly based on an estimate of carrying out the ecological 
        objectives in the bill. Sustainable Northwest has long promoted 
        the need for restoration to drive the amount of potential 
        supply available to business interests. This tenet has led us 
        to support the development of ``appropriately scaled'' 
        facilities. Depending on the scope of ecological need for 
        restoration and forest harvesting economics, an appropriately 
        scaled facility may be:

  <bullet> using wood-based heat in a community facility (annual supply 
        need: 300-1000 dry tons),
  <bullet> an integrated facility such as proposed in Wallowa County 
        (annual supply need: 35,000 dry tons) or
  <bullet> a 15 MW combined heat and power facility (annual supply 
        need: 150,000 dry tons).

          We believe the determination to cite a particular biomass 
        utilization business over another--particularly in the case of 
        energy infrastructure--is the role of the private sector and 
        should be driven by the estimated volume of ecologically 
        appropriate removals provided by the Agency. In addition, while 
        biomass supply from private land will undoubtedly be factored 
        into a business decision to build any facility, it is not the 
        role of the Secretary to make a supply estimate on private 
        forests, but could provide funding to support the development 
        of those estimates if the public benefit is clear. The private 
        sector will factor in the estimate from public forests and 
        obtain similar estimates from private landowners as due 
        diligence of developing a business plan.
          Barriers to developing the biomass utilization sector have 
        been the inability of the Agency to deliver ``consistent'' 
        volumes due to necessary environmental rigor, reduced Agency 
        staffing and budgets, mistrust among various stakeholder 
        groups, and lack of access to capital markets in a public lands 
        setting due to the previous factors. Even with a 20-year supply 
        contract, several of these barriers will not be addressed. In 
        the past, no mill had a guaranteed contract for supply from the 
        Agency, yet the industry was able to grow its capacity. We 
        would caution that a single, long-term contract limits the 
        ability of forest managers to capture markets developed in 
        subsequent years that may utilize biomass more efficiently and 
        provide a larger revenue stream to offset the costs of 
        treatments. We strongly believe that it is the role of the 
        private sector, using current market dynamics, to successfully 
        bid on contracts offered by the Agency.

          Subsection (b)(2)(A): In estimating the volume of biomass 
        available, this subsection provides some language for what 
        material qualifi es as biomass, but stops short of using this 
        language as a definition of renewable biomass. This issue has 
        been particularly relevant in the Federal policy dialogue with 
        respect to renewable energy legislation. The language used here 
        prevents some challenges in implementation, specifically the 
        use of ``minimum size standards for sawtimber.'' These 
        standards are out of date with current forest products markets 
        and would disallow some large, unhealthy or ``cull'' stems from 
        being utilized. Other similar attempts at a biomass defi nition 
        have used language similar to ``otherwise not used for a higher 
        value purpose'', which more effectively provides a reasonable 
        ecological sideboard and allows for low-value material 
        (diameter not specific) to be utilized to offset costs.

          Subsection (b)(4): This enables the Forest Service to develop 
        contracts for biomass utilization that can be authorized for a 
        twenty year period, with a review at the 10 year point. 
        However, the legislation is unclear if this a different 
        contracting authority then the one described in Section 13, or 
        a separate authority that applies to a uniquely designed 
        ``biomass project contract.'' This should be clarified to avoid 
        confusion in implementation. Sustainable Northwest does not 
        believe that a separate, new contract instrument specifically 
        for biomass utilization should be created; we strongly believe 
        that stewardship contracts and agreements, service contracts, 
        and timber sales, if administered to the best of the Agency's 
        ability, offer a sufficient suite of tools.
          Although only focused on public forests, this bill should 
        capitalize on the common ground built elsewhere in the bill to 
        propose a workable definition for renewable woody biomass from 
        Federal lands. In previous efforts, you have introduced 
        legislation (S. 536) to address the definition of renewable 
        biomass. Section 3 (Definitions) of this bill should include a 
        definition of `renewable biomass'. We suggest the following 
        language that builds upon Senator Wyden's previous work:

          RENEWABLE WOODY BIOMASS--The term `renewable woody biomass', 
        in respect to woody materials harvested from National Forest 
        System land or public lands (as defined in section 103 of the 
        Federal Land Policy and Management Act of 1976, means--

                  (A) materials, pre-commercial thinnings, or removed 
                invasive or exotic species;
                  (B) residues or byproducts from milled logs from 
                wood, paper, or pulp products facilities;
                  (C) byproducts of ecologically-based restoration 
                treatments (such as trees, wood, brush, thinnings, 
                chips, and slash) that are removed--

                    (i) to reduce hazardous fuels;
                    (ii) to reduce or contain disease or insect 
                infestation; or
                    (iii) to restore ecosystem health;

                  (D) would not otherwise be used for higher-value 
                products, such as sawtimber, pulp or composite 
                panelboard products
                  (E) are harvested in accordance with--

                    (i) Federal and State law and
                    (ii) applicable land management plans;

                  (F) are not harvested from:

                    (i) components of the National Wilderness 
                Preservation System,
                    (ii) Wilderness Study Areas, Inventoried Roadless 
                Areas,
                    (iii) old growth stands,
                    (iv) late successional stands, unless material is 
                harvested in accordance with (C),
                    (v) components of the National Landscape 
                Conservation System,
                    (vi) National Monuments,
                    (vii) National Conservation Areas,
                    (viii) Designated Primitive Areas,
                    (ix) Wild and Scenic Rivers corridors, or
                    (x) any areas designated by Congress to be 
                administered for conservation purposes.

    In addition, a clarification needs to be made to the section that 
explicitly qualifies woody biomass (as defined above) as a feedstock 
for renewable energy. We suggest the following language:

          (5) RENEWABLE ENERGY--Any renewable woody biomass produced as 
        a byproduct in accordance with carrying out the purpose and 
        goal of this Act shall qualify as a feedstock for renewable 
        energy.
                     section 13: local contracting
    Sustainable Northwest has been actively engaged in the development 
and implementation of stewardship contracting. We have supported the 
Forest Service in its use by assisting with training sessions, 
providing technical assistance to collaborative groups, providing 
comments on their procedures and guidelines, and participating in the 
programmatic multiparty monitoring that is required. We are pleased to 
see stewardship contracts, as well as stewardship agreements recognized 
in this legislation.
    However, the section, as currently written, is confusing. Current 
law requires that all stewardship contracts or agreements offered by 
the Agencies be awarded on a best value basis and consider: 1) Past 
Performance, 2) Technical Approach, and 3) Price. Furthermore, the 
Forest Service handbook requires that all stewardship contracts be 
developed collaboratively and ensure that local community benefit is 
considered when awarding contracts. We agree with the current language 
in the law, and agency guidance may not be specifi c enough to support 
increased local capture of stewardship contracts or agreements, or 
ensure that the contract is awarded to the bidder who is most able to 
meet the ecological objectives of the project. However, we do not 
believe the bill will do much to change the impact of existing 
authorities. We believe the language in this legislation should be 
modified to ensure that contracts help to: 1) Retain existing 
contracting capacity and processing infrastructure, 2) Rebuild capacity 
where it has been lost, 3) Ensure the ecological objectives of the 
project can be achieved, and 4) Help to contribute to the creation of 
local markets for products resulting from the restoration activities. 
Therefore, we suggest that (d) be amended to read:

          1. PROCUREMENT PROCEDURE.--In selecting a source for 
        performance of an agreement or contract under subsection (a), 
        the Secretary shall award all stewardship contracts and 
        agreements and service contracts related to forest management 
        on a best value basis, and shall consider the following 
        evaluative criteria:

          a. The ability of the offeror to benefit local economies 
        through the retention or creation of employment and/or training 
        opportunities;
          b. The ability of the offeror to ensure that wood and other 
        by-products are processed locally to the maximum extent 
        feasible and contribute to the development of a low-carbon 
        economy, including thermal applications of wood utilization, 
        integrated utilization strategies and facilities, and/or other 
        value added products that can be marketed in existing or 
        emerging markets;
          c. The ability of the offeror to meet the project's 
        ecological objectives with appropriate attention to the 
        sensitivity of the resources being treated, especially soils 
        and water;
          d. Consider past performance, including, but not limited to, 
        past employment and hiring practices, such as instances of 
        wage, safety, or other violations; and
          e. To ensure price factors are considered but do not override 
        non-price factors, confirm that nonprice factors are weighted 
        heavily enough to make certain they will receive significant 
        consideration in selecting contractors.

    Thank you, again, for the opportunity to provide comments to this 
bill. We look forward to working with you and your staff to strengthen 
the bill and incorporate our ideas and suggestions. We believe that 
these suggestions will make the goals of this bill more achievable, 
fair and successful. If you have any questions, please feel free to 
contact me or our Policy Director, Maia Enzer 
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5d30383327382f1d2e282e293c34333c3f313833322f29352a382e2973322f3a">[email&#160;protected]</a> or (503) 221-6911 x 111).
            Sincerely,
                                             Martin Goebel,
                                                         President.
                                 ______
                                 

                                                    March 16, 2010.

    Dear President Obama and Members of Congress: As scientists 
conducting research in the fields of forest and fire ecology, we feel 
compelled to provide input to Congress when proposed legislation does 
not accurately represent the current state of scientific knowledge. 
Some current bills, including the ``Oregon Eastside Forests 
Restoration, Old Growth Protection, and Jobs Act of 2009'' (the 
``Act''), sponsored by Senator Ron Wyden (D-OR), propose measures to 
increase logging levels on national forests based upon the assumptions 
that the current levels and intensities of wildland fire and beetle 
mortality in these forests are ``uncharacteristic'', are harmful to the 
forest ecosystems, and increased logging will reduce the extent or 
intensity of these natural processes. Because these assumptions are not 
based upon a sound scientific foundation, and because of the concern 
that these bills include annual logging-level mandates that might 
undermine existing environmental laws, we urge you not to support such 
proposals as currently written. Ecological considerations should guide 
what we do on our national forests, rather than setting logging targets 
independently of ecological considerations.
    Below, we briefly outline some important current scientific 
information that should be reflected in any Act dealing with forests of 
eastern Oregon or elsewhere in the western United States:

  <bullet> There is currently a significant deficit of large snags 
        (dead trees) in Oregon's forests relative to the minimum 
        habitat needs of many native cavity-nesting wildlife species, 
        especially in eastern Oregon (Donnegan et al. 2008). This 
        Forest Service report, based upon thousands of field plots, 
        concluded that large (over 20 inches in diameter) snags are 
        ``currently uncommon'' in eastern Oregon, at only 1 per acre 
        presently, and determined that ``management may be necessary to 
        produce a greater density of large snags'' (Donnegan et al. 
        2008 [pp. 47-48]).
  <bullet> Fire and insect-mortality are probably the most effective 
        natural processes for providing the snags and large wood that 
        are currently in deficit in these forests.
  <bullet> Where snag densities are relatively higher, these areas do 
        not tend to burn at higher severities (Bond et al. 2009).
  <bullet> The scientific data contradicts the assumptions that, prior 
        to fire suppression, wildland fire in eastern Oregon's forests 
        burned only at low-intensity levels and patches of high-
        intensity fire are somehow ``uncharacteristic'' or unnatural. 
        We now know that forests of the intermountain west, including 
        ponderosa pine forests, have burned at various severities 
        historically, and high-severity fire is a natural part of this 
        mix (Pierce et al. 2004, Sherriff and Veblen 2006, Baker et al. 
        2007, Hessburg et al. 2007, Sherriff and Veblen 2007, Klenner 
        et al. 2008, Whitlock et al. 2008, Baker 2009).
  <bullet> In the eastern Cascades, high-severity fire occurrence is 
        very low, with a current (since 1985) rotation interval of 889 
        years, i.e., at current rates, high-severity fire will only 
        affect a given stand every 889 years--well beyond the normal 
        lifespan of the conifer species (Hanson et al. 2009, Hanson et 
        al. 2010). Moreover, fires are not getting more intense in 
        eastside forests (Hanson et al. 2009, Hanson et al. 2010), and 
        overall fire occurrence is far below is historic extent (Medler 
        2006). It is also apparent that recent levels of fire 
        occurrence make it highly unlikely that fuel treatments could 
        affect fire behavior even in the forest types that tend to burn 
        most frequently (Rhodes and Baker 2008). There is no good 
        evidence that current high-severity fire in eastern Oregon 
        exceeds the natural range of variability.
  <bullet> Fuel treatments do not always reduce fire severity in the 
        relatively rare cases when fire affects treated areas.
  <bullet> Fuel treatments are not effective in maximizing carbon 
        storage relative to fire alone (Mitchell et al. 2009).
  <bullet> Fire has numerous ecological benefits, even when it is high 
        severity. Patches of high-severity create the forest and 
        montane chaparral habitats that are some of the most 
        ecologically important, highly biodiverse, and rarest forest 
        habitat in our western U.S. forests (Hutto 2006, Noss et al. 
        2006, Swanson et al. 2010). Many rare and imperiled wildlife 
        species native to eastern Oregon, such as the Black-backed 
        Woodpecker, depend upon unlogged patches of high-severity fire 
        for nesting and foraging (Hutto 1995, Hutto 2006, Hanson and 
        North 2008, Hutto 2008, Swanson et al. 2010). High-severity 
        fires also provide a bonanza downed wood which benefits aquatic 
        systems (Beschta et al. 2004, Karr et al. 2004, Swanson et al. 
        2010).
  <bullet> Fuel treatments in many widespread forest types are likely 
        to be ineffective in restoring natural fire behavior (Veblen 
        2003; Schoennagel et al. 2004; Noss et al. 2006; Baker et al. 
        2007).
  <bullet> The Act's diameter limit of 21 inches is excessive, and 
        allows far too many mature, old trees to be removed 
        unnecessarily.
  <bullet> Extensive logging typically involves road activities, 
        including the construction of ``temporary'' roads and landings 
        which have negative impacts on watersheds and aquatic systems. 
        The negative watershed impacts of so-called ``temporary'' 
        landings and roads are not temporary, but persistent (Beschta 
        et al. 2004, Karr et al. 2004).
  <bullet> Many imperiled fish species depend on habitats that are 
        affected by land use on public lands in Oregon (USFS and USBLM 
        1997). Many of these habitats are already widely degraded 
        (Henjum et al. 1994). Additional degradation from extensive 
        logging, elevated use and/or construction of roads and landings 
        is likely to further imperil these fish species and increase 
        the likelihood of extirpation.
  <bullet> Remaining roadless areas are critical to biodiversity and 
        larger roadless areas typically have the lowest potential for 
        altered fire regimes, especially due to their location at 
        higher elevations (Henjum et al. 1994). Such areas should be 
        protected from logging.

    Due to the foregoing, we urge that any legislation aimed at 
restoring forests on public lands include the following:

  <bullet> Explicit statements that all activities must fully comply 
        with existing environmental laws.
  <bullet> Retention of citizen review provisions. As stated in Karr et 
        al. (2004): ``Managing public lands for the benefit of present 
        and future generations is challenging--a process most likely to 
        succeed in an open atmosphere that actively uses existing 
        scientific and technical information and expertise.''
  <bullet> Restrict fuel treatments only to areas where multiple lines 
        of empirical evidence clearly indicate that the fire regimes 
        have been altered and that there is currently more high-
        severity fire than there was prior to fire suppression. In such 
        areas, limit thinning to small-diameter trees beneath the 
        forest canopy. Ensure that treatments do not occur in systems 
        where fire regimes have not been altered.
  <bullet> Prohibit construction of new landings and roads. Require 
        significant levels of permanent road decommissioning and 
        closure prior to any fuel treatments.
  <bullet> Retain all mature trees, including those that pre-date 
        settlement (Baker et al. 2007).
  <bullet> Significantly curtail fire suppression in areas where human 
        infrastructure is not at risk. Curtail domestic livestock 
        grazing in areas where it has contributed to fire regime 
        alteration.
  <bullet> Exclude treatments from roadless areas greater than 1,000 
        acres. These areas are scarce, biologically important, and 
        serve as important controls for monitoring effectiveness of any 
        fuel treatments.
  <bullet> Require sound scientific analysis and disclosure of the 
        potential ecological costs and benefits of fuel treatments, 
        prior to initiating treatments.

    We are happy to answer any questions about these issues. Please 
feel free to contact us.
            Sincerely,
                    Chad Hanson, Ph.D., Director and Staff Ecologist, 
                            John Muir Project (email: 
                            <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ea899e828b84998584dbaa8d878b8386c4898587">[email&#160;protected]</a>) Research Associate, 
                            Plant & Environmental Sciences Department, 
                            University of California at Davis; Dennis 
                            Odion, Ph.D. (Ashland, OR), Institute for 
                            Computational Earth Systems Science, 
                            University of California at Santa Barbara; 
                            Jonathan J. Rhodes, M.S., Hydrologist, 
                            Planeto Azul Hydrology, Portland, OR; 
                            Richard Hutto, Ph.D., Professor and 
                            Director, Avian Science Center, University 
                            of Montana; James Karr, Ph.D., Professor 
                            Emeritus, University of Washington; Monica 
                            Bond, M.S., Ornithologist; Derek Lee, M.S., 
                            Mammalogist; Peter Moyle, Ph.D. Center for 
                            Watershed Sciences, University of 
                            California at Davis; Thomas Veblen, Ph.D., 
                            Director, Biogeography Lab Department of 
                            Geography, University of Colorado, Boulder; 
                            Philip Rundel, Ph.D., Distinguished 
                            Professor of Biology, University of 
                            California at Los Angeles; Shaye Wolf, 
                            Ph.D., Ecologist, Center for Biological 
                            Diversity.

                                    

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
